<html>
<title> - MISCELLANEOUS NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 110-213]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-213
 
                MISCELLANEOUS NATIONAL PARKS LEGISLATION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                     

                           S. 127                                S. 327

                           S. 868                                S. 1051

                           S. 1184                               S. 1247

                           S. 1304                               S. 1329

                           H.R. 359                              H.R. 759

                           H.R. 807                              H.R. 1021



                                     
                               __________

                           SEPTEMBER 11, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
39-553                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator From Colorado...................    31
Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     1
Barboza, Maurice A., Founder and CEO, National Mall Liberty Fund 
  DC.............................................................    33
Burr, Hon. Richard, U.S. Senator From North Carolina.............     5
Collins, Hon. Susan M., U.S. Senator From Maine..................     3
Dodd, Hon. Christopher J., U.S. Senator From Connecticut.........    31
Engel, Hon. Eliot L., U.S. Representative From New York..........    22
Feinstein, Hon. Dianne, U.S. Senator From California.............    29
Hicks, David, Executive Director, Arizona Trail Association, 
  Phoenix, AZ....................................................    37
Kennedy, Hon. Edward M., U.S. Senator From Massachusetts.........    32
Kyl, Hon. Jon, U.S. Senator From Arizona.........................     2
McCain, Hon. John, U.S. Senator From Arizona.....................     2
Salazar, Hon. Ken, U.S. Senator From Colorado....................     6
Schumer, Hon. Charles E., U.S. Senator From New York.............     4
Snowe, Hon. Olympia J., U.S. Senator From Maine..................    30
Solis, Hon. Hilda L., U.S. Representative From California........     4
Wenk, Daniel N., Deputy Director, National Park Service, 
  Department of the Interior.....................................     6

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    61


                MISCELLANEOUS NATIONAL PARKS LEGISLATION

                              ----------                              


                      TUESDAY, SEPTEMBER 11, 2007

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. The hearing on National Parks will come to 
order.
    The purpose of the hearing is to consider the following 
bills. But before I do that, I want to congratulate another 
leader of this subcommittee, Senator Burr, who will be joining 
me in the leadership of this committee here. I'm grateful for 
that and I thank God for his new position and his presence.
    The following bills are: S. 127, to explain the purpose and 
provide for the administration of the Baca National Wildlife 
Refuge in Colorado; S. 327 and H.R. 359, to authorize the 
Secretary of the Interior to conduct a special resources study 
of sites associated with the life of Cesar Chavez and the farm 
labor movement; S. 868, to designate segments of the Taunton 
River in Massachusetts as a component of the Wild and Scenic 
Rivers System; S. 1051, to establish the National Liberty 
Memorial in Washington, D.C.; S. 1184 and H.R. 1021, to 
authorize the Secretary of the Interior to conduct a study of 
certain historic sites in Taunton, Massachusetts; S. 1247, 
authorizing a land exchange to allow for development of 
administrative and visitor facilities at Weir Farm National 
Historic Site in Colorado; S. 1304, to designate the Arizona 
National Scenic Trail; S. 1329, to extend the authorization for 
the Acadia National Park Advisory Commission, and for other 
purposes; H.R. 759, to redesignate the Ellis Island Library 
located in the Ellis Island Immigration Museum as the Bob Hope 
Memorial Library; and H.R. 807, to authorize the Secretary of 
the Interior to conduct a study to determine the suitability 
and feasibility of establishing a memorial to the Space Shuttle 
Columbia in Texas.
    Although we have a lengthy agenda, I believe most of these 
bills will be noncontroversial. There are a few bills that the 
administration will oppose and we can discuss those bills in 
greater detail during the hearing.
    [The prepared statements of Senators Kyl, McCain, Collins, 
and Schumer, and Ms. Solis follow:]

 Prepared Statement of Hon. Jon Kyle, U.S. Senator From Arizona, on S. 
                                  1304

    Mr. Chairman, Members of the Subcommittee, thank you for holding 
this hearing on S.1304, the Arizona National Scenic Trail Act. This 
bill would amend the National Trails System Act to designate the 
Arizona Trail as a national scenic trail.
    Senator McCain and I have been working on Arizona Trail legislation 
since 2003. Previous forms of the bill focused on conducting a 
feasibility study to determine whether the trail is physically possible 
and financially feasible. We took this approach because a feasibility 
study is usually conducted for most trails before they enter the 
National Trails System.
    The legislation before you today, however is not a feasibility 
study bill; it is a designation bill and let me tell you why--we now 
know this trail is physically possible and financially feasible. Most 
of the Arizona Trail already exists, extending over 800 nearly 
continuous miles from the Mexican border to Utah. Ninety-nine percent 
of the route is on public land, and it will not require a single land 
acquisition. There is no doubt that the trail is scenic. The trail is a 
rollercoaster ride through the six of the seven life zones between the 
Equator and the North Pole.
    Designating the Arizona Trail a National Scenic trail will preserve 
a magnificent natural, cultural, and historical experience of the 
American West while bringing balance geographically to a trail system 
heavily focused on the Eastern United States. I urge my colleagues to 
work with Senator McCain and me to ensure that the Arizona Trail 
becomes a permanent part of our landscape.
                                 ______
                                 
  Prepared Statement of Hon. John McCain, U.S. Senator From Arizona, 
                               on S. 1304

    Mr. Chairman, I greatly appreciate the opportunity to offer my 
comments regarding S. 1304, the Arizona National Scenic Trail Act. This 
bill would designate the Arizona Trail as a National Scenic Trail.
    Mr. Chairman, the Arizona Trail is a beautifully diverse stretch of 
public lands, mountains, canyons, deserts, forests, historic sites, and 
communities. The Trail is approximately 807 miles long and begins at 
the Coronado National Memorial on the U.S.-Mexico border and ends in 
the Bureau of Land Management's Arizona Strip District on the Utah 
border near the Grand Canyon. In between these two points, the Trail 
winds through some of the most rugged, spectacular scenery in the 
Western United States. The corridor for the Arizona Trail encompasses 
the wide range of ecological diversity in the state, and incorporates a 
host of existing trails into one continuous trail. In fact, the Trail 
route is so topographically diverse that a person can hike from the 
Sonoran Desert to Alpine forests in just one day.
    For over a decade, more than sixteen Federal, state, and local 
agencies, as well as community and business organizations, have 
partnered to create, develop, and manage the Arizona Trail. Trough 
their combined efforts, these agencies and the members of the Arizona 
Trail Association have completed over 90% of the longest contiguous 
land-based trail in the State of Arizona. Designating the Arizona Trail 
as a National Scenic Trail would help streamline the management of the 
high-use trail to ensure that this pristine stretch of diverse land is 
preserved for future generations to enjoy.
    Mr. Chairman, as you know, under the National Trails System Act a 
proposed trail typically receives national designation after a federal 
study assess the feasibility of establishing a trail route and 
addressing other land management matters. But in this case, it's not 
necessary to require a feasibility study for the Arizona Trail because 
it's virtually complete with less than 60 miles left to build and sign. 
Already heavily used, the Trail has overwhelming support from the local 
governments and citizens of the State of Arizona. All but one-percent 
of the trail resides on public land, and the unfinished segments do not 
involve private property. The trail meets the criteria to be labeled a 
National Scenic Trail and already appears on all Arizona state maps. 
Therefore, the Congress has reason to forego an unnecessary and costly 
feasibility study and proceed straight to National Scenic Trail 
designation.
    The Arizona Trail is known throughout the state as boon to outdoor 
enthusiasts. In one of the fastest-growing states in the U.S., the 
designation of the Arizona Trail as a National Scenic Trail would 
ensure the preservation of a corridor of open space for hikers, 
mountain bicyclists, cross country skiers, snowshoers, eco-tourists, 
equestrians, and joggers.
    I thank the Chairman and the members of the Subcommittee for your 
consideration of this legislation.
                                 ______
                                 
 Prepared Statement of Hon. Susan M. Collins, U.S. Senator From Maine, 
                               on S. 1329

    Chairman Akaka, Ranking Member Burr, and members of the 
subcommittee, thank you for holding this hearing today on the Acadia 
National Park Improvement Act of 2007, which I introduced on May 8 with 
Senator Snowe as a cosponsor. This legislation takes important steps to 
ensure the long-term health of one of America's most beloved national 
parks. It would increase the land acquisition ceiling at Acadia by $10 
million; facilitate an off-site intermodal transportation center for 
the Island Explorer bus system; and extend the Acadia National Park 
Advisory Commission.
    In 1986, Congress enacted legislation designating the boundary of 
Acadia National Park. However, many private lands were contained within 
the permanent authorized boundary. Congress authorized the Park to 
spend $9.1 million to acquire those lands from willing sellers only. 
While all of that money has now been spent, rising land prices have 
prevented the money from going as far as Congress originally intended.
    There are over 100 private tracts left within the official park 
boundary. Nearly 20 of these tracts are currently available from 
willing sellers, but the Park does not have the funds to purchase them. 
My legislation would authorize an additional $10 million to help 
acquire these lands. Since these lands already fall within the 
congressionally authorized boundary, this effort would ``fill in the 
holes'' at Acadia, rather than enlarging the park.
    My legislation will also facilitate the development of an 
intermodal transportation center as part of the Island Explorer bus 
system. The Island Explorer has been extremely successful over its 
first years. Since 1999, these low-emission propane-powered vehicles 
have carried more than 1.5 million riders. In doing so, they removed 
424,000 vehicles from the park and reduced pollution by 24 tons.
    Unfortunately, the system lacks a central parking and bus boarding 
area. As a result, day-use visitors do not have ready access to the 
Island Explorer. Our legislation would authorize the Secretary of the 
Interior to provide assistance in the planning, construction, and 
operation of an intermodal transportation center in Trenton, Maine. 
This center will include parking for day users, a visitor orientation 
facility highlighting park and regional points of interest, a bus 
boarding area, and a bus maintenance garage. It will be built in 
partnership with the Federal Highway Administration, U.S. Department of 
Transportation, Maine Department of Transportation, and other partners, 
and it will reduce traffic congestion, preserve park resources, and 
help ensure a vibrant tourist economy.
    Finally, our legislation would extend the 16-member Acadia National 
Park Advisory Commission for an additional 20 year period. This 
commission was created by Congress in 1986 and expired in 2006. It was 
a mistake to let the commission expire. The commission consists of 
three federal representatives, three state representatives, four 
representatives from local towns on Mount Desert Island, three from 
adjacent mainland communities, and three from adjacent offshore 
islands. These representatives have provided invaluable advice relating 
to the management and development of the Park. The Commission has 
proven its worth many times over and deserves to be extended for an 
additional 20 years.
    Acadia National Park is a true gem of the Maine coastline. The Park 
is one of Maine's most popular tourist destinations, with nearly three 
million visitors every year. While unsurpassed in beauty, the Park's 
ecosystem is also very fragile. Unless we are careful, we risk 
substantial harm to the very place that Mainers and Americans hold so 
dear.
    In nine years, Acadia will be 100 years old. Age has brought both 
increasing popularity and greater pressures. By providing an extra $10 
million to protect sensitive lands, expanding the highly successful 
Island Explorer transportation system, and extending the Acadia 
National Park Advisory Commission, this legislation will help make the 
Park stronger and healthier than ever on the occasion of its centennial 
anniversary.
    Again, I extend my appreciation to Chairman Akaka and Ranking 
Member Burr. I know our national parks are very important to them, and 
I look forward to working with them to advance this legislation.
                                 ______
                                 
 Prepared Statement of Hon. Charles E. Schumer, U.S. Senator From New 
                           York, on H.R. 759

    Chairman Akaka and members of the Committee, thank you for holding 
this important hearing. I appear before you today to express my support 
of H.R.759, a bill to redesignate the Ellis Island Library on the third 
floor of the Ellis Island Immigration Museum as the ``Bob Hope Memorial 
Library.''
    Bob Hope and his family passed through Ellis Island in 1907. In 
1920, Bob Hope become an American citizen, and went on to become one of 
the most famous Ellis Island immigrants. His impressive career in 
entertainment, included hundreds of radio, movie, television and 
personal appearances, and made Bob Hope a star and a household name. 
The Guinness Book of Records cites Bob Hope as the most honored 
entertainer in the world, with more than two thousand awards and 
citations for humanitarian and professional efforts, including 54 
honorary doctorates and a Congressional Gold Medal.
    Perhaps the most remarkable aspect of Bob Hope's extraordinary 
career was his commitment to his country. Bob Hope was dedicated to 
entertaining American service men and women throughout the world during 
times of war and peace for over sixty years. He spent the majority of 
World War II entertaining Allied troops. In later years, he traveled to 
Korea, Vietnam, and the Middle East to perform for our troops. In 
recognition of this dedication to America's servicemen and women, 
Congress named him as an honorary veteran for the decades of work he 
did with veterans serving overseas.
    Renaming the library on Ellis Island after Bob Hope is a fitting 
tribute to one of America's most famous immigrants. The library will 
serve as a daily reminder to everyone who visits Ellis Island of a man 
whose life and career epitomizes the American dream.
    Thank you again, Chairman Akaka and members of the Committee, for 
holding this hearing and for inviting me to testify today.
                                 ______
                                 
  Prepared Statement of Hon. Hilda L. Solis, U.S. Representative From 
                   California, on H.R. 359 and S. 327

    Thank you Chairman Akaka and Ranking Member Burr for the 
opportunity to provide testimony in support of H.R. 359 and S. 327, 
legislation to authorize a special resource study by the Department of 
Interior to honor the life of Cesar Estrada Chavez. I appreciate the 
leadership of Senators Salazar and McCain, and your willingness to give 
this legislation consideration in your Subcommittee. I am pleased that 
the U.S. House passed H.R. 359 with bipartisan support under suspension 
of the rules on July 10, 2007, and I am hopeful the full Energy and 
Natural Resources Committee will consider this legislation favorably 
and forward it to the full Senate in a timely manner.
    Cesar Estrada Chavez, a second-generation American, was born on 
March 31, 1927 in Yuma, Arizona. Raised during the Great Depression, 
Chavez's family lost everything and wandered the southwestern United 
States with thousands of other farm worker families. Chavez eventually 
left the fields in 1952 and conducted voter registration drives and 
campaigns against racial and economic discrimination. In 1962, Chavez 
returned to help farm worker families and started the National 
Farmworkers Association. Today we know this organization as the United 
Farm Workers (UFW.)
    Cesar Chavez changed the course of history for Latinos and farm 
workers. As a result of his actions, many have been empowered to fight 
for fair wages, health care coverage, pension benefits, housing 
improvements, pesticide and health regulations, and countless other 
protections for their health and well-being. These changes have meant 
considerable improvements for the life of the farm worker, three-
fourths of which are Latino.
    Chavez was a student of Mahatma Gandhi's non-violent philosophies. 
He believed that non-violence is the most powerful tool to achieve 
change, including social and economic justice and equality. Cesar 
Chavez taught that if we ``have the capacity to endure, if we have the 
patience, things will change.'' Chavez also valued equity, 
responsibility, and faith.
    Since I was a young Latina, Cesar Chavez has been my inspiration. 
Cesar Chavez' work inspired me to find ways to help others and led me 
to civil service where I strive to do the best I can for those I 
represent. As a result of his beliefs, exhibited through his actions, I 
was moved to introduce H.R. 359 and believe it is important that we 
preserve his history through our National Parks System.
    National Park System units are important components of our nation's 
historic, cultural, economic, recreation, and social identity, yet 
there is not a single unit of the National Park System dedicated to 
Latinos. Chavez strongly understood the importance of the land and the 
value of the environment in connection to ones health and economic 
stability. For many Latinos, this appreciation of the environment is 
cultural. Ninety-six percent of Latinos believe the environment should 
be an important priority for this country, and I strongly believe we 
should honor Latinos and Cesar Chavez through this special resource 
study. It is my hope that one day Latino families have a place in the 
National Park Service where they can appreciate, honor and learn about 
Cesar Chavez's work and beliefs, just as African American families can 
visit the Martin Luther King, Jr. historical site and the Selma-
Montgomery trail.
    H.R. 359 has broad support. It has been endorsed by the 
Congressional Hispanic Caucus, the National Parks Conservation 
Association, the National Hispanic Environmental Council, Southern 
California Edison Company, and the National Association of Latino 
Elected and Appointed Officials, among many others. The Department of 
Interior testified before the House Natural Resources Committee in 
support of this legislation, stating ``As a result of his efforts, he 
continues to serve as a symbol not only for Hispanic-Americans, but for 
all Americans, of what can be accomplished in this country through 
unified, courageous and nonviolent actions.''
    Chavez died in 1993 at the age of 66. 50,000 people attended his 
funeral. This is a tribute to the impact he had on people's lives. By 
authorizing a study by the Department of Interior on the areas 
important in his life, we are studying the areas important in the lives 
of so many citizens who wandered the southwest during the great 
depression in search of work, the lives of so many who believe in 
peaceful change, and the lives of so many who toil today in our fields 
as farm workers.
    I appreciate your consideration of H.R. 359/S. 327 and am hopeful 
you can join me in support of this legislation.

    At this time I'd like to recognize the ranking member of 
the subcommittee, Senator Burr, for any statement he may care 
to make.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Good afternoon to 
you. I want to express my appreciation to all of the witnesses 
who are appearing in front of the subcommittee today.
    We have an extremely full agenda with 12 bills. The 
diversity of topics covered in this hearing reflects the broad 
mission of the National Park Service and the scope of this 
subcommittee. In this single hearing we will discuss historic 
buildings constructed in the 1700s, the valor and sacrifices of 
soldiers of the Revolutionary War, the life of a leader who 
fought for the rights of migrant farm workers, historical 
figures who immigrated through Ellis Island, and the Columbia 
Space Shuttle tragedy.
    We will also address a National Scenic Trail and a Wild and 
Scenic River. These issues illustrate the degree of public 
interest in the National Park System and the Service's 
continuing role in preserving the history of our Nation.
    Mr. Chairman, I want to thank you for convening the 
subcommittee. I, like you, look forward to a thorough review of 
these bills and the likelihood that a majority of them have 
unanimous support, and I yield the floor.
    Senator Akaka. Thank you very much and I look forward to 
working with you, Senator Burr.
    Now I'd like to call on the Senator from Colorado for any 
remarks that he wishes to make.
    Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Senator Akaka. I am 
very much looking forward to this hearing and to support the 
legislation that Senator Allard and I have introduced 
concerning amendments to the Great Sand Dunes National Park and 
Preserve Act of 2007. I also look forward to hopefully passing 
out of this committee the authorization for the study on the 
sites to honor the late American hero Cesar Chavez. So I'm 
looking very much forward to the hearing.
    Thank you, Senator.
    Senator Akaka. Thank you very much. It's good to have you 
here.
    Congressman Engel is due to be here and he is not. So I'd 
like to ask Dan Wenk to please come forward. Dan Wenk is the 
Deputy Director of the National Park Service and will testify 
on behalf of the administration on all of the bills. Dan has 
been a frequent witness this year and I'd like to welcome you 
back this afternoon. We will include all of your written 
statements in the record, so please feel free to summarize your 
remarks. Once you have finished with your comments on all of 
the bills, we will begin with our questions.
    So will you please proceed.

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before this subcommittee to present the 
administration's views on 12 bills on today's agenda. One of 
the bills is under the jurisdiction of the U.S. Fish and 
Wildlife Service and another under the U.S. Forest Service. I 
ask that after I give my statement that officials from these 
two agencies be allowed to join me to respond to your 
questions. They are Andy Laranger, Acting Division Chief, 
Conservation Planning and Policy, National Wildlife Refuge 
System, and Jim Bedwell, Director of the Heritage and 
Recreation, U.S. Forest Service. I will submit our full 
statements for the record and summarize the administration's 
positions on those bills.
    S. 127 would amend the Great Sand Dunes National Park and 
Preserve Act of 2000 to explain the purpose and to provide for 
the administration of the Baca National Wildlife Refuge in 
Colorado. The administration supports this bill if amended to 
address issues regarding water rights within the refuge. Our 
recommended amendment is included in the Department's written 
statement.
    S. 327 and H.R. 359 would authorize a special resource 
study of Cesar Chavez and the farm labor movement he led from 
the 1950s to the 1980s. The study would evaluate a range of 
resources in Arizona and California for potential addition to 
the National Park System, as well as for their potential 
eligibility for the National Register of Historic Places and 
for designation as a national historic landmark. The Department 
supports this legislation.
    S. 868 would designate segments of the Taunton River in 
Massachusetts as a component of the National Wild and Scenic 
Rivers System. Because we are currently completing the study 
authorized by Congress to determine the eligibility and 
suitability of the Taunton River for inclusion in the National 
Wild and Scenic Rivers System, the Department requests that the 
committee defer action on the bill until the study is complete. 
However, if this bill moves forward we would like to work with 
the committee to make it more consistent with other wild and 
scenic river designation bills that have been enacted by 
Congress.
    S. 1051 would authorize the National Mall Liberty Fund D.C. 
to establish a memorial on the site of the Constitution Gardens 
on the National Mall that was previously approved for the Black 
Revolutionary War Patriots Memorial. The Department supports 
the establishment of a memorial in the Nation's capital that 
would recognize and commemorate the contributions of African 
Americans who fought for their independence, liberty, and 
justice during that war. However, we oppose S. 1051 in its 
current form as it is inconsistent with the Commemorative Works 
Act. The Department has determined that the proposed National 
Liberty Memorial is a new proposal, not an extension for the 
authority of the Black Revolutionary War Patriots Memorial, and 
should follow all the processes the Commemorative Works Act 
requires for new memorials, including the site selection 
process.
    S. 1184 and H.R. 1021 would authorize a special resource 
study for historic buildings and areas in the city of Taunton, 
Massachusetts. The Department opposes this legislation because, 
while the historic properties listed in the bills are locally 
significant, they have been determined not to be nationally 
significant. By law and policy, national significance is the 
first criteria that must be met for a resource to be determined 
appropriate for inclusion in the National Park System. Other 
authorities and mechanisms exist at the Federal, State, and 
local levels to support the preservation of historic properties 
of local significance.
    S. 1247 would enable the National Park Service to acquire 
land for visitor and administrative facilities for Weir Farm 
National Historic Site within a larger geographic area than the 
current law provides. The change would enable the National Park 
Service to consider the acquisition of all property in all of 
Fairfield County, Connecticut, including a building in nearby 
Reading that the park has leased for over 13 years for park 
curatorial and maintenance functions. This authority would both 
reduce the cost of building support facilities and address 
concerns that local towns have expressed about the location of 
administrative facilities in residential neighborhoods. The 
Department supports S. 1247, but would like to work with the 
committee to simplify the bill language.
    S. 1304 would designate the Arizona Trail, which runs for 
807 miles from Mexico to Utah, as a national scenic trail 
administered by the U.S. Forest Service. Normally the 
administration does not support the designation of national 
scenic trail without completion of a feasibility study. But 
because of the unique circumstances in this case the 
administration does not object to this legislation.
    S. 1329 would accomplish four objectives for Acadia 
National Park. First, it would extend the life of the park's 
16-member advisory board, which expired in September 2006, for 
an additional 20 years. Second, it would extend the authority 
of the Secretary to exchange land with local towns in order to 
allow both parties to consolidate land holdings within their 
borders. Third, the bill would increase the park's land 
acquisition ceiling from 9.1 million to 28 million. Fourth, it 
would authorize the park to participate in the planning, 
construction, and operation of an intermodal transportation 
center outside the park boundaries.
    The Department supports the bill with two technical 
amendments.
    H.R. 759 would redesignate the third floor library of the 
Ellis Island Immigration Museum as the ``Bob Hope Memorial 
Library.'' By policy, the National Park Service does not 
support naming a park site or facility in honor of a person 
unless there is a strong association between the park and that 
person. Bob Hope did enter the United States through Ellis 
Island, as did many other great Americans. However, there is no 
compelling connection between his life and the Ellis Island 
Immigration Museum. Therefore the Department cannot support 
this bill.
    H.R. 807 would authorize a special resource study of 
several sites in the State of Texas to determine the 
suitability and feasibility of establishing a memorial to the 
Space Shuttle Columbia as a unit of the National Park System. 
The Department supports this legislation.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions you may have.
    [The prepared statements of Mr. Wenk follow:]

 Prepared Statement of Daniel N. Wenk, Deputy Director, National Park 
                  Service, Department of the Interior

                               ON S. 127

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today on behalf of the Administration on a 
number of bills.
    S. 127 would amend the Great Sand Dunes National Park and Preserve 
Act of 2000 to explain the purpose and provide for the administration 
of the Baca National Wildlife Refuge in Colorado. The Administration 
supports this bill if amended. The bill amends earlier legislation by 
affirmatively establishing a purpose statement for the Refuge.
    The Fish and Wildlife Service is currently managing the refuge 
under a Conceptual Management Plan finalized in 2005. The Plan noted 
that the refuge's authorizing legislation did not state a purpose and 
proposed language similar to that of S. 127. Specifically, S. 127 would 
explicitly define the purpose of the refuge as, `` . . . to restore, 
enhance, and maintain wetland, upland, riparian, and other habitats for 
native wildlife, plant, and fish species in the San Luis Valley.'' The 
Service would also be required to emphasize migratory bird conservation 
and manage the refuge in concert with broader landscape scale 
conservation efforts.
    The bill also includes a language requiring the Service to manage 
water on the refuge in approximately the same manner as has occurred 
historically. While this is the current intent of the Fish and Wildlife 
Service, such a requirement could be read to run counter to the purpose 
of the refuge and the sustainability of the wildlife, plant, and fish 
species and their habitat for which the refuge was established. As 
discussed below, for this reason we recommend a clarifying amendment to 
this language.

              BACKGROUND ON BACA NATIONAL WILDLIFE REFUGE

    The Baca National Wildlife Refuge is located in Saguache and 
Alamosa Counties in the San Luis Valley of south-central Colorado. The 
approved acquisition boundary includes 92,500 acres of wetlands, desert 
shrub grasslands, and riparian lands and abuts lands managed by other 
conservation agencies and organizations, including the National Park 
Service, the U.S. Forest Service, and The Nature Conservancy. Other 
land features included within the refuge include stabilized sand dunes, 
intermittent streams, and approximately 20,000 acres of wetland basins, 
many of which are maintained through irrigation practices with decreed 
water rights. The refuge is administered as a unit of the San Luis 
Valley National Wildlife Refuge Complex, which includes the Alamosa and 
Monte Vista refuges, and other smaller units throughout the Valley.
    The refuge's wetlands are an integral part of a larger wetlands 
complex that constitutes the largest and most diverse assemblage of 
wetlands in the State of Colorado. Several bird species of conservation 
concern, such as White-faced ibis, rely on the Baca's wetlands for key 
foraging areas during the breeding season. Waterfowl and other water 
birds heavily utilize wetlands and other habitats on the refuge at 
various times of year, especially during the nesting season. Native 
fish species, including a recently discovered population of Rio Grande 
chub, which is listed by the State of Colorado as species of concern, 
and the Rio Grande sucker, listed by the State as endangered, live on 
the refuge in small streams draining from the Sangre de Cristo Range. 
Elk, mule deer, and pronghorn also use the refuge.
    To date, the Service has acquired 57,000 acres of fee-title land, 
and, in cooperation with neighboring landowners, is managing an 
additional 27,000 acres within the acquisition boundary.
    The refuge was authorized by Congress in 2000 as part of the larger 
creation of the Great Sand Dunes National Park and Preserve. While 
Congress did direct the Secretary of the Interior, acting through the 
Service, to administer the refuge in accordance with the National 
Wildlife Refuge System Administration Act of 1966 and the Refuge 
Recreation Act of 1962, and specified certain water management 
requirements, no formal purpose for the refuge was provided.
    Typically, national wildlife refuges, when established by Congress 
or by Executive action, are assigned a primary purpose that gives the 
Service clear management direction for the refuge. For example, many 
refuges have as their purpose the conservation of migratory birds. 
Others were established primarily for big game, or the conservation of 
species protected by the Endangered Species Act. In recent years, an 
increasing number of refuges have been established in urban areas to 
promote environmental education. Numerous refuges have multiple 
purposes.
    It is important to note that these primary purposes do not 
necessarily preclude other management activities, including public use. 
Rather, they give refuge managers a framework for planning and 
implementing management activities, including long-range conservation 
planning to compatibility determinations, both of which were key 
provisions of the 1997 amendments to the 1966 Refuge Administration 
Act.
    Designating purposes for the Baca National Wildlife Refuge is also 
necessary because the refuge is part of a larger public lands complex, 
comprised of multiple federal jurisdictions, which is in turn situated 
on a landscape with diverse land ownership status. Because refuges, by 
definition, are unique in their ``wildlife first'' approach to land 
management, it is important for the Service to be able to communicate 
with other area landowners, both public and private, as well as the 
general public about the purposes for which the Service will manage the 
Baca, as well as the overarching mission of the National Wildlife 
Refuge System.

                         WATER USE REQUIREMENT

    The only change the Administration recommends to the bill as 
currently written does not involve the purpose statement of the refuge 
but the provision at section 1(3), which would require the Secretary of 
Interior, in administering water resources on the refuge to ``use 
decreed water rights on the Refuge in approximately the same manner 
that the water rights have been used historically.'' As noted above, 
historically, water has been used to irrigate lands now included in the 
Baca National Wildlife Refuge. The Service expects to continue to 
manage the land in such a fashion, however, the document that will 
guide the future of the refuge is a Comprehensive Conservation Plan 
(CCP). While this plan will not be finished for a number of years, the 
refuge will be operating under the current Plan and provide for 
``compatible'' uses as provided by the National Wildlife Refuge System 
Improvement Act. The requirement of S. 127 to use ``decreed water in 
approximately the same manner'' as it has been used historically could 
restrict the options for future management actions available to the 
Service in developing the CCP.
    Additionally, there is a pre-existing water service agreement 
between the Service and the Baca Grande Water and Sanitation District 
associated with the refuge. This agreement obligates the Service to 
lease up to 4,000 acre-feet of water rights--which the Service acquired 
along with the refuge--to the District. Currently, there are several 
wells on the refuge that are decreed for irrigation. Under the terms of 
the agreement, if the District requests the full amount of water to 
which they are entitled, the Service will need to change the decreed 
use of these wells from irrigation to municipal to fulfill the 
District's request. Because the Service must file in State water court 
to change the decreed use of these wells from irrigation to municipal, 
we wish to avoid any potential conflict between S.127 and future state 
water court proceedings.
    For these reasons, we recommend amending the bill to include the 
following italicized language:

          (3) in subsection (d)--
                  (A) in paragraph (1), by striking ``and'' at the end;
                  (B) in paragraph (2), by striking the period at the 
                end and inserting ``; and''; and
                  (C) by adding at the end the following:

          (3) subject to existing agreements and to the extent it does 
        not interfere with refuge purposes, use decreed water rights on 
        the Refuge in approximately the same manner that the water 
        rights have been used historically.''.

    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared testimony on S. 127. I would like to extend our appreciation 
to you and the rest of the Subcommittee, especially Senator Salazar, 
for your leadership and support for the National Wildlife Refuge System 
and for landscape conservation efforts in the San Luis Valley. I would 
be happy to respond to any questions you may have.

                         ON S. 327 AND H.R. 359

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 327 and H.R. 359, bills to 
authorize the Secretary of the Interior to conduct a special resource 
study of sites associated with the life of Cesar Estrada Chavez and the 
farm labor movement.
    The Department supports both bills, which are virtually identical 
to each other and to legislation that we supported during the 108th and 
109th Congresses. While the Department supports the authorization of 
this study, we also believe that any funding requested should be 
directed first toward completing previously authorized studies. We 
recommend a technical amendment to S. 327, described later in this 
statement.
    This study will provide a good opportunity to work with the Cesar 
E. Chavez Foundation and others to identify valuable resources 
associated with the story of Chavez's life and the movement he led and 
ways to protect those resources. Ask historians to name one person who 
had the greatest impact on farm labor, and the name of Cesar Estrada 
Chavez leaps to mind. Between the 1950s and the 1980s Chavez cultivated 
a life-long commitment to bringing respect, dignity, and democracy to 
the nation's farmworkers, many of whom were Hispanic. After an initial 
career as a community organizer, Chavez focused his organizing skills 
on the farmworkers, inspiring them to look their employers in the eyes, 
stand up for their rights and take active roles in creating their union 
and wielding its power. As a result of his efforts, he continues to 
serve as a symbol not only for Hispanic-Americans, but for all 
Americans, of what can be accomplished in this country through unified, 
courageous, and nonviolent action.
    Chavez's death on April 22, 1993, brought a resurgence of interest 
in his life and work and a new wave of assessments recognizing his 
national and, indeed, international significance. He has taken his 
place among other national labor leaders in the Department of Labor's 
Hall of Fame and been recognized by an ever-increasing number of states 
and communities with special holidays, events, and place names. Because 
of the tremendous impact he had, we believe it is appropriate to study 
sites associated with Cesar Chavez and the farm labor movement he led 
in order to consider ways to preserve and interpret this story of 
enormous social change.
    The National Park Service and the Cesar E. Chavez Foundation first 
discussed the possibility of conducting a national historic landmark 
study of sites related to the work of Chavez and the farmworkers' 
movement several years ago, as a way of identifying sites important to 
the history of the man as well as the migrant worker. The Foundation 
represents and fosters the ongoing legacy of Chavez and has a strong 
interest in seeing that heritage preserved. In 2002, the National Park 
Service collaborated with the Foundation and scholars at universities 
in Washington State and California in preparing a preliminary 
assessment and scope for future research on sites associated with 
Chavez and the farmworkers' movement. The information gathered through 
that assessment would give the National Park Service a head start on 
the study authorized by S. 327 and H.R. 359.
    The legislation would authorize a study of sites in Arizona, 
California, and other States that are significant to the life of Cesar 
Chavez and the farm labor movement in the western United States to 
determine appropriate methods for preserving and interpreting sites. 
Through this study, the National Park Service could examine whether 
certain sites are suitable and feasible for addition to the National 
Park System. The study would be conducted in accordance with the 
criteria for new area studies contained in Title III of the National 
Parks Omnibus Management Act of 1998.
    The study also would consider whether any sites meet the criteria 
for listing on the National Register of Historic Places or for 
designation as a National Historic Landmark. This would enable the 
National Park Service to complete the work that was begun with the 
preliminary assessment described earlier. The legislation specifically 
requires that the National Park Service consult with the Cesar E. 
Chavez Foundation, the United Farm Workers Union, and other entities 
involved in historic preservation on this study. The study is estimated 
to cost approximately $250,000.
    If the committee acts on S. 327, we recommend amending it on page 
1, line 6 and on page 2, line 1 by inserting ``special'' before 
``resource study'' to use the term for the proposed study that is 
normally used for such studies and to make it consistent with the title 
of the bill. H.R. 359 as passed by the House includes this change, 
which the Department recommended in testimony before the House 
Subcommittee on National Parks, Forests, and Public Lands on March 29, 
2007.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or the other members of the subcommittee may 
have.

                               ON S. 868

    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to discuss the views of the Department of the Interior 
on S. 868, a bill to amend the Wild and Scenic Rivers Act by 
designating a segment of the Taunton River as a component of the 
national wild and scenic rivers system.
    The Department is currently completing the study authorized by 
Public Law 106-318 to determine the eligibility and suitability of the 
Taunton River for inclusion in the national wild and scenic rivers 
system. The draft report and environmental assessment is currently out 
for public and agency comment, with the comment period scheduled to 
close on September 17, 2007. We request that the committee defer action 
on the bill until the study is complete. In addition, if this bill 
moves forward, we would like to work with the committee to make this 
bill consistent with other wild and scenic river designation bills that 
have been enacted by Congress.
    S. 868 would designate the entire 40-mile main stem of the Taunton 
River as a component of the national wild and scenic rivers system. 
This corresponds to ``Alternative B: Full Designation'' as described in 
the draft report, and is identified in the draft as the environmentally 
preferred alternative because it is the alternative that, by virtue of 
its inclusion of the entire main stem in the designation, provides the 
highest degree of protection. The draft study does not include an 
agency preferred alternative. The environmentally preferred alternative 
is supported by the town meeting and city council votes of all ten 
communities abutting the Taunton River, as documented in the draft 
report and the companion document developed during the study, the 
Taunton River Stewardship Plan, dated July 2005.
    The draft report concludes that the Taunton River meets the 
eligibility requirements of the Wild and Scenic Rivers Act by virtue of 
its free-flowing condition and presence of one or more outstandingly 
remarkable resource values. The 40-mile Taunton River is the longest 
undammed coastal river in New England. This unique character, including 
the lack of a head-of-tide dam, is directly related to outstandingly 
remarkable values identified during the study, including fish, ecology 
and biological diversity, and recreation. As such, the Taunton River 
represents a natural fit with Wild and Scenic River Act purposes of 
recognizing and protecting special free-flowing rivers and the values 
they support.
    The Taunton River is recognized as the most significant river in 
Massachusetts for anadromous fish species, including alewife, blueback 
herring, American shad, hickory shad, gizzard shad and rainbow smelt, a 
direct result of the free-flowing character of the river which allows 
these and other species unfettered access to spawning tributaries. 
Similarly, the broader ecology of the river is unusually diverse and 
intact, supporting 31 distinct wildlife habitats, globally rare plant 
species, regionally significant freshwater and brackish tidal marshes, 
and many rare species of birds and amphibians. A Nature Conservancy 
study has concluded that the Taunton River represents one of the most 
unique, diverse, and intact ecosystems in the North Atlantic Ecoregion, 
from Delaware to Maine. Recreationally, the 40-mile Taunton River 
offers outstanding flatwater paddling, and, in the lower river, 
additional opportunities for broader recreational uses including power 
boating and sailing.
    The study authorized by Public Law 106-318 has been conducted in 
partnership with the local communities of the Taunton River, the 
Commonwealth of Massachusetts, and other local river interests based 
upon the partnership wild and scenic river model. This model recognizes 
and anticipates a limited federal role stemming from the lack of 
federal land ownership. Successful planning and management under these 
circumstances requires the fundamental support and involvement of state 
and local interests. This common basis of support and involvement for 
the Taunton River is outlined in the Taunton River Stewardship Plan 
(July, 2005). This plan and the strong support it has received through 
the extensive public involvement of the study, is the principal basis 
for the draft report's conclusion that the Taunton River can be 
effectively managed and protected as a component of the national wild 
and scenic rivers system, and thereby meets the criteria for wild and 
scenic river suitability. The management scheme proposed in the 
stewardship plan is similar to ones that have proven effective on other 
partnership wild and scenic rivers, including the Sudbury, Concord, and 
Assabet Rivers also in Massachusetts.
    It is important to point out that the draft report is out for 
public review and comment. Once the study is complete, the Secretary is 
required by law to submit to the President a report on the suitability 
or nonsuitability of the river for addition to the national wild and 
scenic rivers system. The President is then required to report to the 
Congress his recommendations and proposals with respect to the 
designation of the studied river. If the President recommends that this 
river be included in the system, we would like to work with the 
committee on several amendments to the bill to clarify the management 
scheme for the river and to conform to established legislative models. 
It would be particularly important in this regard to consider the 
Taunton River Stewardship Plan as the basis for management of the 
designated wild and scenic river segment.
    Mr. Chairman, this concludes my prepared remarks, and I would be 
happy to answer any questions you or other committee members may have 
regarding this bill.

                               ON S. 1051

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1051, a bill to authorize the National Mall 
Liberty Fund D.C. to establish a memorial on Federal land in the 
District of Columbia at Constitution Gardens previously approved to 
honor free persons and slaves who fought for independence, liberty, and 
justice for all during the American Revolution.
    The Department supports the establishment of a memorial in the 
Nation's Capital that would recognize and commemorate the contributions 
of African Americans as they fought for independence, liberty and 
justice during the Revolutionary War. However, the Department opposes 
S. 1051 in its current form as it is inconsistent with the principles, 
processes and requirements set forth in the Commemorative Works Act, 
which has successfully guided the process for establishing monuments in 
the Nation's Capital since it was enacted in 1986. Over the course of 
the succeeding 20 years, 17 memorials have been planned, designed, and 
constructed following that process and an additional five memorials are 
currently in various stages of completion.
    While S. 1051 states that the memorial shall be established in 
accordance with the Commemorative Works Act, the bill also contains 
provisions that contravene several critical requirements of the 
Commemorative Works Act.
    First, the provisions in S. 1051 would designate a specific site 
for the memorial, rather than allowing for the site selection process 
under the Commemorative Works Act to determine the appropriate location 
of the memorial. This site selection process requires consultation with 
the National Capital Memorial Advisory Commission and approval by the 
Commission of Fine Arts, the National Capital Planning Commission, and 
the National Park Service. Congress has traditionally provided that 
such site and design decisions be determined through established 
processes under the Commemorative Works Act, and we support this 
practice that has worked well for over 20 years.
    The specific site identified in the bill is in Area I at 
Constitution Gardens which was approved for the Black Revolutionary War 
Patriots Memorial in 1988, but expired in 2005 and is now within the 
Reserve. In 2003, Congress declared the Reserve to be a completed work 
of civic art and precluded the establishment of new memorials. The 
Department supports Congress's prohibition of new memorial proposals 
within the Reserve. The Department recognizes the site selection 
process and the Reserve to be basic pillars of the Commemorative Works 
Act, a safeguard and a guide to the best use of the parklands of the 
Nation's Capital.
    In addition, S. 1051 is inconsistent with the Commemorative Works 
Act provisions relating to expiration of legislative authority, a 
separate, but related issue. The Commemorative Works Act specifies that 
``upon expiration of the legislative authority, any previous site and 
design approvals shall also expire.'' In 1986, Congress authorized the 
Black Revolutionary War Patriots Memorial Foundation to establish the 
Black Revolutionary War Patriots Memorial consistent with legislation 
to establish the Commemorative Works Act, which was pending before 
Congress at the time and enacted later that year. In 1987, Congress 
enacted second law authorizing placement of that memorial within Area I 
as it was then defined by the Commemorative Works Act. In 1988, the 
National Park Service, the Commission of Fine Arts and the National 
Capital Planning Commission approved a site in Constitution Gardens for 
the Black Revolutionary War Patriots Memorial and, in 1996, approved 
the final design. Despite four extensions of the memorial's 
authorization over 21 years, the Foundation was unable to raise 
sufficient funds for construction, and the authority finally lapsed in 
October 2005.
    The authority to construct a memorial is granted by Congress to a 
specific sponsor to establish a particular memorial typically within 
specified timeframes. The expired 1986 authorization was given to the 
sponsor, the Black Revolutionary War Patriots Memorial Foundation, to 
establish the Black Revolutionary War Patriots Memorial. S. 1051 would 
authorize a different sponsor, the National Mall Liberty Fund D.C. to 
establish a memorial with a different name, and, as we understand it, a 
different design. It has been 19 years since the site was approved for 
the Black Revolutionary War Patriots Memorial and 11 years since the 
design was approved. In accordance with the Commemorative Works Act, 
these previous site and design approvals expired in 2005 along with the 
fourth extension of the legislation authorizing that memorial. Given 
that the reservation of the site expired in 2005, the new sponsor, the 
new name, and a new proposed design, we believe that S. 1051's 
authorization to establish the National Liberty Memorial should not be 
construed as an extension of an expired legislative authority for the 
Black Revolutionary War Patriots Memorial.
    Thus, the Department finds that the National Liberty Memorial is a 
new proposal and should follow all the provisions of the Commemorative 
Works Act, including the site selection process. Unlike all memorial 
proposals that seek authorization by means of a discrete bill to 
recognize and designate an individual memorial subject matter and 
sponsor, S. 1051 would amend Public Law 99-558 to establish the 
National Liberty Memorial without complete compliance to the provisions 
and requirements of the Commemorative Works Act. We are concerned that 
allowing for what amounts to an extension of selected provisions of 
processes required under the Commemorative Works Act after they have 
expired is unfair to memorial sponsors who diligently meet the 
timeframes of their authorizations and creates an unwelcome precedent 
for future efforts to establish memorials through what has been an 
even-handed public process.
    We also would like to point out that S. 1051 makes no provisions 
for the disposition of moneys raised in excess of funds needed for the 
establishment of the memorial or to hold in reserve the amount on hand 
should the authority to establish the memorial expire before 
completion.
    We reiterate our support of the establishment of a memorial in the 
Nation's Capital that recognizes and commemorates the contributions of 
African Americans as they fought for independence, liberty and justice 
during the Revolutionary War. We look forward to the opportunity to 
work with the subcommittee to develop language that would provide for 
such authorization in a manner consistent with the principled processes 
set forth by existing authorities.
       background on the commemorative works act and the reserve
    In 1986, following what some characterized as ``monumental chaos'' 
over the Vietnam Veterans Memorial, which was dedicated in 1982, 
Congress enacted the Commemorative Works Act to guide the process for 
establishing memorials in the nation's Capital. Since its enactment, 
the Commemorative Works Act has played an important role in ensuring 
that memorials in the nation's Capital are erected on the most 
appropriate sites and are of a caliber in design that is worthy of 
their historically significant subjects.
    On November 17, 2003, Congress declared the National Mall complete 
by establishing the Reserve through an amendment to the Commemorative 
Works Act. The Reserve was designated in response to Congressional 
concern over the loss of open space on the National Mall to memorials. 
Between 1980 and 2000, seven new memorials were erected on the Mall. 
This trend foreshadowed a proliferation of commemorative works that 
could threaten the historic open space of the Nation's greatest 
symbolic landscape. As a result of a Congressional hearing in 1997, 
this committee expressed an interest in an evaluation of how the 
Commemorative Works Act was functioning. Pursuant to that request, the 
National Capital Memorial Commission, the Commission of Fine Arts, and 
the National Capital Planning Commission established a Joint Task Force 
on Memorials.
    The Joint Task Force recommended the establishment of a Reserve to 
preserve the monumental core and developed the Memorials and Museums 
Master Plan to redirect memorials throughout the city. The Reserve, an 
area where no new memorials would be constructed other than those 
previously authorized such as that honoring Martin Luther King Jr., was 
envisioned by the Joint Task Force as generally encompassing the 
central cross-axis of the Mall from the U.S. Capitol to the Lincoln 
Memorial and from the White House to the Jefferson Memorial. Congress 
expanded this area to include all of the area between Constitution and 
Independence Avenues from 17th Street west to the Lincoln Memorial, as 
well as lands south of Independence Avenue from the Tidal Basin to the 
Potomac River when it statutorily established the Reserve through 
passage of the Commemorative Works Act Clarification Act of 2003.
    That concludes my testimony, I would be glad to answer any 
questions that you or other members of the subcommittee may have.

                        ON H.R. 1021 AND S. 1184

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 1021 and S. 1184, identical bills that direct the Secretary of the 
Interior to conduct a special resources study regarding the suitability 
and feasibility of designating certain historic buildings and areas in 
Taunton, Massachusetts, as a unit of the National Park System.
    The Department does not support these bills. On June 15, 2004, in 
the 108th Congress, the Department also did not support H.R. 2129, a 
similar bill.
    The City of Taunton, located in southeastern Massachusetts in 
Bristol County, can trace its roots back to the earliest days of our 
Nation. As the seat of Bristol County since 1746, Taunton was the site 
of that county's first courthouse built in 1772, and the town served as 
a locale for colonial discontent prior to the Revolutionary War. In 
1774, Taunton was the site of the raising of the Liberty and Union 
flag, one of a number of symbolic representations in the Colonies 
expressing discontent with British rule. The town settlement was 
anchored around the Taunton River and its tributaries, which provided a 
focus for its shipbuilding and shipping activities during the 1800s. 
The historic nature of the city draws tourists to visit the well-
preserved greens and houses that date back to the 1800s. Taunton's 
history spans from its earliest beginnings as an agrarian hinterland to 
its development as a major industrial urban core (particularly for 
iron) and regional political center during the Revolutionary War. The 
city emerged at an early date as a regional communications focus for 
the exchange and interaction of goods, people, and information.
    H.R. 1021 and S. 1184 both propose that the Secretary conduct a 
study of historic buildings and areas in Taunton, to evaluate the 
suitability and feasibility of designating them as a unit of the 
National Park System. The study is to be conducted in accordance with 
the National Park Service Organic Act (16 U.S.C. 1a-5). In addition to 
the criteria set out in the Organic Act, the bills also require an 
evaluation of these areas against a list of criteria commonly seen in 
study legislation for evaluating individual National Heritage Areas, 
and not part of the usual evaluation of a park unit.
    The Department has concerns about enactment of these bills, because 
the named historic properties have been studied and determined not to 
be nationally significant, the first criterion that must be met for 
inclusion in the National Park System as spelled out in the Organic Act 
and in National Park Service Management Policies 2006. Most of the 
historic properties cited in the findings were included in a Multiple 
Resource Area nomination to the National Register of Historic Places, 
completed in 1984 and nominated by the Commonwealth of Massachusetts, 
which formed the basis for listing properties. The Multiple Resource 
Area nomination documented and evaluated Taunton's historic properties 
including buildings, structures and districts that were found to have 
architectural and historic merit. These properties were evaluated 
within the context of significant historical themes and time periods in 
Taunton's history. The Multiple Resource Area nomination included 86 
individual properties, two districts, three industrial complexes, and 
one religious complex, primarily spanning from the mid-18th Century 
through the mid-20th Century. The Massachusetts State Historic 
Preservation Officer nominated these properties for their local 
historic or architectural significance, rather than for their state or 
national significance. The National Park Service agreed with this 
recommendation and listed the properties in the National Register of 
Historic Places for their local historic or architectural importance.
    The Department is concerned with H.R. 1021 and S. 1184 because 
other authorities and mechanisms exist at the Federal, State, and local 
levels, to support the preservation of historic properties of local 
significance. To expend limited study funds on properties that are 
known not to meet National Park Service standards seems ill-advised 
when the Department is pressed to meet the budgetary needs of 
previously authorized studies of nationally significant resources.
    Currently, the National Park Service is in various stages of 
progress with 37 studies previously authorized by Congress. These 
studies are focusing on potential National Park System Units, National 
Heritage Areas, additions to the National Wild and Scenic Rivers 
System, or additions to the National Trails System. Our highest 
priority is to complete the studies previously authorized by Congress, 
and to begin work on newly authorized studies as soon as funds are 
available.
    In addition, the Department notes that the National Park Service is 
currently in the midst of a wild and scenic river study of the Taunton 
River, authorized by Congress in December 2000. The City of Taunton is 
actively engaged in this process along with the nine other communities 
that abut the main stem of the Taunton River. Historical and cultural 
resources associated with the river, including sites in the City of 
Taunton, are an important part of the study, recognizing that the river 
has a rich history dating from Native American use to colonial 
settlement and early industrial development. The study is currently out 
for public comment and we expect to finalize and transmit it to 
Congress in 2008.
    It would appear that the wild and scenic river study is evaluating 
many of the same resources identified in H.R. 1021 and S. 1184. 
Furthermore, the wild and scenic river study is appropriately 
considering a larger area than the city limits of Taunton. To launch an 
overlapping study with similar but slightly different criteria from 
those governing the wild and scenic river study, would seem to invite 
both confusion and duplication. Therefore, the Department does not 
support enactment of H.R. 1021 and S. 1184.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                               ON S. 1247

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1247, a bill to amend the Weir Farm National 
Historic Site Establishment Act of 1990, and for other purposes.
    The Department supports S. 1247, but would like to work with the 
committee to simplify the language in the bill.
    S. 1247 would amend the Weir Farm National Historic Site 
Establishment Act of 1990 (as amended by Public Law 105-363) to expand 
the geographic area in which the park could acquire up to 15 acres to 
develop visitor and administrative facilities. Public Law 105-363 
required that the acquisition be ``in close proximity or contiguous to 
the park.'' Furthermore, by requiring a planning agreement with the 
towns of Ridgefield and Wilton, Connecticut before building a facility, 
Public Law 105-363 appears to authorize land acquisition only within 
these two towns. S. 1247 would expand the National Park Service's 
authority so that it can consider the acquisition of property in all of 
Fairfield County, Connecticut, including a building in nearby Redding, 
Connecticut, that the park has leased for over 13 years for park 
curatorial and maintenance functions. This expanded authority would 
reduce the cost of building support facilities and would address 
concerns that local towns have expressed about the location of 
administrative facilities in residential neighborhoods.
    Weir Farm National Historic Site was established on October 31, 
1990 to preserve the historic structures and landscapes associated with 
American Impressionist artist Julian Alden Weir. The park's authorizing 
legislation identifies one of the park's purposes as ``to maintain the 
integrity of a setting that inspired artistic expression.'' In keeping 
with this purpose, the park's 1995 General Management Plan determined 
that all administrative and operational support functions should be 
located in off-site facilities. In 1998, Public Law 105-363 authorized 
a boundary expansion of up to 15 acres, and in 2000, the National Park 
Service purchased nine acres in the town of Ridgefield, Connecticut 
under this authority.
    Public Law 105-363 required the National Park Service to enter into 
agreement with the towns of Ridgefield and Wilton, Connecticut, prior 
to building a facility. During discussions, concerns were raised about 
locating a 10,000 square foot facility in a residential neighborhood. 
In addition, cost estimates for building a facility on the newly 
acquired property had increased from $3.4 million to $5.9 million.
    To address local concerns and rising costs, the National Park 
Service would like to consider alternative sites, including space at 
the Georgetown Wire Mill (Mill), a 55-acre brownfield development site 
listed on the National Register of Historic Places and located less 
than 2 miles from the park, in the town of Redding, Connecticut. 
Currently, the park leases 5,000 square feet of curatorial and 
maintenance space at the Mill. S. 1247 would allow the park to acquire 
12,000 square feet of finished space at the Wire Mill in exchange for 
all or part of the nine acres acquired by the park in Ridgefield, 
Connecticut. This acquisition would reduce construction, operating, and 
maintenance costs for the park. Since the National Park Service would 
use all or part of the nine acres currently owned to exchange for the 
space at Georgetown Wire Mill, no acquisition funds are required. If 
appraisals indicate that the Georgetown Land Corporation (Corporation) 
building exceeds the value of the National Park Service land, the 
Corporation has agreed to donate the difference to the National Park 
Service.
    Environmental sustainability would be another benefit of the Mill 
site. Within the next two years, the Mill is expected to be certified 
as a Leadership in Energy and Environmental Design (LEED) village 
center with residential and commercial services and subsidies for 
artist housing.
    The language in S. 1247 that amends paragraph 2 of section 4(d) of 
Public Law 101-485 is complex. Without changing the substance of the 
bill, the Department would like to work with the committee to make the 
language simpler and clearer.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or other members of the subcommittee might 
have.

                               ON S. 1329

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1329, a bill to extend the Acadia National Park Advisory Commission, to 
provide improved visitor services at the park, and for other purposes. 
The Department supports enactment of this bill with two technical 
amendments.
    If enacted, S. 1329 would accomplish four objectives. First, it 
would extend the life of the 16-member Acadia National Park Advisory 
Commission, which expired in September 2006, for an additional 20 
years. Second, the bill would extend the authority of the Secretary to 
exchange land with local towns in order to allow both parties to 
consolidate land holdings within their borders. Third, the bill would 
increase the park's land acquisition ceiling from $9.1 million to $28 
million. Fourth, it would authorize Acadia National Park to participate 
in the planning, construction, and operation of an intermodal 
transportation center outside the park's boundaries.

                ACADIA NATIONAL PARK ADVISORY COMMISSION

    The Acadia National Park Advisory Commission had been in operation 
for almost 20 years, before it expired on September 30, 2006, and was a 
valuable asset that enhanced communication between park managers and 
local communities. The Commission's state and local representatives 
participated actively, and they strongly support its re-authorization. 
The cost of administering the Commission is minimal and is covered by 
the park's operating budget.

                 EXTENSION OF LAND CONVEYANCE AUTHORITY

    Before 1986, Acadia National Park did not have a well-defined 
boundary. The boundary established in 1986 by Public Law 99-420 
included certain lands owned by local towns and excluded certain lands 
owned by the National Park Service. In order to allow the park and the 
towns to consolidate holdings within their respective boundaries, 
section 102(d)(2) gave the Secretary the authority to convey lands 
outside the park boundary to the towns for no consideration after the 
towns had conveyed all of their land within the park boundary to the 
park. This provision set a 10-year deadline for these conveyances in 
order to encourage timely action.
    Several towns missed the 10-year deadline, but are still interested 
in exchanging lands with the National Park Service. This bill would 
extend the authority of the Secretary to exchange lands with the towns 
indefinitely. Without this amendment, the park would continue to own 
isolated small tracts of land outside the park boundary, and the towns 
would continue to own small isolated tracts of land inside the park 
boundary. The proposed change would benefit both the park and the towns 
by continuing to allow each of them to consolidate land ownership.

                  INCREASE IN LAND ACQUISITION CEILING

    Acadia National Park's authorized land acquisition ceiling of $9.1 
million has been reached, although there are over 100 tracts left to be 
acquired to complete the park as authorized by Congress in 1986. Land 
prices on Mount Desert Island, where Acadia National Park is located, 
have increased dramatically since 1986 and may continue to do so if 
local home-inflation trends continue. Many willing landowners are 
anxious to sell, but the park cannot buy the land because the land 
acquisition ceiling does not permit the use of sufficient appropriated 
funds to acquire them, thus leaving valuable resources within the park 
threatened with incompatible development.
    The Land and Water Conservation Fund Act (LWCF) authorizes the 
National Park Service to exceed the land acquisition ceiling by 10%, or 
$1 million annually, whichever is greater. Under this authority, Acadia 
NP may exceed the land acquisition ceiling by a maximum of $1 million 
per year. To date, Congress has appropriated $8.9 million beyond 
Acadia's land acquisition ceiling, bringing total appropriations for 
land acquisition at the park to $18 million. However, because the LWCF 
authorization limits National Park Service annual expenditures on 
additional land acquisition to $1 million or less, the National Park 
Service has been unable to purchase several undeveloped tracts that are 
valued at more than $1 million. If these undeveloped tracts within the 
boundaries of the park are developed with new structures, acquisition 
costs will increase. Acquiring these lands sooner rather than later is 
more cost-effective for the National Park Service in the long run. In 
addition, the park currently faces encroachment issues, where private 
landowners use adjacent park lands for swing sets, hot tubs, sheds and 
the like. The proposed $28 million ceiling would allow the National 
Park Service to acquire all parcels of land that are located within the 
boundary of the park that are currently available for sale.
    Incompatible development within park boundaries can degrade the 
natural and cultural values that are important to the visitors of 
Acadia National Park. There are also ``spillover'' impacts from use of 
private lands that are surrounded by park land including noise and 
light impacts, which tend to drive the public away from these parts of 
the park. Finally, larger blocks of land are more cost-effective to 
manage than smaller discontinuous parcels that are owned by multiple 
owners and thus, result in higher boundary monitoring and patrol costs.

                    INTERMODAL TRANSPORTATION CENTER

    The intermodal transportation center is the final piece of a three-
phase transportation strategy that was developed with the assistance of 
an interagency team of transportation and park managers. The 
interagency team was established pursuant to the 1997 Memorandum of 
Understanding between the Secretary of Transportation and the Secretary 
of the Interior to comprehensively address public transportation in and 
around our national parks. Language in S. 1329 authorizing Acadia 
National Park to participate in the planning, construction and 
operation of an intermodal transportation center outside park 
boundaries is essential for completion of a highly successful 
transportation system that operates through a consortium of twenty 
partners. These partners include the U.S. Department of Transportation, 
the Maine Department of Transportation, and many local interests who 
developed this transportation strategy and have combined their 
resources to offer the Island Explorer, a bus system that uses clean 
propane-powered vehicles to move visitors around the Island. The 
operational costs are paid for by a special transportation fee imposed 
at Acadia, state and local funds, and business contributions.
    Daily summer use of the Island Explorer has averaged 3,700 riders 
and more than 1.5 million riders have used the popular system since it 
began in 1999. Traffic congestion on Mount Desert Island and the 
negative impacts of too many vehicles in Acadia National Park have been 
reduced, and the park's air quality has improved annually.
    Currently, overnight visitors are picked up at their lodgings by 
the Island Explorer, but the increasing numbers of day use visitors do 
not have access to the transit system because it lacks a central 
parking and bus boarding area. As planned, the project calls for 
developing an off-island intermodal transportation center to serve day 
users of Mount Desert Island and Acadia National Park. The center is 
needed to maximize the benefits of the transit system and to fully 
achieve the project's goals of reducing traffic congestion, preserving 
park resources and the visitor experience, and ensuring a vibrant 
tourist economy.
    The proposed center would be strategically located on Route 3 (the 
only road to Mount Desert Island and Acadia National Park) in Trenton, 
Maine. A non-profit partner will acquire the land using donated funds. 
The Maine Department of Transportation and the Federal Transit 
Administration will have the lead in the planning and construction of 
the center, which will include parking for day users, a visitor 
orientation facility highlighting park and regional points of interest, 
a bus boarding area, and a bus maintenance garage.
    Most of the proposed facility would be built with funds provided by 
the U.S. Department of Transportation to the State of Maine. The 
National Park Service would be responsible for the design, 
construction, and operation of all or part of the visitor orientation 
portion of the center, which would include exhibits, media 
presentations, and general information for park visitors bound for 
Acadia National Park. The National Park Service might also contribute 
to maintenance and operation of the facility. The proposed center would 
replace the park's inadequate Thompson Island Information Center, which 
is too small to accommodate the large number of summer visitors to the 
park, contains out-of-date exhibits, and is not optimally located to 
intercept visitors.
    We recommend two technical amendments be made to section 5 of the 
bill. First, we would like to clarify that the Secretary would be 
authorized to conduct activities that facilitate the dissemination of 
information relating to the Island Explorer or any successor to the 
Island Explorer in case the transit system is renamed. Second, in order 
to preserve the Secretary's flexibility in how resources are allocated 
in the National Park Service, we recommend an amendment to the 
authority provided to the Secretary to contribute to the Intermodal 
Transportation Center. The amendments are attached to this testimony.
    Technical amendments to S. 1329, the Acadia National Park 
Improvement Act of 2007:

      On p. 2, line 24, strike ``shall'' and insert ``may''.
      On p. 3, line 16, strike ``system;'' and insert ``system or any 
successor transit system;''.

    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                              ON H.R. 759

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you to present the views of the Department 
of the Interior on H.R. 759, a bill to redesignate the Ellis Island 
library on the third floor of the Ellis Island Immigration Museum as 
the Bob Hope Memorial Library.
    The National Park Service believes there should be a strong 
association between the park and the person being commemorated, and 
that at least five years should have elapsed since the death of the 
person. This basic principle is reflected in our National Park Service 
Management Policies. Therefore, the Department cannot support this 
bill. On May 12, 2005, the Department also testified that we could not 
support H.R. 323, an identical bill from the 109th Congress.
    A unique repository of resources in history, ethnology, and 
sociology is located on the third floor of the Immigration Museum on 
Ellis Island. The space has been reconfigured to provide a reading 
room, a preschool children's reading center, an archive for controlled 
storage of valuable paper artifacts, and a room designed to provide 
retrieval access to the library's collection of more than 1,000 oral 
histories. It is a resource devoted to the American immigration 
experience and the stories of those who came to America with hopes and 
dreams for a better life. The library provides important lessons to our 
citizens of the meaning of liberty and opportunity in the history of 
our nation.
    Although Bob Hope's life story exemplifies the experience of many 
who came to the United States with little, rose to the heights of their 
professions, and gave back in abundance to their adopted nation, the 
Department cannot support H.R. 759. Bob Hope did enter the United 
States through Ellis Island, as did many other great Americans, however 
there is no compelling connection between his life and the Ellis Island 
Immigration Museum.
    Bob Hope was born Leslie Townes Hope, the son of stonemason William 
Henry Hope and Avis Townes Hope. The family emigrated from England to 
Cleveland, Ohio in 1908, when Leslie, one of seven children, was not 
yet five years old. In Cleveland, the Hope family struggled 
financially, as they had in England. Mrs. Hope took in boarders to 
supplement her husband's erratic income. She gave singing lessons to 
Leslie, who entertained his family with song, impersonations, and 
dancing. When he left school at age 16, Leslie worked at a number of 
part-time jobs. He boxed for a short time under the name of ``Packy 
East'' but later changed his name to Lester Hope. His interest in 
entertainment and show business led him to take dancing lessons and to 
seek employment as a variety stage entertainer. Not until he had 
achieved considerable success on the stage did he begin using the name, 
``Bob Hope.''
    Bob Hope's more than fifty-year commitment to public service has 
made him one of the most honored and esteemed performers in history. 
His charitable work and tours on behalf of the armed forces brought him 
the admiration and gratitude of millions and the friendship of every 
President of the United States since Franklin D. Roosevelt.
    National Park Service Management Policies 2006 state that the 
National Park Service will discourage and curtail commemorative works, 
especially commemorative naming, except when Congress specifically 
authorizes them or there is a compelling justification for the 
recognition, and the commemorative work is the best way to express the 
association between the park and the person, group, event, or other 
subject being commemorated. While Bob Hope had a distinguished career, 
we do not believe there is sufficient association between him and the 
Ellis Island Library to merit renaming the library.
    Mr. Chairman this concludes my statement and I will be happy to 
answer any questions that members of the committee may have.

                              ON H.R. 807

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 807, a bill to direct the Secretary of the 
Interior to conduct a special resource study to determine the 
feasibility and suitability of establishing a memorial to the Space 
Shuttle Columbia in the State of Texas and for its inclusion as a unit 
of the National Park System.
    The Department supports enactment of H.R. 807. The Department 
testified on April 28, 2005, that we could not support S. 242, a 
similar bill in the 109th Congress that would have designated the areas 
covered in this bill as units of the National Park System. At that time 
we recommended to the subcommittee that the bill be amended to 
authorize the Secretary to study the sites to determine if they are 
suitable and feasible as additions to the National Park System.
    We appreciate that H.R. 807 would authorize such a study. A study 
would provide the opportunity to consult with other agencies and 
organizations, including the National Aeronautics and Space 
Administration (NASA), to determine what other commemorative efforts 
have been undertaken to memorialize the space shuttle Columbia as well 
as taking into account the wishes and desires of the crew's families 
regarding how they would like their loved ones remembered. A study also 
would look at a variety of alternatives that could include National 
Park Service (NPS) management or could focus on administering the site 
through State or local governments or private organizations.
    Studies of this type typically take approximately three years to 
complete after funds are made available and cost between $300,000 and 
$500,000. Also, priority should be given to the 37 previously 
authorized studies for potential units of the National Park System, 
potential new National Heritage Areas, and potential additions to the 
National Trails System and National Wild and Scenic River System that 
have not yet been transmitted to the Congress.
    H.R. 807 would direct the Secretary to study areas in the Texas 
cities of Nacogdoches, Hemphill, Lufkin and San Augustine. Large 
amounts of debris from the Columbia were found on the parcels specified 
in the bill, a combination of public and private land, and the Lufkin 
civic center served as NASA's command center for retrieval efforts. As 
a part of the study, the Secretary is also authorized to recommend 
additional sites in Texas for establishment of memorials to Columbia.
    Columbia, the first space shuttle to orbit the earth, was NASA's 
oldest shuttle. On the morning of February 1, 2003, after a three-week 
mission devoted to scientific and medical experiments, the Columbia 
began its return to earth. As re-entry into the earth's atmosphere 
continued over the Pacific, problems were noticed by NASA, contact with 
the shuttle was lost, and it began to break apart. Debris from the 
shuttle was observed from California to Louisiana, however the remains 
of the seven astronauts and the most significant parts of the shuttle 
were found in several communities across Texas. Soon after the crash, 
an independent accident investigation board was established and the 
first volume of the board's findings was issued in August 2003, 
identifying the factors that led to the shuttle disaster and making 
recommendations for future actions.
    Many memorials and remembrances have been established in honor of 
Columbia's crew, including a memorial at Arlington Cemetery and on 
Devon Island in the Canadian High Arctic. Asteroids have been named for 
members of the crew, as has a highway in Washington and an elementary 
school in California. On May 12, 2004, NASA dedicated its new ``Altix'' 
supercomputer to the memory of Kalpana ``KC'' Chawla, flight engineer 
and mission specialist on the Columbia.
    An NPS suitability and feasibility study would determine how, or 
if, this proposal would complement or add to those already established 
memorials.
    Mr. Chairman, that concludes my remarks, and I would be happy to 
answer any questions that you or other members of the subcommittee may 
have.

  Prepared Statement of the Forest Service, Department of Agriculture

                               ON S. 1304

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the Administration's views on S. 1304, a bill to 
amend the National Trails System Act to designate the Arizona Trail as 
a National Scenic Trail.
    The Administration does not object to S. 1304. While the 
Administration typically does not support the designation of a National 
Scenic Trail without the completion of a feasibility study, we 
recognize that the Arizona Trail presents a unique situation.
    The Arizona Trail designation is unique because it is located 
primarily on public land, it is already established for much of its 
length and it has strong local, regional and state advocates and it 
offers outstanding recreational opportunities. For these reasons we do 
not object to an expedited process in this case and proceeding directly 
to designation. We do, however, plan to continue efforts to engage the 
public in the management of the trail, especially to private land 
owners that may be affected by the designation.
    All but one of the National Scenic Trails designated subsequent to 
the enactment of the National Trails System Act have undergone a 
feasibility study prior to enactment. However, in the case of the 
Arizona Trail, because of its unique circumstances, the Administration 
does not object to directly designating the trail as a national scenic 
trail. The Administration would be unlikely, however, to support future 
legislation to designate National Scenic Trails that bypass 
requirements under the national Trails System Act to conduct 
feasibility studies. A feasibility study allows the public to have a 
comprehensive look at the effects of designated national scenic trails 
and provides the public with the opportunity to comment on all aspects 
of the trail. Information provided by the public during this review 
adds value and is useful for the future management of the scenic trail. 
A study would also review and recommend the most effective and 
efficient management of the trail.
    Approximately 85% of the trail crosses federal land, 10% crosses 
State lands, and the remainder of the trail crosses private, municipal 
or county lands. The trail was established as a primitive long-distance 
hiking, horseback, and mountain biking trail that links all of 
Arizona's major physiographic zones (the mountains, canyons, deserts, 
forests, historic sites, and mesas) to local communities and Arizona's 
major metropolitan areas. The Arizona Trail's significance is found in 
the diversity of resources, landscapes and recreational opportunities 
that it represents.
    The Arizona Trail was conceived in 1985 as a continuous non-
motorized trail from Mexico to Utah. The Arizona Trail connects 
Arizona's north and south borders across mountain ranges and deserts 
for approximately 807 miles. In 1993, the U.S. Forest Service, National 
Park Service, Bureau of Land Management, and Arizona State Parks 
developed a cooperative agreement to work together to develop this non-
motorized trail. Since then more than 750 miles of trail have been 
opened to the public, maps and trail resource information have been 
developed, and routine trail maintenance has been carried out, while 
efforts continue to open the remaining 57 miles of trail. An important 
characteristic of all National Trails is the partnerships they 
generate. The Arizona Trail already has strong regional, state and 
local advocates, all of whom have worked hard at creating and 
maintaining a trail featuring the incredible natural and cultural 
diversity of the State of Arizona. In 1994, the non-profit Arizona 
Trail Association (ATA) was founded ``to coordinate the planning, 
development, management, and promotion of the Arizona Trail for the 
recreational and educational experiences of non-motorized trail 
users.'' If designated by Congress as a National Scenic Trail, the 
Arizona trail will be administered by the U.S. Forest Service in close 
coordination with the Arizona Trail Association and any relevant State 
and local agencies that may wish to help with the Trail.
    National scenic trails are continuous, primarily non-motorized 
routes of outstanding recreational opportunity. These trails provide 
for outdoor recreation needs, promote the enjoyment, appreciation, 
preservation of open-air, outdoor areas and historic resources, and 
encourage public access and citizen involvement. National historic 
trails commemorate historic and prehistoric routes of travel that are 
of significance to the entire Nation. Because of its characteristics, 
the Arizona Trail is more likely to meet the criteria for a scenic 
trail rather than an historic trail.
    Thank you again for the opportunity to present the Administration's 
views on S. 1304. This completes our statement for the record.

    Senator Akaka. Thank you very much for your testimony.
    My first question to you is on H.R. 759, the Bob Hope 
Library designation. As I understand your testimony, the 
primary reason the Park Service opposes this bill is that there 
is not a strong association between Ellis Island and Bob Hope. 
However, according to Congressman Engel there is strong local 
support for this designation, including support from the Ellis 
Island Restoration Commission. Given the local support, then, 
why is it inappropriate to allow this and allow for this 
designation?
    Mr. Wenk. It is the policy of the National Park Service 
that there has to be a very close association between a 
facility or a feature within a park area to be a named 
opportunity. An example would be from a park that I was 
formerly a superintendent, Mount Rushmore National Memorial. We 
do have there a Borglum Studio. It's named after the sculptor 
of the memorial itself. That is a very strong connection and a 
strong association between why the memorial was established, 
what it represents, and the individual.
    There is not that strong connection between Bob Hope and 
Ellis Island. He did pass through Ellis Island, as did many 
other great Americans.
    Senator Akaka. Have any other National Park Service 
buildings or facilities ever been named in honor of someone?
    Mr. Wenk. Yes, they have. It's not an infrequent process. 
But once again, it goes back to that strong association between 
the individual and the structure or the facility or feature 
that may be named. It's a component that we don't believe 
exists in this particular case.
    Senator Akaka. My next question is on S. 1051, the National 
Liberty Memorial bill. The Commemorative Works Act requires a 
sponsoring organization to file a financial report with the 
Department of Interior each year, including financial 
statements that have been independently audited. I'm curious, 
how much money was raised by the Black Revolutionary War 
Patriots Foundation and what happened to that money when the 
group disbanded?
    Mr. Wenk. We do know that we received financial reports 
from I believe 1996 to 2003. Prior to 1996, that was not a 
requirement. We believe that, from a cursory review of those 
reports, we believe that they raised approximately $3.25 
million, $1 million of which came from the Commemorative Coin 
Act that was authorized for the memorial.
    Currently the Department of Treasury is doing an audit--
excuse me. The Department of Treasury, the Office of the 
Inspector General, is looking to see how those funds were used 
that came from the Coin Act. How the rest of the funds were 
used, I do not have that answer. But certainly they were used 
in the design and the plans that were done to this time.
    Senator Akaka. According to Mr. Barboza's written 
testimony, in June 2006 the National Capital Memorial Advisory 
Commission concluded, and I'm quoting: ``The Commemorative 
Works Act could be interpreted to allow Liberty Fund D.C. to 
assume the site approvals,'' unquote. Are you familiar with 
this conclusion by the commission and do you have any comment 
on that statement?
    Mr. Wenk. Yes, Mr. Chairman, I am familiar with the 
statement that was made. We do not agree with that 
interpretation of what the Memorial Commission said. We believe 
that in 2005 the authority for the memorial expired. At the 
time that it expired, we believe that all the approvals, the 
design, and all other aspects of that expired at the same time.
    Since that time, since this bill was authorized, the 
Commemorative Works Act was passed, which did declare the area 
where this memorial was to be placed to be in the reserve and 
called it a completed work of civic art and therefore no other 
memorials were to be located in that area. We believe it is 
necessary to basically begin the process anew to relook at 
whether or not a memorial should be established, go through the 
design proceedings and the approvals of the National Park 
Service, the National Capital Planning Commission, as well as 
the Commission of Fine Arts.
    So we think--we believe we have two different 
interpretations of that and we believe that we do not have the 
authority to extend this.
    Senator Akaka. My final question relates to S. 868, the 
wild and scenic river designation in Massachusetts. The draft 
Park Service study analyzes two alternatives. One alternative 
would designate the entire 40 miles of the main stream of the 
river. The second alternative would designate only 36 miles of 
the river pending potential approval of a liquefied natural gas 
facility.
    If S. 868 is enacted into law designating the entire 40 
miles, what impact would that have on the proposed LNG 
facility?
    Mr. Wenk. There would be a different standard that would be 
applied in terms of the evaluation of the impacts on the wild 
and scenic river if it included that last four miles. Primarily 
we believe that it would affect the riparian zones on the river 
that would be--we would have to look at the impacts on those 
riparian zones.
    We also would be looking at the impacts on the anadromous 
fish that use the river. That, however, would not change 
because those fish are protected for upstream portions of the 
river that are included under either alternative.
    Senator Akaka. Thank you very much for your responses and 
would you please remain where you are while I call on 
Congressman Engel.
    Thank you so much for making the time to be here. We're 
delighted to have you and, with the good graces of our ranking 
member here, we'll go to you next, Representative Engel. You 
are the sponsor of H.R. 759, the bill to rename the Ellis 
Island Library after Bob Hope. So, Congressman Engel, I welcome 
you to the subcommittee. So please proceed with your statement.

STATEMENT OF HON. ELIOT L. ENGEL, U.S. REPRESENTATIVE FROM NEW 
                              YORK

    Mr. Engel. Thank you, Senator, and it's good to see you, 
Senator Akaka, Senator Burr, and Senator Salazar. I of course 
had the honor of serving with you, Senator Akaka and Senator 
Burr, as House members. Senator Salazar, I have the honor of 
serving with your brother as a House member. So I feel a little 
attachment to all three of you.
    I want to thank you for holding this hearing on H.R. 759, 
which seeks to name the third floor library at Ellis Island in 
New York as the ``Bob Hope Memorial Library.'' Ellis Island is 
important to me. All four of my grandparents passed through 
there when they immigrated to the United States about 100 years 
ago. I think it is very fitting that this be named after Bob 
Hope.
    I also want to thank the primary co-sponsor of this 
legislation, Representative Gallegly of California, for his 
support.
    Finally, I would like to point out that present today in 
the audience is Linda Hope, Bob Hope's daughter and the Vice 
President of the Bob Hope Legacy.
    Before I begin, I just must first start by venting my 
frustration with the National Park Service in its handling of 
this legislation. Today the Park Service will testify that it 
cannot support this bill even though it's passed the House of 
Representatives in a bipartisan fashion two Congresses in a 
row. Each time they came and said that they couldn't support 
the bill and as far as I'm concerned the reasons were specious.
    This effort to honor Bob Hope at Ellis Island has been 
ongoing for years and I would ask that a letter* from former 
Secretary of the Interior Manuel Lujan, who served the first 
President Bush, supporting naming a different facility at Ellis 
Island for Bob Hope be included in the record as part of my 
testimony. Thank you.
---------------------------------------------------------------------------
    * The additional materials referred to in Representative Engel's 
statement have been retained in subcommittee files.
---------------------------------------------------------------------------
    Mr. Engel. In the 109th Congress my staff had ongoing 
communications with the Park Service. The Park Service even 
requested that some language in the bill be changed to clarify 
that the library on the third floor and not the whole floor was 
being named for Bob Hope. I accepted this clarifying language 
and it is included in the bill that is before us today. In 
fact, the language is exactly the same language requested by 
the Park Service.
    I would like to address the Park Service's contention that 
there is not a clear link between Bob Hope and Ellis Island. 
Bob Hope came to Ellis Island 100 years ago in 1907 with his 
family when he was just 4 years old as an immigrant. Mr. 
Chairman, after a long period of restoration, Ellis Island was 
turned into a museum in 1990. The purpose of the restoration 
was for people to come and remember the 12 million people who 
passed through Ellis Island from 1892 to 1954 to pursue the 
American dream.
    I can't think of anyone who embodies the American dream 
more than Bob Hope. He and his family arrived in the United 
States with almost nothing. Bob Hope became a household name 
here in the U.S. and around the world. He is perhaps best known 
for his work entertaining our Nation's military overseas, most 
often during the holiday season.
    This bill is strongly supported by the Ellis Island 
Restoration Commission, which has worked diligently to repair 
and refurbish Ellis Island. The commission has said that naming 
the third floor library after Bob Hope would be a fitting 
tribute to one of America's most famous immigrants. I have a 
letter to that effect and I would also respectfully ask to have 
it be made part of my testimony. Thank you.
    Mr. Engel. When the idea of naming another center at Ellis 
Island after Bob Hope was suggested, Secretary Lujan said in 
his letter to Bob Hope, and I quote the Secretary: ``I 
understand that you came to Ellis Island on your way to 
becoming a treasured U.S. citizen. Certainly your association 
with the center makes the project all the more important 
because your success story surely reflects the American 
dream.''
    Delores Hope and the rest of the Hope family members are 
pleased that Bob Hope's life will be honored and remembered 
through this museum. Thus, for my final request I ask that a 
letter from Bob Hope himself and a letter from his wife Delores 
be placed into the record as part of my testimony. Thank you.
    Mr. Engel. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing on the legislation. I would like 
to thank Senator Burr and Senator Salazar, and I want to thank 
my lead Republican sponsor, Rick Gallegly. I believe this is a 
small but fitting tribute to a man who did so much for our 
Nation and for our men and women in uniform.
    Thank you.
    [The prepared statement of Representative Engel follows:]

Prepared Statement of Hon. Eliot L. Engel, U.S. Representative From New 
                           York, on H.R. 759

    Thank you Mr. Chairman for holding this hearing on H.R. 759, which 
seeks to name the third floor library at Ellis Island in New York as 
the ``Bob Hope Memorial Library.'' I also want to thank the primary 
cosponsor of this legislation, Representative Gallegly, for his 
support. Finally, I would like point out that present in the audience 
today is Linda Hope, Mr. Hope's daughter and the vice president of the 
Bob Hope Legacy.
    I must first start by venting my frustration with the National Park 
Service and its handling of this legislation. Before you today, the 
Park Service will testify that it cannot support this bill even thought 
is passed the House of Representatives two Congresses in a row.
    This effort to honor Bob Hope at Ellis Island has been ongoing for 
years. And I would ask that a letter from former Secretary of the 
Interior Manuel Lujan, who served the first President Bush, that 
supports naming a different facility at Ellis Island for Bob Hope be 
included in the record as part of my testimony.
    In the 109th Congress, my staff had ongoing communications with the 
Park Service. The Park Service even requested that some language of the 
bill be changed to clarify that the library on the third floor, and not 
the whole third floor, was being named for Bob Hope. I accepted this 
clarifying language and it is included in the bill that is before us 
today. In fact, the language is exactly the same language requested by 
the Park Service.
    I would like to address the Park Service's contention that there is 
not a clear link between Bob Hope and Ellis Island. Bob Hope came 
through Ellis Island in 1907, with his family, when he was just four 
years old. Mr. Chairman after a long period of restoration, Ellis 
Island was turned into a museum in 1990. The purpose of the restoration 
was for people to come and remember the 12 million people passed 
through Ellis Island from 1892-1954 to pursue the American dream. Bob 
Hope embodies the American dream! He and his family arrived in the 
United States with almost nothing. Bob Hope became a household name 
here in the U.S. and around the world. He is perhaps best known for his 
work entertaining our nation's military overseas--most often during the 
holiday season.
    This bill is strongly supported by the Ellis Island Restoration 
Commission, which has worked diligently to repair and refurbish Ellis 
Island. The Commission has said that naming the third floor library 
after Bob hope would be a fitting tribute to one of America's most 
famous immigrants. I have a letter to that effect and would ask to have 
this also be made part of my testimony. When the idea of naming another 
center at Ellis Island after Bob Hope was suggested, Secretary Lujan 
said in his letter to Bob Hope, ``I understand that you came through 
Ellis Island on your way to becoming a treasured U.S. citizen. 
Certainly your association with the center makes the project all the 
more important because your success story surely reflects the American 
Dream.''
    Dolores Hope and the rest of the Hope family members are pleased 
that Bob Hope's life will be honored and remembered through this 
museum.
    Thus, for my final request I ask that a letter from Bob Hope 
himself and a letter from his family be placed into the record as part 
of my testimony.
    Mr. Chairman, I would like to thank you for holding this hearing on 
the legislation, and thank my lead Republican sponsor, Rep. Gallegly. I 
believe this is a small but fitting tribute to a man who did so much 
for our nation, and our men and women in uniform.

    Senator Akaka. Let me call on Congressman--I mean, ranking 
member Burr, for any comments or questions he might have.
    Senator Burr. I thank the chairman. Mr. Chairman, I will 
have no questions of Congressman Engel. It's great to see him 
and I'm appreciative that he would take the time to come over 
and to comment on this project. But I know the House is 
probably tied in knots with votes and I'm more than willing to 
let him head back if in fact that enhances his schedule at all.
    Mr. Engel. I thank you, Senator. It's an honor to be here 
and, as I said, good to see all of you.
    Senator Burr. Mr. Chairman, I do have questions for Mr. 
Wenk. So if I could go into those now.
    Senator Akaka. Certainly.
    Do you have any comments or questions to Congressman Engel?
    Senator Salazar. I have no questions for Congressman Engel. 
I just appreciate him coming over to testify on behalf of his 
legislation. Thank you.
    Mr. Engel. Thank you.
    Senator Akaka. I want to thank you, Congressman Engel. You 
may either remain or--I know you're a busy man, too.
    Mr. Engel. I'll remain. It's an honor to be in the Senate, 
so I'll remain, and think about what might have been or 
something.
    [Laughter.]
    Senator Akaka. Senator Burr.
    Senator Burr. It's contagious. You better watch it.
    Thank you, Mr. Chairman.
    Mr. Wenk, some would think less of me if I didn't point out 
when I sat down yesterday afternoon to prepare for this hearing 
your testimony wasn't here in its completion. It is my hope 
before I die or leave the Senate, whichever happens first, that 
I'll come to one hearing where Government witnesses will have 
all of their testimony written, approved, and to the committee 
in time that we could digest it fully to be able to hold a 
hearing. I'll continue to point that out every time a witness 
comes in front of this subcommittee or any subcommittee, 
because I believe that the rules are very specific and I take 
the latitude to point out that it doesn't matter who's in 
control of the White House. It seems to be a perpetual thing.
    But I believe that the quality of what we do is that much 
better if in fact we get the opportunity to know beforehand 
what witnesses are going to come in and testify on so that we 
can at least put some thought to the proper questions, get a 
little bit deeper into the issues, and so that it's clear for 
all members and for the administration what's at stake and what 
we should support.
    Having said that, let me move if I can to S. 868. I take 
for granted from your testimony that the Park Service has 
completed the suitability and feasibility study, though it's in 
its public comment period. Am I correct on that?
    Mr. Wenk. Yes, we have. It's actually not a completed study 
until we receive comments, which close on September 17th, and 
we will go out with the final document.
    Senator Burr. I think you have a good feel from that what 
you're going to find. In your statement you said ``If this bill 
moves forward we'd like to work with the committee to make this 
bill consistent with other wild and scenic river designation 
bills that have been enacted by Congress.'' If you will, what 
makes this inconsistent with other wild and scenic river bills 
that have passed Congress?
    Mr. Wenk. Senator Burr, I do not have the specifics on 
that. I will have to provide it. I'm sorry.
    Senator Burr. I wish you would, because I believe you're 
right. I believe that as we go through this process we should 
show consistency, and I think as one who has a wild and scenic 
bill I want to make sure that whatever I'm proposing is 
consistent with what we've done in the past, and I want to make 
sure that those additional ones that we consider are in fact 
consistent with the bar I've tried to hold.
    Let me move, if I can, to S. 1051. This is a little more 
difficult to understand. It's not more difficult to support the 
recognition of the black Revolutionary War participants, but, 
given the history of this, I think it deserves a little bit of 
attention and thought. The new committee that's set up is the 
National Liberty Memorial. The previous organization that was 
set up to initiate this and did receive the approval and a spot 
on the Mall is the Black Revolutionary War Patriots Memorial.
    It's my understanding that the reason that the current 
group chose to file under the new name and to file to extend 
the process was the fact that the designation had been approved 
and that the previous organization, though bankrupt, still owes 
money. Am I correct on that?
    Mr. Wenk. It's my understanding--I do not know the 
specifics of how much money and to who money is owed, but I 
believe that is in fact the case.
    Senator Burr. I know we have somebody who will testify on 
this. I think it's extremely important for all parties, 
Government included, to know a little bit more about how much 
is owed, what percentage of that money is in fact Federal money 
versus private money. It's probably a little late to go back 
and point the finger of blame, but I believe it's also 
important that we know for purposes of counseling with the 
current initiators, the National Liberty Memorial, as to 
whether this wouldn't be a lot smoother transition were they to 
assume the debt and initiate from the continuation of the last 
group.
    I'm not sure that I have enough information to ask the 
questions in the right way, much less to make suggestions. But 
there seem to be some problems with it relative to how it's 
been put together.
    Mr. Wenk. One of the things we can provide for you is we 
can provide the financial statements we received between 1996 
and 2003, and we're happy to do that, where we can start to 
make those determinations. We can look at those statements 
ourselves to see what more information we can get to you on 
that, and I would hope that you would also look at the previous 
organization.
    Senator Burr. I appreciate that. Would one conclude that 
the review of those financials of the last organization are 
initiated by this legislation or was this something that was 
triggered within the Interior Department?
    Mr. Wenk. I believe that it's a requirement of any 
foundation or group that we're working on in terms of producing 
a memorial or in support of a memorial in the reserve or in the 
areas of the Commemorative Works Act, and that we have a 
responsibility to look at and review those financial 
statements. It's not specific to this organization.
    Senator Burr. I appreciate that.
    Let me move, if I could, to S. 1247, the Weir Farm National 
Historic Site amendment. If I could--I'm curious--is this an 
improvement to a visitors center or a totally new visitors 
center?
    Mr. Wenk. Currently there is--what we have is we had a nine 
acre site that was purchased for the inclusion of National Park 
Service facilities within close proximity to the Weir Farm. 
What we would be--this is not a visitor's center. This is 
administrative space and this is maintenance space that would 
be added under this. There is still a need for a visitor's 
center.
    What we're looking at is we're looking at expanding the 
area that we can consider for the placement of these facilities 
to about an area 2.5 miles away from the site itself. It's in a 
brownfield area that's been developed. It's being developed to 
lead standards. We believe that we can exchange the land that 
was purchased for this purpose, save money in terms of not 
having to go through the construction and be able to move into 
this new facility, which would include the curatorial space 
that's been leased already, approximately 12,000 square feet, 
and be in the best interests of all parties.
    It would remove this from an area--it's a neighborhood area 
where the neighbors have questioned the appropriateness of 
putting this kind of facility within a neighborhood.
    Senator Burr. So it's to enhance the visitor experience of 
this historic site?
    Mr. Wenk. It's actually probably to enhance more the 
administrative and curatorial abilities of the National Park 
Service. There still is a future need for a visitors center 
that would be able to display some of the large works that we 
have.
    Senator Burr. I appreciate hearing that because we've got 
these treasures around the country and some that still need the 
investment of visitors centers and the relocation of 
operational pieces that in some cases take away from the 
visitor experience and the value of the historic site. So I 
look forward to the action of the subcommittee on that.
    One question as it relates to Acadia National Park, S. 
1329. We raised the funding authority for land acquisition at 
the park. How much land has the National Park Service 
identified to date for future acquisition at Acadia and in 
today's terms what would be the value of that land?
    Mr. Wenk. The number that we're asking for, the $28 million 
number that's within the legislation, that represents the land 
that we have willing sellers for within Acadia National Park 
today. There is additional land that is not by willing sellers 
and I do not have--we have not put a value on that land and I 
can't tell you the specific acres. But I could get that for you 
for the record.
    Senator Burr. But $28 million would be the actual land 
value today----
    Mr. Wenk. For willing sellers.
    Senator Burr [continuing]. For willing sellers.
    Mr. Wenk. Of land of willing sellers, correct.
    Senator Burr. OK. I thank you.
    I thank the chair.
    Senator Akaka. Senator Salazar.
    Senator Salazar. Thank you very much, Senator Akaka.
    First of all, let me--I want to comment briefly on two 
pieces of legislation which I'm sponsoring which are here 
today, and I want to thank Director Wenk for your testimony on 
both of those pieces of legislation and the support of the 
administration.
    First with respect to S. 127, the Great Sand Dunes National 
Park and Preserve Act, it was an historic undertaking back in 
2000 when the Department of the Interior under then-Secretary 
Babbitt, working closely with Senator Campbell and Senator 
Allard, moved forward in the creation of the Great Sand Dunes 
National Park. As part of that legislation, the authorization 
was given to move forward with the acquisition and creation of 
the Baca National Wildlife Refuge.
    This is an important chapter in our moving forward with 
protecting the complex of wetlands that comprise the 
hydrological and ecological reality of what is my native valley 
in Colorado, the San Luis Valley, and tieing in the Baca 
Wildlife Refuge to the Monte Vista Wildlife Refuge and the 
Alamosa Wildlife Refuge are an essential aspect of an effort to 
try to preserve the wildlife values as well as the water rights 
within the San Luis Valley and the upper reaches of the Rio 
Grande Basin.
    So I'm appreciative of the administration's efforts on this 
and I appreciate my colleague, Senator Allard, in helping us 
move forward with the legislation.
    I think, importantly, the purpose of the refuge defined as 
defined in S. 127, just to state it here for the record as I do 
it orally, is, I quote, ``to restore and enhance and maintain 
wetland, upland, riparian, and other habitats for native 
wildlife, plant, and fish species in the San Luis Valley.'' I 
think that's an appropriate purpose and one that I fully 
support.
    Second, a quick comment on S. 127 and H.R. 359. That 
legislation concerning the late Cesar Chavez, sponsored here in 
the U.S. Senate by Senator John McCain and I, is an important 
piece of legislation for me personally. Cesar Chavez for me was 
an inspiration and hero in my life and did show me that no 
matter what the odds were, as he would say in Spanish with the 
words ``Si, se puede,'' yes, it can be done.
    I think it's appropriate to undertake the review on the 
study of sites associated with a life of a person who made a 
major difference in the life of America. So I appreciate the 
testimony by the committee. I appreciate my co-sponsors and the 
work of our staff in moving these two pieces of legislation 
forward.
    Thank you.
    Senator Akaka. Thank you very much, Senator Salazar.
    I want to thank our witnesses today, Congressman Engel, for 
your testimony, and also, Mr. Wenk, for yours. We'll certainly 
deal with your testimonies as we deal with these bills. I want 
to thank you very much for that and would like to call on the 
next panel.
    Mr. Wenk. Thank you, Mr. Chairman.
    Mr. Engel. Thank you.
    Senator Akaka. Thank you.
    The subcommittee has received several written statements, 
which will be included in the hearing record: from Senator 
Feinstein, also on the Bob Hope bill; from Senator Collins and 
Senator Snowe on S. 1329, the Acadia National Park bill; from 
Senator Allard on S. 127, the Baca National Wildlife Refuge 
bill; from Senator Dodd on S. 1051, the National Liberty 
Memorial bill; and from Senator Kennedy on S. 868 and S. 1184, 
the two bills dealing with Taunton, Massachusetts. All of these 
statements will be included in the hearing record.
    [The statements referred to follow:]

    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                        California, on H.R. 759

    Mr. Chairman, I would like to testify in support of H.R. 759, a 
bill to redesignate the Ellis Island Library, located on the third 
floor of the Ellis Island Immigration Museum, as the ``Bob Hope 
Memorial Library''.
    Bob Hope may very well be the most widely-known immigrant to have 
passed through the Ellis Island Immigration Station--although when he 
arrived as a four-year old he was still went by his given name: Leslie 
Townes Hope.
    And the story of this young boy, who later changed his name to Bob 
Hope and was adored by so many, truly exemplifies the American Dream:

  <bullet> As a young boy, he left England with his family and 
        immigrated to the United States.
  <bullet> His family struggled financially for years after they 
        arrived.
  <bullet> To help support his family, he left school early, took on 
        odd jobs, and even boxed for a short time.

    Later, when Bob Hope became successful, he was celebrated and loved 
by all Americans.
    In his many foreign tours entertaining America's soldiers abroad, 
he brought to them the warmth and the merry good humor that they longed 
for from their far-away homes.
    Bob Hope is a great symbol for the Ellis Island story, because he 
was keenly aware that we was an immigrant, of how far he had come, and 
how passionately grateful he was for it.
    Ellis Island is known to the world as a symbol of the possibilities 
that America offers. And the ``Bob Hope Memorial Library'' will 
continue to catalogue real life examples of that possibility.
    The Ellis Island Library includes:

  <bullet> a reading room,
  <bullet> a preschool children's reading center,
  <bullet> an archive for controlled storage of valuable paper 
        artifacts, and
  <bullet> a room designed to provide access to the library's 
        collection of more than 1,000 oral histories.

    As the Park Service describes this library: ``It is a resource 
devoted to the American experience and the stories of those who came to 
America with hopes and dreams of a better life.''
    And Bob Hope embodies this American experience.
    In 1990, when Bob Hope learned that he might receive a similar 
honor during his lifetime, he was both ``thrilled and gratified'', as 
he says in the attached letter.*
---------------------------------------------------------------------------
    * Letter has been retained in subcommittee files.
---------------------------------------------------------------------------
    In that letter, Bob Hope shared an anecdote from his first moments 
arriving in the United States:

          [I] saw the first glimmer of this great nation of ours as a 
        4-year-old boy in knickers and had no idea of the opportunities 
        that lay ahead. Frankly, my only concern back then was running 
        away as fast as my little legs would carry me from the doctor 
        who came to inoculate me before landing at Ellis!

    I know that the Park Service has suggested that other remarkable 
American immigrants could equally be associated with Ellis Island. This 
may be true. But I think this approach misses the point.
    For a place that is a shining example of what America can offer, 
isn't it more powerful to hold up individuals whose extraordinary lives 
exemplify that opportunity?
    The Bob Hope Memorial Museum can inspire visitors with his life and 
the stories of others like him.
    Naming this museum after Bob Hope will help to give a face to the 
American dream.
    I hope the Chairman will move the bill quickly, and my colleagues 
will support its enactment. Thank you.
                                 ______
                                 
 Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator From Maine, 
                               on S. 1329

    I would like to first applaud Chairman Akaka and Ranking Member 
Burr for their efforts on behalf of our National Parks. As we approach 
the centennial of the creation of the National Park Service, I am 
encouraged that under the stewardship of this Subcommittee we will 
provide the leadership to ensure future generations will be provided 
the opportunity to enjoy the natural jewels of America.
    I would also like to voice my strong support for the Acadia 
National Park Improvement Act of 2007, which I have cosponsored with 
Senator Collins. For those of you who have not had the good fortune to 
visit one of the crown jewels in the National Park system, Acadia 
National Park, the first national park established east of the 
Mississippi, is located on the rugged coast of Maine, encompassing over 
47,000 acres that follow the shoreline, go up mountains of sheer 
granite, dotted with numerous lakes and ponds, diverse habitats that 
create striking scenery and make the park a haven for wildlife and 
plants.
    At a time when American society becomes increasingly sedentary, 
Acadia provides uniquely diverse array of activities for visitors of 
all ages. For example, the Precipice Trail and the cliffs on Champlain 
Mountain is one of the more challenging hikes on the East Coast, while 
the park also offers handicapped accessible trails, such as the Jordan 
Pond Nature Trail. Furthermore, under the leadership of Sheridan 
Steele, the park has recently incorporated electronic scavenger hunts 
in Acadia using GPS system to spark interest in geology in our youngest 
generation.
    Acadia National Park is certainly a land of contrast and diversity, 
with a variety of freshwater, estuarine, forest and intertidal 
resources and is one of the most visited Parks in the National Park 
System, and rightfully so, as it offers magnificent views from Cadillac 
Mountain that sweep down 1,530 feet to the rocky coast and ocean below. 
Besides its natural beauty, the Park brings in $130 million a year into 
the State's economy.
    It is because of the great beauty of the Park and its scenic views 
that I have continued my efforts to achieve cleaner air for the area 
and for the entire State. I am a devoted supporter of the Island 
Explorer bus system, whose clean propane-powered vehicles offer 
visitors and residents free transportation to hiking trails, the unique 
carriage roads, the island beaches and for in-town shopping. Since 
1999, the bus system has carried 2.1 million people, while eliminating 
an estimated 7,610 tons of greenhouse gases. I understand that other 
national parks are considering using the positive benefits of the 
Island Explorer system as a transportation model for parks all around 
the country. A great deal of thanks should go to the surrounding towns 
and to L.L. Bean for financing this successful system that helps to 
make the air cleaner and adds to our enjoyment of the activities the 
Park provides.
    The legislation introduced today will help the Park in three 
specific areas. First, it will help the Park by extending the Acadia 
National Park Advisory Commission for 20 years giving local residents 
the opportunity for input into the management of the Park. This has 
been instrumental in developing comprehensive solutions to the problems 
that arise in an area where thousands of people live and work. The bill 
also increases the authorized ceiling for land acquisition funding by 
$10 million to $28 million to realize the sharp rise in real estate 
prices so that properties from willing sellers within the Park's 
boundaries can be included into the Park. Development increasingly 
threatens the integrity of the park. For example, recently a proposal 
was submitted to create a nine-unit subdivision on a parcel of land 
that directly bordered Somes Sound and Acadia. Fortunately, the Friends 
of Acadia, a devoted, independent philanthropy that has raised more 
than $15 million in private endowments for the park, was able to 
purchase the land and the land will remain pristine. Finally, the 
legislation will allow the Park to locate an intermodal center outside 
of park boundaries off of Mt. Desert Island to give even more 
assistance to the one road entering and exiting the Park by alleviating 
auto traffic congestion and pollution.
    I will continue to take actions for additions within the Park 
boundaries, for local input into the management process, for a better 
public transportation system for the Island that will create a 
healthier environment, and better support the Park's ecological 
protections. I look forward to continue working with the people of Mt. 
Desert Island, the Park's Supervisor, and the Friends of Acadia, on 
issues important to all of us for the preservation of the beautiful 
landscape, the ocean's coastline, and for environmental improvements in 
Acadia National Park.
    I thank the Chairman.
                                 ______
                                 
 Prepared Statement of Hon. Wayne Allard, U.S. Senator From Colorado, 
                               on S. 127

    Thank you, Chairman Akaka and Ranking Member Burr, for the 
committee's consideration of S.127, a bill that would provide for the 
administration of the Baca National Wildlife Refuge. I would also like 
to thank you for allowing the opportunity to submit my comments on this 
legislation and for your leadership on issues affecting our nation's 
parks.
    I am one of the luckiest people in Washington; not only do I get to 
serve the people of Colorado, but I am fortunate enough to have 
incredibly beautiful and unique lands in my home state. The Baca 
National Wildlife Refuge is one of these unique areas. It is located in 
southern Colorado, nestled along the west side of the Sangre de Cristo 
Mountain Range. The Refuge preserves one of the most diverse natural 
landscapes in the nation, ranging from wetlands to sand dunes. The 
refuge is also a critical part of the Central Flyway which is a crucial 
migratory bird habitat. Numerous species of wildlife, including elk and 
bald eagles, call the refuge home. This area is an exceptional place, 
which is why I sponsored legislation protecting it in 2000.
    The legislation that the committee is reviewing today would amend 
the 2000 law, clarifying the purpose of the refuge and providing 
additional management guidance. It ensures that this important part of 
the Central Flyway is managed in a manner that emphasizes the 
importance of the preservation of native wildlife habitat. Providing 
this guidance will ensure that the refuge is managed in a way that 
benefits all that use it while protecting land and water. I understand 
that the Fish and Wildlife Service is requesting an amendment to the 
bill, I look forward to working with them on this amendment.
    Chairman Akaka, Ranking member Burr, thank you and the Committee 
for your time and consideration.
                                 ______
                                 
   Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
                        Connecticut, on S. 1051

    Chairman Akaka and members of the Subcommittee, thank you for the 
opportunity to testify today. I am proud to sponsor, along with 
Senators Grassley, Obama, and Dole, the National Liberty Memorial Act, 
a bill to allow the construction of a memorial to the ``courageous 
slaves and free black persons who served as soldiers and sailors or 
provided civilian assistance during the American Revolution and to 
honor the countless black men, women, and children who ran away from 
slavery or filed petitions with courts and legislatures seeking their 
freedom.''
    This memorial will help to complete the story told on the National 
Mall of the birth of our nation. It will sit near a memorial to the 
fifty-six signers of the Declaration of Independence. What the signers 
proved true in the words of the Declaration, those black patriots 
demonstrated in their lives. The two memorials will give equal 
testament to the power and promise of freedom; they belong side-by-
side.
    Mr. Chairman, there is no serious debate about whether the memorial 
to the black patriots is worthy; none about its necessity; none about 
its value. There is only the question of whether this memorial belongs 
on the National Mall. I believe it does. Congress has affirmed and 
reaffirmed its commitment to the establishment of this memorial on the 
Mall, most recently in an explicit exemption to the Commemorative Works 
Clarification and Revision Act of 2003. I support the Reserve on the 
National Mall, and the intention to preserve open space and a place of 
reflection. But the memorial to the black patriots, approved before the 
statuatory restrictions on additional memorials on the Mall were 
enacted, has been grandfathered in, and sets no precedent. Only one 
other memorial has been similarly exempted: the memorial to Martin 
Luther King, Jr. I hope you will agree that the Mall, just like our 
national story, would be incomplete without either.
    It is unfortunate that the group first authorized to build this 
memorial was unable to raise the necessary funds, but it would be a 
great loss if that failure deprived us of testimony to heroic 
sacrifices that have too long gone overlooked. I am confident that this 
bill, by authorizing a new group to raise funds, will make this 
memorial a reality.
    And when someday soon it stands on the Mall, it will be a visible 
sign that we are a nation willing to revisit our history, willing to 
correct our omissions, willing to listen to unacknowledged voices. It 
will speak of our struggles for liberty in the past, and our love for 
liberty in the present. It will be a monument to black patriots of the 
Revolutionary War, and to a country that lives up to its ideals.
    I ask you to join me and my colleagues in support of this 
authorization.
                                 ______
                                 
    Prepared Statement of Hon. Edward M. Kennedy, U.S. Senator From 
                  Massachusetts, on S. 868 and S. 1184

    I commend Chairman Akaka and Senator Burr for holding this hearing. 
Senator Kerry and I introduced S. 868 and S. 1184 in the spring, and I 
appreciate this opportunity to reiterate my strong support for these 
bills, which will protect and preserve important environmental and 
historic resources in Massachusetts.
    The first of the two bills, S. 868, would designate as ``Wild and 
Scenic'' the Taunton River between the communities of Bridgewater and 
Fall River.  Our goal is to preserve the free flowing character of this 
extraordinary resource and support public access and clean-up projects.
    Senator Kerry and I first introduced legislation in 1999 with 
former Congressman Joe Moakley to authorize a study of Taunton River 
for consideration for the Wild and Scenic designation, and that 
legislation was enacted the next year. The study identified six special 
factors along the river: Agriculture; Ecology and Biodiversity; 
Estuary; Fisheries; History and Archaeology; and Recreation and 
Scenery.
    Taunton River is the longest coastal river in New England without 
dams.  It supports 45 species of fish and many species of shellfish, 
including seven types of freshwater mussels, and its archaeological 
treasures date back 10,000 years. The watershed is a habitat for 154 
species of birds, including 12 rare types. It is also home to river 
otter, mink, gray fox, and deer.
    The Taunton River Stewardship Council--representing the towns of 
Bridgewater, Halifax, Middleborough, Raynham, Berkley, Freetown, 
Dighton, Somerset, the cities of Taunton and Fall River, the 
Commonwealth of Massachusetts, the Southeastern Regional Planning and 
Economic Development District, the Wildlands Trust of Southeastern 
Massachusetts, the Natural Resources Trust of Bridgewater, the Taunton 
River Watershed Alliance, Save the Bay, the Nature Conservancy, and the 
Council Oak Wampanoags--will serve as the principal partner of the Park 
Service in implementing and overseeing the Wild and Scenic River 
designation. Passage of this legislation will enable the Park Service 
to work with the Council to ensure that this unique resource is 
protected for generations to come.
    The second bill, S. 1184, authorizes a special resource study to 
determine the suitability and feasibility of establishing a unit of the 
Park Service in the City of Taunton. This bill is nearly identical to 
one filed by Congressman Barney Frank, H.R. 1021, which was approved 
unanimously by the House of Representatives on March 19.
    The City of Taunton has a wealth of historic treasures that make it 
worth consideration as the site of a new Park Service unit. Taunton 
Green is renowned as the place where the Sons of Liberty flew an early 
version of the American flag in 1774 to protest British control of the 
colonies. The First Parish Church is where negotiations took place in 
the 1670s between Plymouth Colony and the Wampanoag Tribe before the 
beginning of ``King Philip's War,'' named for the tribe's king, which 
became the most devastating Indian war in New England. The Bristol 
County Courthouse complex in Taunton was designed in 1894 by the great 
Frederick Law Olmsted, who also designed Boston's Emerald Necklace, 
Manhattan's Central Park, Brooklyn's Prospect Park, and the U.S. 
Capitol grounds. The former Bristol Academy building was designed by 
Richard Upjohn, the architect of New York City's Trinity Church. In 
light of this remarkable concentration of historic resources in 
Taunton, a study of the kind proposed in the legislation is an 
especially important step for their protection and preservation.
    Again, I thank the Subcommittee for scheduling this hearing, and I 
look forward very much to working with you to enact these important 
measures.

    Senator Akaka. I'd like to welcome Mr. Maurice Barboza to 
the desk here, and also David Hicks. Mr. Maurice Barboza is the 
Chief Executive Officer of the National Mall Liberty Fund D.C. 
located here in Washington; and Mr. David Hicks is Executive 
Director of the Arizona Trail Association from Phoenix, 
Arizona.
    We will include each of your written statements in the 
hearing record, so I'd ask each of you to please summarize and 
try to limit your oral remarks to no more than 5 minutes. Mr. 
Barboza, will you please proceed with your testimony.

STATEMENT OF MAURICE BARBOZA, CHIEF EXECUTIVE OFFICER, NATIONAL 
                     MALL LIBERTY FUND D.C.

    Mr. Barboza. Thank you, Senator Akaka and Senator Burr. 
Thank you for your questions. I appreciate them deeply.
    Mr. Chairman, thank you for scheduling this hearing on S. 
1051. As a member of the House in 1985, you were a co-sponsor 
of the predecessor legislation. We thank Senator Chris Dodd and 
Senator Charles Grassley for their fidelity to this cause 
beginning over 22 years ago.
    I am the founder of Liberty Fund D.C. My aunt and I 
initiated the idea of a memorial in 1984. I discovered that my 
grandmother was descended from white ancestors who had served 
in the Revolutionary War. The memorial arose out of my aunt's 
4-year battle to join the Daughters of the American Revolution. 
She was rejected because of her race and because leaders may 
have been uncomfortable with her proven claim to white 
ancestors.
    Through her settlement agreement, a legally written 
agreement, more than 2,000 black soldiers were identified over 
a 17-year period. I'm so delighted and proud to have the 
descendants of the Henry Bakeman family. Henry Bakeman was a 
soldier in the Revolutionary War from New York. Behind me in 
the first and second rows to the middle are Russell Feuget, 
whose grandfather and father and he are members of the Sons of 
the American Revolution, descendants of Henry Bakeman; and Jo 
Anne Bakeman and Barbara Bakeman Fero, who are also descendants 
of Henry Bakeman.
    In 1988, through the Black Revolutionary War Patriots 
Foundation, we obtained the site preliminary design approval 
and most of the major donors. When we departed in 1992, the 
name was held in high esteem. Thereafter the group's goodwill 
plummeted. By 2001, it was irretrievable. The group was defunct 
by October 2005. Accountability was nonexistent and it was 
known clearly, unequivocally by the National Park Service, it 
was known by your own staffs, that this group was not 
accountable.
    The National Park Service is a steward of the Mall and it 
should be in more than one way. The agency supported the group 
to within days of the deadline, unaware that the design 
approval by the Fine Arts Commission had lapsed 4 years 
earlier, around 2001. On that alone, the group could not have 
qualified for a building permit.
    The failures had nothing to do with the history or the 
concept. It had to do with bad management that was in plain 
view. The New York Times and the Toledo Blade in particular 
chronicled the problems only months before the 2000 
reauthorization, which was especially unworthy of the support 
of the National Park Service.
    That year I testified before the Memorial Advisory 
Commission and encouraged the Secretary ``to determine if there 
was an existing organization, or a new entity, eager to come 
forward with a sound plan to raise the funds.'' Had this 
occurred, the ``Black Patriots'' brand might have been capable 
of resuscitation. At a minimum, unsuspecting donors, including 
the U.S. Mint, might have been able to exhibit more caution. 
The mint transferred over $900,000 in unmatched coin proceeds 
in 2004. An investigation is under way on how it was spent. 
Audited financial statements required by the Commemorative 
Works Act were delinquent, usually by at least 48 months, and 
not demanded to be current in reauthorization years.
    This 1996 requirement that Mr. Wenk mentioned, I believe if 
I remember correctly actually suggesting that to the House 
committee staff prior to a reauthorization in 1996. I suspected 
when I left that group in 1992 that the very thing that we're 
talking about here this afternoon would happen, and I told the 
National Park Service in 2000 when I testified before the 
Memorial Commission that it would happen, that this group would 
not raise the money and that they would use funds that they had 
previously raised and not allow it to go to the memorial.
    If there had been vigilance, this committee could not 
question whether citizens would donate to the cause or consider 
the position of the Department reasonable. Today is a new day, 
however. Had the group qualified for a building permit after 
the 2003 moratorium, the result would have been the same as 
what we seek: an inspiring memorial standing at Constitution 
Gardens.
    Months before the authorization expired, we sought the 
advice of Senator Dodd and Senator Grassley. Senator Dodd's 
staff performed the due diligence. The committee staff was 
briefed, but already fully aware. Now the only things we seek 
are the site approvals. The land belongs to the American 
people. ``Area 1 authorizations are joint resolutions that 
Congress must pass deeming a subject matter of preeminent 
historical and lasting significance to the Nation.'' This is 
based on history and not a sponsor's worthiness.
    The designation has never been revoked nor could it be. 
Books and research over 20 years reinforce the wisdom of 
Congress. Constitution Gardens remains capable of embracing 
this memorial, as it had always been--as if it had always been 
there. That's the beauty of our designer's concept.
    In June 2006 the Memorial Advisory Commission concluded: 
``The Commemorative Works Act could be interpreted to allow 
Liberty Fund D.C. to assume to site approvals.'' One member 
said: ``There is enough of a nexus that would be justification 
for extending the authorization for this site for the same 
memorial.''
    The Park Service representative, who was here today, 
stated, quote: ``The reason Congress designates an organization 
is because the memorial is privately funded. So there's nothing 
sacred about keeping the same name or the same organization.''
    The 2003 Clarification Act imposed a moratorium except for 
those memorials ``for which a site was approved.'' Only the 
Black Patriots Memorial and the King Memorial were exempted 
entirely. Therefore, this is a one-time-only request. The act 
added this new policy, which is telling: ``Upon the expiration 
of the legislative authority, any previous site and design 
approvals shall also expire.'' The National Park Service is 
incorrect. This does not apply to the site at Constitution 
Gardens because this legislation was exempt from the entire 
2003 Act.
    What the Park Service also discovered when it was trying to 
work in the very last minutes of October 2006 to get this group 
another extension, doing it through the back door with the 
Secretary's authority to grant extensions on his own, what they 
discovered was that provision, the beneficial provision, didn't 
even apply because everything was exempted by the 2003 Act.
    Mr. Chairman, Mr. Burr, Constitution Gardens cries out for 
this memorial and its poetry, even more so than our combined 
voices. Directly across from a memorial to the 56 signers of 
the Declaration of Independence, the Liberty Memorial would 
demonstrate the true meaning of the Declaration of 
Independence. Together with the King Memorial, Americans will 
understand what Dr. King meant by ``a dream deeply rooted in 
the American dream.''
    The National Liberty Memorial will symbolize the 
unconditional love of African Americans for our Nation from the 
Revolution to 9-11, not to mention their patience.
    [The prepared statement of Mr. Barboza follows:]

Prepared Statement of Maurice A. Barboza, Founder & CEO, National Mall 
                      Liberty Fund DC, on S. 1051

    Mr. Chairman, I offer for the Record my complete statement and the 
documents* attached concerning research on the identity of the persons 
we seek to honor. Thank you for scheduling this hearing on S. 1051 and 
for the superb and responsive work of both the majority and minority 
staffs over two years. As a member of the House in 1985, you were a 
cosponsor of the predecessor legislation that led to the prescient 
decision to set aside land at Constitution Gardens. There is far more 
evidence today of the worthiness of constructing a memorial there to 
the contributions of African Americans to Independence.
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    We thank Senator Chris Dodd and Senator Charles Grassley for their 
fidelity to the cause beginning 22 years ago. We thank Senator 
Elizabeth Dole and Senator Barack Obama for joining them in requesting 
this hearing and advancing the National Liberty Memorial. We also thank 
Rep. Donald Payne for his leadership. The entire Congressional Black 
Caucus has cosponsored H.R. 1693, his companion bill. We remember 
Senator Craig Thomas for his counsel when he met with us on October 5, 
2005, and Charles Atherton, a board member and architect of much of 
Washington's built environment, including the Mall.
    I am the founder and CEO of National Mall Liberty Fund D.C. 
(Liberty Fund D.C.), the organization seeking this authorization. My 
aunt, Lena Santos Ferguson, and I initiated the idea for such a 
memorial in 1984. I discovered that my grandmother was descended from 
white ancestors who served in the Revolutionary War. The memorial idea 
arose out of my aunt's four-year battle to join the Daughters of the 
American Revolution. She was rejected because of her brown skin, and I 
suspect that leaders were uncomfortable with her proven claim to white 
ancestors. Through her settlement agreement, more than 2,000 black 
soldiers were identified, from 1984 to 2001. Descendants have begun to 
discover family ties through ``African American and American Indian 
Patriots of the Revolutionary War.''
    By 1988, through the Black Revolutionary War Patriots Foundation, 
we had obtained the site, preliminary design approval and over 75 
percent of the major donors who eventually leveraged the rest. When we 
departed in 1992, the name was held in high esteem. Thereafter, the 
group's goodwill plummeted. By 2004, it was irretrievable. Months 
before the authorization expired we sought the advice of Senators Dodd 
and Grassley and congressional staff. Congress allowed the 
authorization to expire on October 26, 2005, without protest. However, 
the door had been opened to demonstrate the history's continued 
vibrancy and the site's availability.
    Incorporated on May 2, 2005, months before the expiration of the 
previous authorization, Liberty Fund D.C. is a non-profit corporation 
recognized under the laws of the District of Columbia. Form 1023, 
Application for Recognition of Exemption Under Section 501 (c)(3) of 
the Internal Revenue Code, was filed recently. We have a comprehensive 
website, www.libertyfunddc.org, and goodwill growing from 26 months of 
constructive activities and dialogue. Our sponsors, architects, 
sculptors, board, lawyers, and descendants have entrusted their sacred 
honor to this cause, as have I from 1978 when I entered the National 
Archives to uncover my family's heritage. The determination is as 
strong as ever. The potential of this project to raise the funds, 
construct the memorial and educate the nation is exceptional.
    Liberty Fund D.C. has no connection to the now-defunct Black 
Patriots Foundation. This is not a ``resurrection'' of that group. We 
are not responsible for its obligations. We have not received any of 
its assets, if any still exist. We will not use its designs or indicia, 
including the previously approved memorial design. The only things we 
seek are the site approvals. These were never the possession of the 
group. They belong to the American people by virtue of a process the 
National Park Service describes as follows: ``Area I authorizations are 
joint resolutions that Congress must pass deeming a subject matter of 
preeminent historical and lasting significance to the Nation.'' This is 
based upon history and not a sponsor's worthiness, or lack thereof.
    The designation has never been revoked--nor could it be. Books, 
archeological discoveries, documentaries, genealogical research, and 
DNA extractions over the past two decades reinforce the wisdom of 
Congress. Nothing has occurred on or near the site to render the 
authorization impractical. Constitution Gardens remains unchanged, 
unencumbered and capable of accepting this memorial in conformity with 
the Commemorative Works Act. The National Liberty Memorial would be 
located--(1) in surroundings that are relevant to the subject of the 
work and (2) so that it does not interfere with, or encroach on, an 
existing commemorative work.
    In June 2006, the National Capital Memorial Advisory Commission 
concluded, ``the Commemorative Works Act could be interpreted to allow 
Liberty Fund D.C. to assume the site approvals.'' A member voting in 
the majority said, ``there is enough of a nexus . . . that would be 
justification for extending the authorization for this site for the 
same memorial.'' (Transcript, National Capital Memorial Advisory 
Commission, June 27, 2006, page 25) The honorees and concept are 
precisely the same. Only the name has been changed. Another member 
said, ``[T]he reason Congress designates an organization is because the 
memorial is privately funded. So, there's nothing sacred about keeping 
the same name or the same organization.'' (Transcript, page 27)
    In 2003, Congress created a Reserve on the Mall and declared it ``a 
completed work of art.'' The Commemorative Works and Clarification Act 
imposed a moratorium on any new memorials except those ``for which a 
site was approved.'' Only the Black Revolutionary War Patriots Memorial 
and the Martin Luther King. Jr. National Memorial were exempted from 
the entire Act. Therefore, our request is a unique one that will never 
again be necessary. In addition, the 2003 Act changed this preexisting 
policy: ``Upon expiration of the legislative authority, any previous 
site and design approvals shall also expire.'' This does not apply to 
the site approved for the Black Patriots Memorial.
    Mr. Chairman, Constitution Gardens cries out for this memorial and 
its poetry--even more so than our combined voices. When tourists look 
across the lake at the National Liberty Memorial from one honoring the 
56 Signers, they will understand the true meaning of the Declaration of 
Independence.
    This land was hallowed by events made possible by the descendants 
of those patriots, including Marian Anderson's 1939 concert and the 
1963 March on Washington. Lincoln's granite stare may suggest how 
185,000 blacks fought to preserve the union during the Civil War. The 
backdrop of the Washington Monument will tell Americans that thousands 
of African Americans served under General Washington.
    The sound of water splashing the lakeshore will remind visitors of 
the harrowing ocean passage of some of these men and women and their 
ancestors from Africa. The contemplative nature of the garden, and the 
walk around the lake to the site, will give visitors an opportunity to 
think about the generations-long struggle for liberty.
    On the Mall's North/South axis, the interrelationship with DAR 
Constitution Hall will announce the determination of persons of African 
descent to fully embrace their heritage. Together with the future King 
Memorial, Americans will understand what Dr. King meant by ``a dream 
deeply rooted in the American dream.''
    John Carey of Washington, D.C. is proof of the power of this 
undying dream. He had to live 113 years--just about as long as any 
American ever has--to finally receive a pension for his service. This 
memorial means honor and justice, finally, for Mr. Carey and his 
African American compatriots.
    If this Committee allows S. 1051 to move forward, the National 
Liberty Memorial could come to symbolize the unconditional love of 
African Americans for our nation, from the American Revolution to 9-11.

    Senator Akaka. Thank you very much, Mr. Barboza.
    Now we'll hear from Mr. Hicks. Will you please proceed with 
your testimony.

  STATEMENT OF DAVID HICKS, EXECUTIVE DIRECTOR, ARIZONA TRAIL 
                    ASSOCIATION, PHOENIX, AZ

    Mr. Hicks. Thank you, Mr. Chairman and distinguished 
members. Chairman Akaka and members of the subcommittee and 
also staff present in the room: The Arizona Trail is not a 
concept. It is no longer an idea or a vision. It is an 807-mile 
scenic trail that exists and is now at 93 percent complete. I 
know because I walked it a few years ago and have some tired 
feet to prove it.
    My name is David Hicks and I'm Executive Director of the 
Arizona Trail Association. I'm honored to be here today to 
offer testimony on Senate bill 1304, the Arizona National 
Scenic Trail Act. In July 2006, the National Geographic 
Traveler Magazine spotlighted three premier long distance 
trails: the Appalachian Trail, the Pacific Crest Trail, and our 
Arizona Trail. The Arizona Trail was the only one featured that 
is not currently a national scenic trail. But we are ready to 
join that prestigious group of eight national scenic trails.
    Mr. Chairman and members, to my side is Ms. Lynn White, 
Arizona Trail Association board member, with a map* showing the 
Arizona Trail as it crosses Arizona. As I said, it's an 807-
mile panoramic pathway that weaves its way across some of the 
State's most spectacular scenery. That trail is the result of 
an exemplary public-private partnership that--it's the result 
of a public-private partnership of 19 years ago making the 
Arizona Trail now 93 percent complete.
---------------------------------------------------------------------------
    * Graphic has been retained in subcommittee files.
---------------------------------------------------------------------------
    The remaining miles are moving toward completion. The 
Arizona Trail provides recreation opportunities to Arizona's 
expanding population and tourists, while preserving and 
respecting the naturally diverse and beautiful Arizona 
landscape.
    In 1985 the trail was just a vision of a fifth grade school 
teacher from Flagstaff, Arizona. He visualized a path that 
would pass through desert and mountain corridors, crossing the 
entire State of Arizona. Less than 3 years later, the first 
seven miles of the Arizona were dedicated and open to the 
public. I'd like to point out at that time Representative Bob 
Stump was at that dedication. I wish he were here today. He was 
a big supporter of the Arizona Trail.
    But less than 20 years later, we are in sight of completing 
the entire trail. I believe the Arizona Trail is a model case 
study in dedicated citizens working in cooperation with public 
and private agencies toward a common community goal. The 
leadership, funding, tremendous work effort, and service each 
partner has provided to build and maintain the Arizona Trail is 
immeasurable.
    The Arizona Trail is unique in the makeup of its 
management. Coordinated by the Arizona Trail Association, 
Federal agencies, State and local public agencies, private 
businesses, outdoor clubs, and individuals work productively 
together to visualize the Arizona Trail.
    I would like to get to several reasons why I think national 
scenic trail designation is appropriate. Of course, it's a 
panoramic and diverse Southwestern scenery trail. It's a 
popular destination for thousands of people annually in the 
urban areas as well as the Grand Canyon National Park. It also 
offers remote solitude in the mountains and the Sonoran Desert. 
It offers a wide range of recreation opportunities for hikers, 
equestrians, mountain bikers, trail runners, cross-country 
skiers, birders, photographers, and other outdoor enthusiasts. 
It provides continuous historic sites across the trail. Due to 
the range and elevation, it's a unique opportunity to pass 
through six or seven life zones identified as being between the 
Equator and North Pole, but also all along the Arizona Trail.
    I believe the two most important points for this committee 
is: one that the Arizona Trail is 99 percent on public land. 
Acquisition of private property is not a concern for the 
Arizona Trail. The National Trail System Act in section 5 
states that ``A trail must be physically and financially 
feasible.'' I believe the Arizona Trail is. Twenty years ago, 
it was just a vision. Today, at 93 percent complete and plans 
and actions under way, it is definitely feasible.
    I'd like to express my gratitude to Senator McCain and 
Senator Kyl and also the National Park staff for their 
endorsement today. I also have a letter that I can pass out 
today from Arizona Governor Janet Napolitano supporting this 
bill. They've all brought this bill forward.
    Finally, Mr. Chairman and members of the subcommittee, the 
western half of the United States currently has two of the 
eight national scenic trails. The Arizona Trail is ready to 
become the third in the West. Our research shows that there has 
not been a new national scenic trail designation since 1983, 
over 24 years ago. Your support for the passage of Senate bill 
1304, Arizona National Scenic Trail Act, is requested and 
appreciated.
    Thank you.
    [The prepared statement of Mr. Hicks follows:]

 Prepared Statement of David Hicks, Executive Director, Arizona Trail 
                  Association, Phoenix, AZ, on S. 1304

    Thank you Mr. Chairman and distinguished members.
    Chairman Akaka and members of the Subcommittee on National Parks of 
the Senate Committee on Energy and Natural Resources, the Arizona Trail 
is not a concept. It is no longer an idea or a vision. It is an 800 
mile scenic trail that exists and is 93% complete. I know because I 
recall some very sore feet from walking the entire trail a few years 
ago.
    My name is Dave Hicks and I am the Executive Director for the 
Arizona Trail Association. I am honored to be here today to offer 
testimony on S. 1304 the Arizona National Scenic Trail Act. In July 
2006 National Geographic Traveler Magazine spotlighted three premier 
long distance trails: The Appalachian Trail, The Pacific Crest Trail 
and our Arizona Trail. The Arizona Trail is the only one featured that 
is not currently a National Scenic Trail but we are ready to join the 
prestigious group of eight National Scenic Trails which is why we are 
here today.

                           The Arizona Trail

    Mr. Chairman and members, to my side Ms. Lyn White, Arizona Trail 
Association Board member, has a map showing the Arizona Trail.
    The Arizona Trail (AZT) is an 807 mile panoramic pathway that 
weaves its way across the state of Arizona through some of the state's 
most spectacular scenery. As a result of an exemplary public/private 
partnership, the 19 years old Arizona Trail is now 93% complete. And 
the remaining miles are moving rapidly towards completion. The Arizona 
Trail provides recreation opportunities to Arizona's expanding 
population and tourists while preserving and respecting the naturally 
diverse and beautiful Arizona landscape. From its southern point at the 
historic Coronado National Memorial on the Arizona/Mexico border to the 
breathtaking panoramic Southwest splendor on the Arizona/Utah boundary, 
the Arizona Trail offers an array of scenic, historic and cultural 
attractions to thousands of outdoor enthusiasts.

                               THE VISION

    In 1985 Dale Shewalter, a hiking enthusiast and fifth grade 
schoolteacher from Flagstaff, Arizona scouted a long-distance trail 
across Arizona. He visualized a path that would pass through desert and 
mountain corridors, crossing the entire state of Arizona. Three years 
later, the first seven miles of the Arizona Trail were dedicated and 
opened to the public. Less than twenty years later, we are in sight of 
completing the entire Arizona Trail.

                      A PUBLIC/PRIVATE PARTNERSHIP

    The Arizona Trail is a model case study in dedicated citizens 
working in cooperation with public and private agencies towards a 
common community goal. The leadership, funding, tremendous work effort 
and service each partner has provided to build and maintain the AZT is 
immeasurable. The Arizona Trail is unique not only as a scenic, long 
distance trail but also in the make up of its management. Coordinated 
by the Arizona Trail Association, federal, state and local public 
agencies, private businesses, outdoor clubs, and individuals work 
productively together to realize the vision of an Arizona Trail.

                         INDIVIDUAL VOLUNTEERS

    Arizona Trail Association volunteer stewards and trail workers are 
the backbone for maintaining the AZT. Working with the land managers, 
they form the nucleus for maintaining and building the trail. In 
calendar year 2006, from a solitary steward hiking into a remote 
mountain range to 149 people attending a 2-day work event, 1796 people 
volunteered over 26,000 hours on behalf of the Arizona Trail. Those 
volunteers included 30 clubs and businesses that brought their members 
out for one or more work days on the trail. Stewards and volunteers 
toil diligently to build new trail and maintain the existing AZT, and 
they work closely with land managers to make improvements and reroutes 
to sections as well.

    THE ARIZONA TRAIL IS READY FOR NATIONAL SCENIC TRAIL DESIGNATION

    Due to its rapid development resulting from a viable leadership 
organization, positive relations with public agencies and strong 
support of business and outdoor enthusiasts, the Arizona Trail is 
feasible and ready to become a National Scenic Trail. It meets National 
Scenic Trail legislative intent by offering:

          1. Panoramic and diverse southwestern scenery.
          2. A popular destination for thousands of people annually in 
        the urban areas of the Flagstaff, Tucson, Phoenix Metro and the 
        Grand Canyon and Saguaro National Parks while also offering 
        remote solitude in places like the Mazatzal Mountains and the 
        Sonoran Desert. The AZT offers a wide range of recreation 
        opportunities for hikers, equestrians, mountain bikers, trail 
        runners, cross-country skiers, birders, photographers, and 
        other outdoor enthusiasts.
          3. Continuous historic sites starting at one of the United 
        States' most historic areas where Francisco Vasquez de Coronado 
        entered what is now Arizona and the USA in 1540.
          4. A unique opportunity to pass through six of the seven life 
        zones identified as being between the Equator and the North 
        Pole but also all along the diverse Arizona Trail.
          5. A trail that has proven it is both financially and 
        physically feasible. Twenty years ago the Arizona Trail was a 
        vision. Today at 93% complete and with plans and actions 
        underway for the remaining miles, the Arizona Trail is a 
        reality.
          6. A trail that is 99% on public land. Fortunately for the 
        Arizona Trail, acquisition of private property is not a 
        concern.

    Before closing, I would like to express gratitude to Senators John 
McCain and Jon Kyl who have provided tremendous long-time support for 
the Arizona Trail and who have brought the Arizona National Scenic 
Trail Act forward today.
    Finally, Mr. Chairman and members of the subcommittee, the western 
half of the United States currently has only two of the eight National 
Scenic Trails. The Arizona Trail is ready to become the third in the 
West. Our research shows that there has not been a NST designation 
since 1983, over 24 years ago. Your support for the passage of the S. 
1304 Arizona National Scenic Trail Act is requested and appreciated.
    With that, I would be pleased to answer questions.

    Senator Akaka. Thank you very much for your testimony.
    The letter* that was received by Governor Napolitano will 
be included in the record.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Mr. Hicks. Thank you.
    Senator Akaka. Thank you for your testimonies. Let me ask 
my first question to you, Mr. Hicks, on the Arizona Scenic 
Trail. It looks like you've brought together an impressive 
array of partners to support the Arizona Trail and the bill 
appears to be noncontroversial. I just have one clarifying 
question. You use 2 percentages here that tells me it's not 100 
percent. What you said was it was 93 percent complete and you 
also said that 97 percent was on public land.
    When you state that the trail is 93 percent complete, what 
exactly does that mean? Does it mean that the remaining 7 
percent still needs to be constructed, or are there trail 
segments that still need to be acquired?
    Mr. Hicks. Thank you, Chairman Akaka. The trail is 93 
percent complete. I hope you received this report here, which 
we think is more thorough than a feasibility study. But it 
outlines the remaining 53 miles of trail that need to be built. 
Most of those sections have been started. We are under 
construction in most of those areas, but we have 53 miles of 
trail to build. We hope to have those built--the Arizona 
Centennial is in 2012. We're hoping to finish the trail well 
before that and present it to the State as a completed national 
scenic trail at that time or before then.
    Senator Akaka. Thank you for that clarification.
    My next question is to Mr. Barboza. In 1986 there was an 
original authorization to construct the Black Revolutionary War 
Patriots Memorial, which you initiated. After many extensions, 
that authorization and all of the associated permits and site 
approvals that you mentioned expired in 2005. As I understand 
your position, you now want an authorization for a new group, a 
new group with a new memorial design, but for the same 
underlying memorial purpose, at the previously approved site.
    It seems like you're trying to have it both ways here. 
Either this is a proposal to extend the previous authorization 
yet again or it's a new memorial. Can you please clarify this 
for me?
    Mr. Barboza. Yes, I'd be glad to, Senator. In 1986 when the 
authorizing legislation was approved, the bill had been 
stripped of the specific site designation, and there was a long 
hiatus between the time that the first hearings took place in 
the House and Senate and the legislation actually was approved 
and reported by the House and the Senate. The reason is because 
Senators began to become concerned with what they saw as a 
proliferation, a possible proliferation of memorials. They 
wanted to get a handle on it. They wanted to have some rules, 
regulations, and ground rules for the establishment and 
maintenance of memorials.
    So in the meantime, while the Black Revolutionary War 
Patriots Memorial, the Korean War Memorial, and the Women in 
the Military Service Memorials were under consideration, they 
were put on the back burner and this new Commemorative Works 
Act was considered, and the Commemorative Works Act required 
that if you wanted to get a memorial placed on the Mall that 
you had to go through this additional hoop, and that is get a 
separate piece of legislation approved by Congress stating that 
the history--and that is the history is of preeminent historic 
lasting significance to the Nation, therefore the memorial 
deserves to go on the Mall.
    So after our authorizing legislation was approved, it was 
another 3 years going through all of the commissions--Fine 
Arts, National Capital Planning, Memorial Commission and 
others--to finally achieve that designation. Once Congress 
approved the general Mall area designation, we had to go back 
to the agencies to get the specific site, and indeed they 
granted this one site that we sought at Constitution Gardens 
because it meant so much.
    This is, as far as the history is concerned, it's precisely 
the same. We took the recommendation of the National Capital 
Memorial Commission seriously. Senator Dodd took it seriously. 
Senator Grassley and the co-sponsors took it seriously. They 
amended the legislation that was introduced in early 2006 and 
when it was re-introduced as S. 1051 it went back to the 
original language. The only thing that was changed was the 
name.
    So indeed this is a continuation of a project to honor the 
5,000 black soldiers, tens of thousands of freedom seekers, 
men, women, and children who ran away from slavery and who 
sought liberty, who performed patriotic acts during the 
Revolutionary War, who filed freedom petitions with the courts 
and legislatures. All of those men, women, and children would 
have been honored had the Black Patriots Memorial been 
established and they would be honored if this memorial is 
established.
    With respect to the design, we could not use any--as you 
would understand, we could not use any copyrights, indicia, or 
design of the other foundation, for fear that we would become 
confused with that foundation. The only thing that has changed 
is the names and everything else is the same and those that we 
seek to honor.
    Senator Akaka. Mr. Barboza, the previous Black 
Revolutionary War Patriots Memorial was authorized over a 19-
year period, far longer than the 7-year period specified in the 
Commemorative Works Act. Yet today the memorial is no closer to 
being built than it was in 1986. Given the previous lack of 
success in raising the necessary funds to build this memorial, 
why do you expect that it will be any different this time if 
this bill is approved?
    Mr. Barboza. Senator, if you look behind me, one of the 
great things that--I first want to answer your question more 
directly about the amount of time that transpired. Because this 
was a new process, the process that we had to go through, the 
additional 3 years to get the specific site, cut into our 
authorization. So through 1992 I believe we were operating on--
the original authorization I believe was for 4 years. Three 
years of that time was spent going to all the commissions and 
trying to get the approval of the specific site.
    I believe there was a 2-year extension that ended in 1993, 
which was the year after I left, and there were hearings, and 
it was extended I think three more times to 2005, as you said.
    But we absolutely believe that we can raise the funds and 
we have something I did not anticipate when this project was 
initiated originally, and that is emotion, like the Vietnam 
Memorial, where there were children, there were husbands, there 
were wives, there were cousins and aunts and uncles and 
everyone else who had some association to a soldier in that 
war. The same thing with World War Two and with the Women in 
Military Service Memorial. As I might add, each of those 
memorials, with the exception of Vietnam, received Federal 
funding. This project never received Federal funding except for 
that coin many years later that was minted.
    But we have descendants, living people like the three 
persons that you were just introduced to, the Henry Bakeman 
descendants. My aunt as a result of her battle with the DAR 
forced the organization to identify all the black soldiers who 
served in the Revolutionary War. They didn't do all of them, 
but they did about 2,000, and I understand they're still 
working on it after 17 years, and we had to push them and push 
them and push them. There are black women who discovered their 
ancestors in that publication who became members of the DAR and 
they were able to link themselves to this extraordinary history 
which is the birth right of every American.
    This [indicating] is a publication that I received a few 
days ago from the Boston National Historical Park in 
Massachusetts. This was a study done of the black soldiers who 
served at the Battle of Bunker Hill. When Benjamin Quarrels at 
the age of 88 testified in the House in 1985--he wrote ``The 
Negro and the American Revolution,'' a preeminent historian--we 
knew of only a handful of black soldiers who were at the Battle 
of Bunker Hill. This book contains 120 of them.
    So while the Black Patriots Foundation was foundering and 
failing, there were news articles about the history that were 
being done, documentaries, studies, books, tons of books on our 
web site your staff has seen. That cemented the notion that 
this is real history and this is American history. So we 
believe that we now have this new element of emotion.
    The Park Service is correct, there was probably about 3.5, 
$4 million raised. If there had not been so much funny business 
going on--and it all originated with one individual on our 
board, and those things happen. The Korean War Memorial went 
through the same thing. I sat through hearings back in I think 
it was 1984 where there were two organizations vying for this 
authorization. So those things happen.
    It took black people, what was it, 200 years, 250 years, 
for Rosa Parks to sit down on that bus seat and cause all of 
this new reevaluation and new freedoms that we had thought we 
were going to win during the Revolutionary War but didn't. A 
memorial, 19 years? I don't think that's such a long period of 
time. We're going to do it. That's the point. The point is, do 
you want this memorial to symbolize what we believe it will 
symbolize on that site on the Mall?
    Senator Akaka. Thank you very much, Mr. Barboza.
    Senator Burr.
    Senator Burr. Mr. Hicks, thank you for mentioning Bob 
Stump's name. What a powerful guy. We miss him tremendously. 
I'm sure the chairman remembers Bob and the great personality 
that he had--a guy that never forgot where he was from and 
cherished in fact where he was from.
    In your testimony you stated that 99 percent of the trail 
is on public land and 93 percent of the trail is completed. Of 
that 7 percent that's currently not complete, what public land 
agencies control any or all of that and what's the level of 
cooperation for completion?
    Mr. Hicks. Chairman Akaka, Senator Burr, I appreciate the 
comments on Mr. Stump. If he were here alive today, I'm sure 
he'd be sitting in this chair or this chair, thank you very 
much.
    Of the 7 percent--let me first address the 99 percent 
that's on public land. We are lucky in Arizona; we have a lot 
of public land. So our trail has progressed very quickly 
because of that, because we haven't had to acquire private 
property, and we don't have to acquire any in the future. So 
we're fortunate there.
    The amount, the 7 percent that's not done, I think we are 
working with Saguaro National Park, Coronado National Forest, 
Coconino National Forest, Bureau of Land Management, city of 
Flagstaff. It seems like there's another small piece somewhere. 
We're all on public land, but public land is owned by lots of 
different entities.
    The level of cooperation is just fantastic. I think we 
have--and that's part of the cooperation and progress that's 
been made because of that cooperation of all those different 
agencies. So all those pieces are moving forward, and so we 
know they're going to be done.
    Senator Burr. I appreciate that.
    Mr. Barboza, I'll be totally honest. I am not smart enough 
to figure out all the different facets of your initiative 
today. I will make you this promise. I will, before we take up 
this legislation, have a great grasp of it. I'm not sure that 
any member of the Senate would disagree with whether a memorial 
would be the right thing. But I think that I listened as the 
chairman asked his questions and I got deeper and deeper in 
confusion about the dates and what they triggered and if there 
was something on the Government's part where we dropped the 
ball, what it was, and if there wasn't then who from a 
standpoint of the private organization is responsible, and if 
you sorted that out do you get a do-over, because in essence 
that's sort of the way I sense this is. A lot of people have 
messed up and we'd like to do it over, but we'd like to pick up 
right where it was left off.
    I'm not opposed to that. I have to think through the 
precedent that might be set and whether that precedent is 
something that a member of the U.S. Senate 3 decades from now 
sitting in this same chair in my seat would look on as a 
benefit or a liability. Unfortunately, I'm not deep enough into 
this to understand that.
    Let me ask a few simple questions, though. Are you aware of 
unpaid debts associated with Black Revolutionary War Patriots 
Memorial and, if so, do you know what those debts total?
    Mr. Barboza. Senator, yes, I am aware, because we have a 
Web site that's available to the public, so----
    Senator Burr. Could I ask you to check your microphone.
    Mr. Barboza. Oh, I'm sorry.
    Senator Burr. That's OK.
    Mr. Barboza. We have a Web site, www.libertyfunddc, and 
apparently the Black Revolutionary War Patriots Foundation shut 
off the telephones, they closed down their web site. So when 
they started searching for this memorial or something 
associated with it, they found our web site and they called me. 
I did get phone calls from an organization in Pennsylvania that 
did a traveling exhibit for them. They were going to display 
pictures, photographs, to carry it around the country. They 
were owed $50,000.
    I know for a fact, because there was a period of time 
between late 2004 and early 2005 when I tried to help the 
group. I thought, gosh, we've got to get this thing done and 
I'll do whatever I need to do. I volunteered tens of dozens of 
hours trying to help them, and I realized this was going to be 
pointless.
    At the time, they had received--they had previously 
received at some point--I don't know the exact date--the coin 
money. They incurred this particular debt and other debts at a 
time when they had money in the bank, but yet they didn't pay 
those debts.
    There was another debt was to a consulting firm and it was 
a wonderful report this consulting firm did explaining what 
they needed to do to get the project back on track. I believe 
that was also $50,000. They didn't pay for that fee.
    They received the coin money. That was something in the 
area of--then there was a lobbying bill that they--a former 
Congressman, Marty Russo. I knew him when I was on the staff of 
the House Judiciary Committee and you know him too, I'm sure, a 
lovely person. I called him 1 day and I said: Marty, can you 
help this group out? He calls me back and he says: Maurice, I'd 
love to do it, but they hired us to do a task, we gave them a 
discount, they never paid us; so I really couldn't touch this. 
It was embarrassment, silliness after silliness.
    Senator Burr. Does that incorporate the entire debt that 
you're aware of?
    Mr. Barboza. That would--you know, I guess that's probably 
$160,000. I really don't know of any--there could be more. 
There definitely could be more.
    Senator Burr. Since you have taken this initiative with 
others, how much have you raised?
    Mr. Barboza. When I was there I raised about $2 million.
    Senator Burr. No, I mean currently.
    Mr. Barboza. Oh, now.
    Senator Burr. The new Liberty Memorial Fund.
    Mr. Barboza. $750. We haven't been raising money. The money 
that seeded this project originally came out of my pocket. I 
sold my house out in the country, seven acres of land, the big 
house and a horse barn. I have no horse, no wife, no moustache 
as a result of all of this, and many other stories that I do 
not wish to tell. But I seeded this project initially back in 
the 80s through 90s and it caused me to go, financially to have 
all the problems Congress is looking at--lack of health 
insurance and all kinds of other things. So I paid my dues on 
this project.
    Right now we're not trying to raise money. We filed our--a 
wonderful law firm prepared our 501[c][3] filing and we raised 
$750 from our descendants and other friends, and that was 
specifically what we asked them for. We want to file this 
document, that's what we need. That's what we got and that's 
what we paid.
    Senator Burr. I want to thank you for your willingness to 
come in and testify on this; also you, Mr. Hicks, for your 
commitment to this trail. As one who shares in the Appalachian 
Trail, I know the value. Ours is a little bit longer, but it is 
a treasure.
    Again to you, Mr. Barboza, my commitment that I will sort 
these out. I'm sure, listening to the chairman, we both might 
have some additional questions related to this as we go on. 
It's not historically a process that we rubber stamp, but it's 
certainly one that we try to afford everybody a total 
understanding of what we're trying to accomplish, which I think 
we're in agreement on. But how we do that and the precedent 
that it sets is very important.
    So I thank both of you.
    Mr. Chairman, I yield.
    Senator Akaka. Thank you very much, Senator Burr, for your 
concerns and your questions here.
    I'd like to thank both of you for testifying this 
afternoon. We may have, as was indicated, may have questions 
from other committee members as well who were unable to attend, 
and if we do we'll submit them to you in writing and ask that 
you answer them so they can be included in the hearing record.
    It is my hope that Senator Burr and I will be able to have 
at least the noncontroversial bills ready for full committee 
consideration as soon as possible. I thank you for what you've 
done, both of you, what you've done for your bills and wish you 
well in the future.
    If there are no further statements, the subcommittee is 
adjourned.
    Mr. Barboza. Thank you, Senator. This is an exceptional 
hearing.
    Senator Akaka. Thank you
    [Whereupon, at 3:47 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                             National Mall Liberty Fund DC,
                                                   October 2, 2007.
Hon. Daniel K. Akaka,
Chairman, Subcommittee on National Parks, committee on Energy and 
        Natural Resources, Washington, DC.
    Dear Mr. Chairman: Thank you for the kindness extended by yourself, 
Senator Richard Burr and the staff of the Subcommittee on National 
Parks when I testified on September 11, 2007, on S. 1051, the National 
Liberty Memorial Act. Attached are two PDF files containing my answers 
to the questions posed for the record and an exhibit.
    From 1985 to 1988, the House and Senate thoroughly considered the 
question of whether the history of black patriots and soldiers of the 
Revolutionary War warrants a site in Area I. Multiple Federal agencies 
and Congress spent 21 months sorting out the answer. The agencies 
consumed 18 months alone while the five-year time limitation continued 
to run through that and the design stage. By the time the conceptual 
design was approved in November 1991, the entire authorization had been 
exhausted in one agency hearing or another. Because the agencies 
control the scheduling, duration and outcome, memorial sponsors are 
constricted in what they can do to fulfill the other requirements of a 
building permit pending site and design approval.
    The National Liberty Memorial is not a new project; only the 
sponsor is different. The purpose and scope of S. 1051 are identical to 
Pub. Law 99-558. Although we are a new entity, National Mall Liberty 
Fund D.C. has associations in the public's mind with the land in Area 
1, the history and the project before October 1992. I have no knowledge 
of the internal workings of the previous sponsor after I departed the 
project on that date. Our focus is on the noble history and saving the 
Black Patriots Memorial although with a new name made necessary by 
circumstances: National Liberty Memorial.
    We seek to continue what I and thousands of volunteers, 
organizations and members of Congress began over two decades ago. This, 
and the class of honorees, is the ``nexus'' that the National Capital 
Memorial Advisory Commission thought was sufficient to allow Liberty 
Fund D.C. to assume the site approvals. It is the 12-year period until 
2005, after my departure, that represents the break with the project 
that Congress approved in the legislative history described in the 
answer to Question 5.
    We welcome an opportunity to discuss these answers with members and 
staff.
            Sincerely,
                                        Maurice A. Barboza,
                                                   Founder and CEO.

                Responses to Questions From Senator Burr

    Question 1. National Liberty Memorial (S. 1051): What is the 
relationship between the Black Revolutionary War Patriots Memorial and 
the National Liberty Memorial?
    Answer. National Mall Liberty Fund D.C. has no legal or informal 
relationship with the Black Patriots Foundation. This project was 
incorporated on May 2, 2005, six months before the other Foundation 
forfeited its authorization to construct the Black Revolutionary War 
Patriots Memorial.
    The National Liberty Memorial is not a new project. The purpose and 
scope are identical to Pub. Law 99-558. We are a new entity with far 
greater attachments to the land in Area I than the Black Patriots 
Foundation after 1992. We are seeking to continue what I and thousands 
of volunteers and members of Congress began over two decades ago. It is 
the 12-year period until 2005, after my departure, that represents the 
break from the project that Congress approved.
    Both memorials would honor ``the black men, women, and children who 
ran away from slavery or filed petitions with courts and legislatures 
seeking their freedom.'' Statistics for the Fund's website, 
www.libertyfunddc.org, show that among the most popular key phrases and 
key words that bring people to the site contain the words ``black,'' 
``Revolutionary,'' and ``War.'' It is not necessary to retain the old 
name for the public to find us or to comprehend that we are trying to 
fulfill the original purpose and scope of the Black Patriots Memorial.
    The attached articles* written between 1984 and 1992 suggest the 
connection between the Black Patriots Memorial before 1992 and the 
current Liberty Fund D.C. They reflect the enormous groundwork laid for 
public education on the forgotten role of African Americans which we 
seek to continue. These more recent articles suggest how I, and my 
cofounder Lena Santos Ferguson, promoted the black patriots, and were 
associated with the effort to honor them in multiple ways, for over 22 
years. ``Lena Ferguson Dies at 75; Challenged DAR on Race,'' Sunday, 
The Washington Post, March 14, 2004, ``Black DAR Member Challenges 
Efforts,'' Associated Press, April 14, 2000; ``Meanwhile, America could 
learn more about its colorful past,'' The New York Times, August 4, 
2004, Maurice A. Barboza and Gary B. Nash; ``Injecting Race Into The 
Revolutionary War'' The Hartford Courant, June 4 2002; and ``Thurmond's 
Biracial Daughter Seeks to Join Confederacy Group'' New York Times, 
July 2, 2004.
---------------------------------------------------------------------------
    * List of articles has been retained in subcommittee files.
---------------------------------------------------------------------------
    Two prominent historians sent a letter to the Senate's President 
Pro Tem in 2006 describing how the knowledge of the history has 
expanded since the Black Patriots Memorial was authorized. (See this 
contemporary bibliography and letter to the Senate's President Pro Tem 
by historians Gary Nash and Henry Louis Gates, Jr.) In addition, at 
least 60 African Americans, not counting the other eligible members of 
their families, have joined the Sons of the American Revolution and 
Daughters of the American Revolution since Mrs. Ferguson, now deceased, 
won her battle to join the organization in 1984 and secured research on 
the black patriots that is allowing them to be discovered by 
descendants.
    It was my strong feeling in 1985, when I founded the Black Patriots 
Foundation, and the feeling of the Congressional sponsors as well, that 
my aunt's nationally-publicized battle to honor her heritage and join 
the DAR (between 1980 and 1984) was a force that could unite patriotic 
Americans of all backgrounds and contribute mightily to the raising of 
funds for the memorial. That it brought context to the noble history by 
showing how African Americans could be re-connected to their lost 
heritage. In fact, almost 100 percent of funds raised up to $4 million, 
perhaps, came from donors who were drawn to the project prior to our 
departure in 1992. A construction management firm estimated the cost of 
the memorial in 1991 to be just over $4 million, including the required 
set-aside for perpetual maintenance.
    When we left the Black Patriots Foundation, the group lost the 
living and breathing part of its story with a decade's worth of 
associations. The group still had the noble history and the memorial 
site. But it no longer had the wherewithal to understand the connection 
between the history and how it could motivate Americans. This is one 
reason why it could not qualify for a building permit before the 
expiration of re-authorizations in 1994 (Pub. L. 103-321), 1996 (Pub. 
L. 104-333) and 2000 (Pub. L. 105-345).
    Question 2. National Liberty Memorial (S. 1051): Is the purpose and 
scope of National Liberty Memorial the same as the Black Revolutionary 
War Patriots Memorial?
    Answer. Although the name ``National Liberty Memorial'' is new, the 
honorees and purpose remain precisely the same as the Black 
Revolutionary War Patriots Memorial. (Shown in the chart** below) S. 
1051 does not alter a substantive word of the original authorizing 
legislation, Pub. L. 99-558. First, the bill strikes the name ``Black 
Revolutionary War Patriots Foundation'' in the two places where it is 
mentioned in the Act. Secondly, the bill gently reaffirms what Congress 
and the Secretary of the Interior said in 1988: that the history of 
black soldiers and patriots of the Revolutionary War is of ``preeminent 
historical and lasting significance to the nation'' and, therefore, 
eligible to be honored by a commemorative work placed in Area I. Third, 
the Act binds itself to Pub. L. 100-265 and the specific site acquired 
in March 1988 at Constitution Gardens. S. 1051 says that those soldiers 
and patriots remain eligible to be honored on ``the portion of land at 
Constitution Gardens, located on the south side of Constitution Lake 
and west of the island, that was previously selected as the site for 
the memorial.''.
---------------------------------------------------------------------------
    ** Chart has been retained in subcommittee files.
---------------------------------------------------------------------------
    The purpose of Liberty Fund D.C. is to continue the project where 
it left off in 1988 when the site was approved at Constitution Gardens. 
A that moment, public knowledge was broad, the underpinnings for 
fundraising emerging, and enthusiasm among volunteers at their highest 
levels. The site was never revoked, and it remains unencumbered. No 
other memorials were built on or near the precinct. The site was 
approved pursuant to the Commemorative Works Act on July 28, 1988, and 
grandfathered a second time to the ``preeminent'' history by the 
Commemorative Works Clarification and Revision Act of 2003.
    The Act created a ``Reserve'' on the Mall and imposed a moratorium 
on the construction of future monuments and memorials in that area. 
Section 205, however, exempts ``a commemorative work for which a site 
was approved in accordance with the Commemorative Works Act''. That 
section also says that ``Nothing in this title shall apply'' to such a 
commemorative work. That means that the history of African Americans 
remains vested in the site at Constitution Gardens. Not even the 
expiration of the authorization of the Black Patriots Foundation alters 
that fact of law. The provision of the 2003 Act that mandates approved 
sites and designs to expire simultaneously with the lapse of a 
sponsor's authorization does not apply to the black patriots 
commemorative work, since that site was approved before that provision 
was written into the law. Moreover, the 2003 Act exempts this memorial 
from every provision.
    Question 3. National Liberty Memorial (S. 1051): Why is it 
necessary to change the name from Black Revolutionary War Patriots 
Memorial to National Liberty Memorial?
    Answer. The name ``Black Revolutionary War Patriots Memorial'' is 
an indicia of the Black Revolutionary War Patriots Foundation, as is 
the design of the commemorative work. The Foundation was incorporated 
in the District of Columbia in 1985. No part of the Foundation was 
legally or informally folded into National Mall Liberty Fund D.C. We 
are a separate organization incorporated under the laws of the District 
of Columbia in May 2005. In August, we filed for tax exempt status 
under Section 501(c)(3) of the Internal Revenue Code. The Black 
Patriots Foundation is recognized independently as tax exempt and 
entitled to 501(c)(3) status as a nonprofit organization.
    It is my recollection that the logo and memorial design of the 
Black Patriots Foundation, as well as the corporate name and the term 
``Black Revolutionary War Patriots Memorial,'' were copyrighted prior 
to 1992. The Foundation presumably retains the rights to one or all of 
those properties. In addition, while the group no longer has a 
corporate address, telephone number or website, it may still have 
financial or other obligations required to be fulfilled under Federal 
and state law.
    If Liberty Fund D.C. were to take on one or more identities of the 
Black Revolutionary War Patriots Foundation, or its obligations, 
including the name of the Memorial, we could subject ourselves to 
liabilities that we did not incur and have no duty to undertake or 
redress, in addition to copyright infringement. Such actions would 
exacerbate the attempts of Liberty Fund D.C. to distinguish the noble 
history from the former sponsor. The Foundation may not have initiated 
proceedings to ``liquidate'' or ``dissolve'' the corporation. Pending 
those proceedings, it could retain property rights in its identities 
and copyrighted assets.
    The Internal Revenue Code and the Foundation's own bylaws, Article 
5, provide for the following orderly procedure upon dissolution: 
``Further, upon the liquidation or dissolution of the Corporation, the 
Board of Directors shall, after paying or making provision for the 
payment of all of the liabilities of the Corporation, dispose of all of 
the assets of the Corporation exclusively for the purposes of the 
Corporation in such manner, or to such organizations organized and 
operated exclusively for charitable, educational, religious, or 
scientific purposes as shall at the time of qualification as an exempt 
organization or organizations under Section 501(c)(3) of the Internal 
Revenue Code of 1954 (or the corresponding provisions of any future law 
of the United States of America) as the Board of Directors shall 
determine.''
    Question 4. Are you aware of any unpaid debts associated with the 
Black Revolutionary War Patriots Memorial? What is the total amount and 
how many businesses are involved?
    Answer. At no time over the past 15 years, since 1992, have I had 
access to the records, receipts, invoices or bank statements of the 
Black Revolutionary War Patriots Foundation, except for public records 
such as the IRS Form 990 and audited financial statements required to 
be filed by the Commemorative Works Act. I have no knowledge of the 
Foundation's internal operations over the years from October 1992 
through the hearing of September 11, 2007, other than through the 
newspapers and random information from sources outside the Foundation.
    My focus over the past 27 months has been on building the National 
Liberty Memorial. I hope this Committee will show America that it is 
more concerned with the debt owed to the tens of thousands of 
Revolutionary War era enslaved and free people who helped create the 
nation's Independence. The least Congress could do is to memorialize 
them and offer their descendants the opportunity to discover familial 
connections.
    Those patriots watched, helplessly, as slavery grew and other 
Americans came to enjoy the liberty they had helped to win but were 
denied by the U.S. Constitution and the inaction of Congress. The 
Senate was central to that history, from the system of doling out 
Revolutionary War pensions to the expansion of slavery and Jim Crow. 
These continue to negatively impact their descendants. We believe this 
memorial will help give them a sense of closure and enormous pride--
things as priceless as the land we seek.
    The Secretary of the Interior would do well by the Administration 
to defer to the judgment of Congress on whether Constitution Gardens 
should be preserved by S. 1051 for the National Liberty Memorial and 
the acknowledgement of this 200-year-old debt. What is the point of 
enabling the Secretary to pass on the question of the ``preeminent'' 
value of the history a second time. The agency has already spoken on 
that issue and on the site at Constitution Gardens. The following 
legislative history illustrates this clearly.
    Question 5. `National Liberty Memorial (S. 1051): The site that you 
are requesting on the National Mall was first approved for the location 
of the Black Revolutionary War Patriots Memorial. How long did the site 
selection process take, what type of documentation was needed to 
support the process, and what agencies were involved?
    Answer. Duration.--The entire site selection process for the Black 
Revolutionary War Patriots Memorial (P.L 99-558) consumed 21 months. 
This was separate and apart from the authorization of the Black 
Revolutionary War Patriots Foundation--or the license to construct a 
memorial. The license did not entitle the Foundation to the land. The 
history entitled the memorial to occupy the land. Prior to 1988, no 
such procedure existed whereby a group seeking a site on the Mall was 
required to ask the Secretary of the Interior, a land manager, his 
opinion on the worthiness of a chapter in American history, 
particularly one in which the U.S. Congress was an integral part in its 
unfolding--the Revolutionary War and the struggle for liberty 200 years 
forward.
    The clock continued to run during site selection or from 
authorization to specific site approval, including the designation of 
an Area I location. That amounts to over one-third of the original 60 
months authorized for memorials under the Commemorative Works Act of 
1986.
    President Reagan signed the memorial authorization, Pub. L. 99-558, 
on October 27, 1986. However, it was not until July 28, 1988, that the 
Secretary of the Interior approved the site at Constitution Gardens. 
The sponsors of the Commemorative Works Act had no hard and fast 
evidence that within five years a memorial sponsor could obtain an Area 
I location, site approval, design the commemorative work, secure design 
approval and raise 100 percent of the required funds to qualify for a 
building permit.
    Actual experience under the Commemorative Works Act proved five 
years unrealistic and the time limit was later amended. No major 
privately funded memorial project after 1987 has met the original five-
year time limitation imposed by the Commemorative Works Act or the 
subsequent seven-year authorization imposed by the amendments of 1991. 
The Korean War Memorial, Women in Military Service Memorial, and Martin 
Luther King Jr. Memorial (all of which were appropriated funds by 
Congress) were given one or more extensions beyond seven years. All, 
except for the Women in Military Service Memorial, were approved for 
Mall sites.
    The Black Patriots (which received no Federal appropriations) and 
Korean War Memorials--the first projects considered by Congress and the 
agencies under the Commemorative Works Act--were required to adhere to 
this process:

          1. Obtain a recommendation of the Secretary of the Interior, 
        via the National Capital Memorial Commission, that the history 
        to be honored is of ``preeminent historical and lasting 
        significance to the nation.''
          2. Obtain within 150 days of such a recommendation the 
        approval of legislation proposed by the Secretary to declare 
        the history eligible to be honored in Area I.
          3. Secure the approval of a specific Mall site by the 
        Secretary (as recommended by the National Capital Memorial 
        Advisory Commission), National Capital Planning Commission and 
        Commission of Fine Arts. (There are other agencies with sign-
        off responsibilities).

    Congress designated in the Commemorative Works Act the amount of 
time it had to approve an Area I designation. However, the Act puts no 
similar limitations on the time that the National Capital Memorial 
Commission and the Secretary could consume. The Memorial Commission did 
not conduct a hearing on the Black Patriots Memorial until June 16, 
1987, or seven (7) and a half months after the approval of the 
authorization.
    After the meeting of June 16, 1987, it took officials of the 
National Park Service five (5) months to move the paperwork through the 
bureaucracy to OMB. It was not until November 9, 1987, that the 
paperwork was cleared and the Secretary sent to Congress proposed 
legislation that declares the Black Patriots Memorial eligible to stand 
in Area I. Thereafter, S.J. Res. 216 and H.J. Res. 413 were introduced 
to authorize a location in Area I.
    By a unanimous vote, and possibly as one of the earliest orders of 
business that year, the Senate Committee on Energy and Natural 
Resources on February 17, 1988, reported S.J. Res. 216. On February 26, 
1988, the Senate approved the Resolution (Congressional Record February 
26, 1988, pages S 1548-S 1549). The Energy Committee did not hold a 
hearing on the Area I designation. The Committee Report on H.J. Res. 
216 says, ``No hearing has been held on the Secretary's Area I 
recommendation; however, a hearing was held during the 99th Congress on 
the authorization legislation for the Black Revolutionary Patriots 
Memorial.'' At that hearing, I spoke extensively about the significance 
of the history and the memorial site. The National Society Daughters of 
the American Revolution, Prince Hall Masons and American Jewish 
Congress also testified along with Rep. Mary Rose Oakar, chair of the 
House Task Force on Libraries and Memorials. The Committee received 
prepared statements from multiple historians and a Howard University 
psychologist on the need for the memorial. The staff also had available 
the entire record of the hearing held in the House.
    In the House, there was not the same continuity as in the Senate. 
Jurisdiction over memorials resided in two different committees. 
Jurisdiction over memorial authorizing legislation was in the Task 
Force on Libraries and Memorials of the House Administration Committee. 
However, jurisdiction over the land resided in the House Committee on 
Interior and Insular Affairs. The Task Force conducted a hearing June 
13, 1985, with 24 witnesses, including multiple historians, the 
National Society Daughters of the American Revolution, National Society 
Sons of the American Revolution, Prince Hall Masons, National Education 
Association and numerous other groups and individuals.
    On March 8, 1988, the Interior's Subcommittee on National Parks and 
Public Lands (where the Commemorative Works Act originated) conducted a 
hearing on H.J. Res. 413. This was its first exposure to the idea that 
African Americans had served in the Revolutionary War. Witnesses 
included myself; the president of the Sons of the Revolution in the 
State of New York; U.S. Second Circuit Court of Appeals Judge Lawrence 
Pierce, a descendant of Adam Pierce (New Jersey), a black Revolutionary 
war soldier; and historians. On March 14, 1988, the Committee reported 
favorably on S.J. Res. 216 and the House approved that companion bill 
on March 15, 1988 (Congressional Record March 15, 1988, pages H 841-H 
845).
    On April 11, 1988, President Reagan signed S.J. Res. 216 that 
designates the Black Patriots Memorial of ``preeminent historical and 
lasting significance to the nation.'' In a letter to Rep. Nancy L. 
Johnson, he said, ``The Nation owes a debt of gratitude to you, and to 
Mr. Maurice Barboza who has pursued the dream of this memorial with 
you, for your success in passing the resolution for the Memorial to 
honor the blacks who fought for freedom during and after the 
Revolution.'' (Letter from President Reagan to Rep. Nancy L. Johnson, 
April 11, 1988) The Secretary of the Interior did not approve the 
specific site until July 28, 1988. Congress took less than 16 months to 
approve the Black Patriots authorizing legislation and just over three 
(3) months to approved the location in Area I. However, it took the 
National Capital Memorial Commission 18 months to consider the matter 
and for the National Park Service to process the paperwork through 
Interior and OMB.
    The Congressional testimony (See the chart below, Congressional 
Statements) was so compelling that in bipartisan fashion members of the 
House Administration Committee, including the floor managers, repeated 
over and over during floor consideration that it was their wish for the 
memorial to be situated in Area I. Typical of those statements is this 
remark of Rep. Bill Frenzel, the ranking minority member of the Task 
Force: ``One of the things we cannot do is to designate a specific 
site, for if we do, it would mean that the bill would have to be 
rereferred a couple of times after it left our committee. The committee 
is . . . very sympathetic with the request of the sponsors of the 
legislation for a site in Constitution Gardens. And it is the hope, I 
think of all of the members of the Committee on House Administration 
that when the final site is selected, it will be in that particular 
area, and all of us regret greatly we were not able to work that into 
the body of the bill itself.'' (Congressional Record, November 4, 1985, 
H 9659).
    Rep. Nancy L. Johnson, the House sponsor asked Rep. Oakar, ``So my 
resolution has also been amended to eliminate the specific reference to 
the site. But I think (thank) the committee for the language in the 
committee report that does indicate that the committee's intention was, 
and I ask my colleague if this is not her understanding of the 
motivation of the committee, that the committee felt that this memorial 
should be placed in a setting of great prominence in Washington, a 
setting of such prominence as Constitution Gardens.'' (Congressional 
Record, November 4, 1985, H 9657).
    Rep. Oakar responded, ``the Department of the Interior, the 
Planning Commission, the Fine Arts Commission do recommend the site. 
But we did put in the report language, and it is the committee's 
feeling, that an appropriate site would be Constitution Gardens. It is 
my personal hope that it is there.'' (Congressional Record, November 4, 
1985, H 9657) One of the cosponsors and a witness before the Task 
Force, Rep. Parren Mitchell, told the House, ``House Joint Resolution 
142, as introduced, designated Constitution Gardens--between the 
Lincoln Memorial and Washington Monument--as the site of the memorial. 
However, the committee decided that it would be preferable to specify 
the site in its report rather than in the legislation itself. It is my 
understanding that the committee clearly intends to direct the 
Secretary of the Interior to authorize the establishment of the 
memorial at an appropriate site in Constitution Gardens. It is with 
this understanding that I vote in support of this legislation.'' 
(Congressional Record, November 4, 1985, H 9658).
    Months before the House approved Rep. Johnson's bill, H.J. Res. 
142, on November 4, 1985, members were already aware that Rep. Bruce 
Vento, chair of the National Parks Subcommittee was preparing 
legislation that could undo their work. The legislation would govern 
the approval and construction of memorials, particularly those 
designated for a site on the Mall. He described it on more than one 
occasion as a priority of the National Park Service. However, the House 
decided to exempt the Black Patriots Memorial, the Korean War Memorial 
and a third memorial bill honoring Women in Military Service from the 
Commemorative Works Act of 1986 on the grounds that it would be unfair 
to change the expectations of the memorial sponsors who had been 
advocating the projects for the previous 16 months, since the first 
hearings in the House and Senate. Two bills were introduced with 
slightly differing approaches: S. 2522 and H.R. 4378.
    By July of 1988, I had learned that the Senate Energy Committee 
would proceed with consideration of the companion bill, S. 2522, before 
any memorial bills, including the Korean War Memorial and the Black 
Patriots Memorial, would be considered. Eventually, the Senate decided 
not to follow the House's lead and exempt the previously-considered 
memorial bills from the new Commemorative Works Act. The sponsors, Rep. 
Johnson and Senator Gore, would have preferred the language in the 
House bill, H.R. 4378, that gave that responsibility to the Congress 
alone. They wanted to avoid subjecting the Black Patriots Memorial to 
the discretion of the Secretary with respect to the memorial's historic 
significance and the amount of time he might take to make the decision.
    Rep. Mary Rose Oakar, submitted a statement on June 24, 1986, on S. 
2522, to the Senate Subcommittee on Public Lands, Reserved Water and 
Resource Conservation. With respect to who should make the decision 
concerning the historical significance of a memorial, she said, ``. . . 
we are abdicating our responsibilities as representatives of this 
country if we allow the executive branch to acquire jurisdiction of 
what has always been thoroughly accomplished by the Congress . . . . In 
the Senate version, the establishment and placement of future memorials 
in Area I will be approved by the Executive branch--Congress will give 
up its authorization, and in essence become a rubber stamp to the 
executive branch.''
    The National Park Service consumed 18 months arriving at what the 
House managers and sponsors already knew: that the history was of 
``preeminent'' value. This elongated process put the design process and 
fundraising on the back burner. Few, particularly large donors, were 
willing to commit money to a memorial with no site and no design. The 
public was aware that the sponsors preferred the site at Constitution 
Gardens and were in an uphill battle. It would not be until Spring 
1989--over three (3) and a half years after the House passed H.J. Res. 
142--for a major donor to announce a fundraiser for the memorial. Just 
over two (2) and a half years had elapsed since President Reagan signed 
the authorizing bill in November 1986. Only a year remained on the 
authorization with about $4 million still needed for construction. No 
design work could proceed until after the Constitution Gardens site was 
approved on July 28, 1988, by the Commission of Fine Arts and the 
National Capital Planning Commission. The National Capital Memorial 
Commission had approved the site on June 28, 1988.
    On February 22, 1990, the preliminary design was approved by the 
National Capital Memorial Commission. However, when it was submitted to 
the U.S. Commission of Fine Arts on March 15, 1990, the design was 
rejected. The Foundation added a sculptor to the design team. On 
September 19, 1991, the new design concept was resubmitted to the U.S. 
Commission of Fine Arts and approved. A month later, the Congress 
decided that five (5) years, was not long enough for any of the newly 
minted memorial projects to secure design approval and raise the 
necessary funds. The Commemorative Works Act was amended and future 
memorials given seven (7) years to qualify for a building permit.
    The three previously approved memorials, including Korea, Black 
Patriots and Women in Military Service were reauthorized retroactively. 
Each received an additional two years. The Black Patriots Memorial now 
had until October 26, 1993. On October 9 and November 7, 1991, 
respectively, the conceptual design was approved by the National 
Capital Planning Commission and National Capital Memorial Commission. 
From October 27, 1986, when the five-year time limit began to run until 
November 7, 1991, when the final design was approved, the scheduling of 
approvals was controlled by the Congress, National Park Service, 
Commission of Fine Arts, and National Capital Planning Commission. The 
experience of multiple memorials suggests that sponsors cannot raise 
funds without an approved site and design. The expectation that a 
sponsor could raise more than 10 percent to 20 percent of the required 
funds without an approved model to show donors also is unrealistic.
    By November 7, 1991, the entire 60 months were consumed by me in 
one government hearing or another. The running of the clock was 
determined entirely by the National Park Service and other agencies. 
Had the time limit run from the date the final design was approved 
(when the agencies no longer controlled the time), the Black 
Revolutionary War Patriots Memorial might be standing at Constitution 
Gardens today. Before my departure in 1992, I had secured the approval 
of the site, conceptual design and model, as well as the major donors. 
The inability of the Black Patriots Foundation to follow through after 
my departure is not relevant to S. 1051. If the Committee is concerned 
about whether Liberty Fund D.C. is a continuation of the original 
intent of the Congress for the commemorative work, it must consider the 
Black Patriots Foundation as it existed on the date Congress approved 
Pub. L. 99-558. Questions about the performance of the group after 1992 
when the make-up changed drastically is a matter for an entirely 
separate kind of inquiry. That inquiry has no relevance to the 
Revolutionary War or the National Liberty Memorial. It has to do with 
the deeds of specific individuals and their impact on the public 
interest.
    One could argue persuasively that in October 1992, the Black 
Patriots Foundation was no longer the same group authorized by Congress 
to build the memorial. That National Mall Liberty Fund D.C. is a closer 
approximation of the group Congress authorized in 1988 for a site in 
Area I. On October 21, 1993, Charles Atherton, Secretary of the 
Commission of Fine Arts, testified before the House National Parks and 
Public Lands Subcommittee on, H.R. 2947, the first of three 
reauthorizations of the Black Patriots Foundation. He said, ``I would . 
. . hope some way can be found to prevent the kinds of internal 
struggles for the control of sponsoring organizations that we hear 
about from time to time. Before the makeup of a group is drastically 
changed, it would probably be advisable to require the new sponsors, or 
the old sponsors in an altered state, to submit these changes in 
personnel and organization for public scrutiny. There can often be 
enormous sums of money involved and a lot of power and prestige riding 
on who is or is not in the driver's seat, and this quite obviously can 
have an effect on matters of public interest.''

                                                                        AGENCIES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                  Agency                                      Functions                                   Action (authorization to design)
--------------------------------------------------------------------------------------------------------------------------------------------------------
National Capital Memorial Advisory          1.Advise on memorial authorizations            November 14, 1985, recommends establishment of memorial with
 Commission                                 2.Advise on Area I site                         conditions
(Advises the Secretary of the Interior and  3.Advise on specific site                      June 16, 1987 hearing on Area I
 the Administrator of General Services (as  4.Advise on design                             June 28, 1988, specific site approved February 22, 1990,
 appropriate) on policy and procedures for                                                  conceptual design approved
 establishment of, and proposals to                                                        November 7, 1991, approved revised conceptual design
 establish, commemorative works in the
 District of Columbia and its environs.)
Membership: (1) Director of the National
 Park Service; (2) Architect of the
 Capitol; (3) Chairman of the American
 Battle Monuments Commission; (4) Chairman
 of the Commission of Fine Arts; (5)
 Chairman of the National Capital Planning
 Commission; (6) Mayor of the District of
 Columbia; (7) Commissioner of the Public
 Buildings Service of the General Services
 Administration; and (8) Secretary of
 Defense.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Secretary of the Interior                   1.Approve/Disapprove Area I site               November 9, 1987 transmitted Area I bill to Congress
                                            2.Approve/Disapprove specific site             July 28, 1988, approved the specific site
                                            3.Approve/Disapprove design
--------------------------------------------------------------------------------------------------------------------------------------------------------
National Capital Planning Commission        1.Approve/Disapprove specific site             July 28, 1988, approved specific site **Senator Al Gore, Jr.
(Planning entity for all Federal projects   2.Approve/Disapprove design approval            testified October 9, 1991, approved revised conceptual
 in the Nation's Capital)                                                                   design
--------------------------------------------------------------------------------------------------------------------------------------------------------
Commission of Fine Arts                     1.Approve/Disapprove specific site             July 28, 1988, approved specific site
(Advisor on public improvements, location,  2.Approve/Disapprove design                    March 15, 1990, disapproved conceptual design
 and execution of public sculptures)                                                       September 19, 1991 approved revised conceptual design
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                   AGENCIES--Continued
--------------------------------------------------------------------------------------------------------------------------------------------------------
                  Agency                                      Functions                                   Action (authorization to design)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Energy Committee                     1.Approve/disapprove memorial authorizations   October 29, 1985, Hearing on memorial authorization, S.J. 143
                                            2.Approve/Disapprove Area I designations       September 19, 1986, Reported memorial authorization, S.J. 143
                                                                                           February 17, 1988, reported Area I designation, S.J. Res. 216
--------------------------------------------------------------------------------------------------------------------------------------------------------
House Administration Committee (pre-1988)   1.Approve/disapprove memorial authorizations   June 13, 1985, Task Force conducted a hearing on memorial
                                                                                            authorization, H.J. Res. 142 with nearly 20 witnesses
                                                                                           October 29, 1985, Reported memorial authorization, H.J. Res.
                                                                                            142
--------------------------------------------------------------------------------------------------------------------------------------------------------
House Committee on Interior and Insular     1.Approve/Disapprove Area I designations       April 15, 1986, Hearing on Commemorative Works Act (Maurice
 Affairs (pre-1988)                                                                         Barboza testifies)
                                                                                           March 8, 1988, the Subcommittee on National Parks and Public
                                                                                            Lands conducted a hearing on Area I
                                                                                           March 14, 1988, the Committee reported favorably on Area I
                                                                                            Resolution
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. Senate                                 1.Approve/disapprove memorial authorizations   October 16, 1986, approves memorial authorization, H.J. Res.
                                            2.Approve/Disapprove Area I designations        143
                                                                                           February 26, 1988, approves the Area I Resolution
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. House                                  1.Approve/disapprove memorial authorizations   October 4, 1985, approves memorial authorization, H.J. Res.
                                            2.Approve/Disapprove Area I designations        143
                                                                                           October 17, 1986, approves Senate substitute amendment to
                                                                                            H.J. Res. 143
                                                                                           March 15, 1988, House approved Area I Resolution
--------------------------------------------------------------------------------------------------------------------------------------------------------
President of the U.S.                       1.Approve/disapprove memorial authorizations   October 27, 1986, Black Patriots Memorial authorization
                                            2.Approve/Disapprove Area I designations        signed
                                                                                           April 11, 1988, Area I authorization signed
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Documentation.--An large body of information was submitted to the 
House and Senate Committees to demonstrate the historical significance 
of black soldiers and patriots of the Revolutionary War, including the 
testimony of almost 30 witnesses. The following chart contains links to 
http://www.libertyfunddc.org/history3.htm, the History page of 
www.libertyfunddc.org, the website of National Mall Liberty Fund D.C.


----------------------------------------------------------------------------------------------------------------
                                          CONGRESSIONAL  STATEMENTS
----------------------------------------------------------------------------------------------------------------
Members of Congress                Nancy L. Johnson                        Harold E. Ford, Sr.
                                   Albert Gore, Jr.                        James R. Jones
                                   Charles B. Rangel                       Ralph Regula
                                   Steny Hoyer                             Thomas J. Manton
                                   Peter J. Visclosky                      Parren J. Mitchell
                                   Peter W. Rodino, Jr.
----------------------------------------------------------------------------------------------------------------
Supporting Organizations           Prince Hall Masons                      American Jewish Congress
                                   Prince Hall Masons, D.C.                National Council for Black Child and
                                   Sons of the American Revolution          Family Development
                                   National Education Association          District of Columbia
                                   Daughters of the American Revolution
----------------------------------------------------------------------------------------------------------------
Outstanding Historians             Dr. Benjamin Quarles                    Dr. Ira Berlin
----------------------------------------------------------------------------------------------------------------
Project Founders                   Maurice A. Barboza                      Lena Santos Ferguson
----------------------------------------------------------------------------------------------------------------
School Teacher                     ......................................  .....................................
----------------------------------------------------------------------------------------------------------------

    In addition, I submitted to the National Capital Memorial 
Commission a detailed paper prepared by our architects and design team 
that analyzed the alternative memorial sites, including the preferred 
site at Constitution Gardens. (Unfortunately, I could only locate a 
reference to this document in correspondence. I could not locate the 
document.) The design team had participated in walking tours of the 
sites arranged by the staff of the Memorial Commission. In addition, 
prior to the consideration of the Area I issue before the National 
Capital Memorial Commission and, later, the specific site at 
Constitution Gardens before the Commission of Fine Arts and the 
National Capital Planning Commission, I sent letters to every member 
with this content:

          You may also wish to obtain the following books: ``The 
        Colored Patriots of the American Revolution,'' by William C. 
        Nell (1855, reprinted in 1986 by Ayer Company), ``Slavery and 
        Freedom in the Age of the American Revolution,'' U.S. Capitol 
        Historical Society (1983), ``Black Courage 1775,'' DAR (1984) 
        and ``The Black Presence in the Era of the American Revolution 
        1770-1800,'' by Sidney Kaplan 91973).
          Besides myself, Air Force Historian Bernard C. Nalty will 
        testify, as a private citizen, next week in behalf of the 
        Patriots Foundation. Mr. Nalty is the author of ``Strength for 
        the Fight: A History of Black Americans in the Military,'' 
        published in 1986. A copy of Mr. Nalty's testimony is enclosed, 
        together with a review of his book.'' (Letter from Maurice A. 
        Barboza to Charles Atherton, Secretary, Commission of Fine 
        Arts, June 10, 1987).

    In an identical letter to John Parsons, I said, ``In addition, to 
help you make this decision, I am lending you a copy of ``The Negro in 
the American Revolution,'' by Dr. Benjamin Quarles. Also enclosed are 
copies of profiles of some of the patriots who would be honored.'' 
(Letter from Maurice A. Barboza to John Parsons, Chair, National 
Capital Memorial Commission, June 10, 1987).
    In addition, it was a clear indication of the importance he and his 
cosponsors placed on obtaining the site at Constitution Gardens that on 
June 28, 1988, Senator Albert Gore, Jr. returned to Washington from 
campaign travel in pursuit of the Presidency to testify before the 
National Capital Memorial Commission in support of the site.
                                 ______
                                 
        Responses of David Hicks to Questions From Senator Burr

    Question 1. Arizona National Scenic Trail Designation (S. 1304): Is 
it possible to walk the complete length of the trail without detouring 
onto paved roads? If not, how much of the trail is not completed and 
what needs to be done to complete it?
    Answer. Other than crossing paved roads and the in-town Flagstaff 
route, there is only a 3 mile stretch of the Arizona Trail (AZT) that 
requires walking on a paved county road. That stretch is from the 
Canelo Hills and heads west to the town of Patagonia, Arizona. The AZT 
is primarily on a single trail but occasionally is on little used dirt 
rancher or forest roads.
    Question 2. Arizona National Scenic Trail Designation (S. 1304): 
How many users/visitors do you anticipate per year on the trail?
    Answer. That is a difficult question to ascertain with reasonable 
accuracy. In areas where existing popular trails are used as the 
Arizona Trail route, the number is very conservatively estimated at 
over one hundred thousand users annually. For example, the Arizona 
Trail crosses the Grand Canyon National Park across the well traveled 
South and North Kaibab trails. Those are two of the most used trails in 
the USA. However, we at the Arizona Trail Association don't delude 
ourselves into thinking that the majority of those trail users are 
there for the Arizona Trail even though those trail users are in fact 
on the AZT. The same scenario holds true for other parks and popular 
recreation areas that the AZT passes through too. Those parks are 
listed in the following question #3. They too are wonderful and very 
popular outdoor venues that include the Arizona Trail.
    Equally important as the popular areas of the AZT is that many 
parts of the Arizona Trail offer remote solitude for those wishing that 
experience. Those remote areas, which include several mountain ranges 
and the Sonoran Desert, may each attract only a few hundred intrepid 
users a year. Having both very popular and remote trail segments is 
another reason why the Arizona Trail appeals to a wide range of outdoor 
enthusiasts.
    Question 3. Arizona National Scenic Trail Designation (S. 1304): 
What county, state, or national parks does the trail cross?
    Answer. The AZT crosses the following parks: Coronado National 
Memorial; Colossal Cave Mountain Park (Pima County); Saguaro National 
Park; Oracle State Park; Flagstaff Buffalo Park (City); Grand Canyon 
National Park; and passes alongside the boundary of Walnut Canyon 
National Monument.
    Question 4. Arizona National Scenic Trail Designation (S. 1304): 
Your testimony states that 99% of the trail is on public land and 93% 
of the trail is completed. What public land agencies control the 7% of 
the trail that is not complete and are they cooperating to ensure 
completion?
    Answer. Remaining areas to complete and status:

          1. Las Colinas Passage, 12 miles: Coronado National Forest/AZ 
        State Land Dept. Construction to start Fall 2007.
          2. Rincon Mt Passage, 4 miles: Saguaro National Park. Trail 
        route approval expected January-March 08.
          3. White Canyon Passage, 18 miles: Bureau of Land Mgmt/AZ 
        State Land Dept. Construction started Fall 2006.
          4. San Francisco Peaks, 16 miles: Coconino National Forest. 
        Construction started Summer 07.
          5. Las Cienegas Passage, 2 miles: Pima County. 24 miles done, 
        final 2 by March 08.
          6. In-city of Flagstaff route, 1 mile: City of Flagstaff. 
        Complete by Spring 08.

    Total to complete: 53 miles. The above listed agencies are very 
committed to completing the Arizona Trail. Cooperation between the 
Arizona Trail Association, its members, businesses, numerous clubs, and 
volunteers and the various agencies is excellent. The initiative and 
actions by the various agencies personnel to complete their sections of 
the Arizona Trail is superb. It is a model team effort.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

             Questions for Daniel N. Wenk From Senator Burr

    Question 1a. Great Sand Dunes Amendment (S. 127): Will S. 127 have 
any impact on the operation and management of Great Sand Dunes National 
Park and Preserve?
    Question 1b. How many visitors does Great Sand Dunes National Park 
and Preserve receive annually and will S. 127 affect visitation in any 
way?
    Question 2a. Cesar Estrada Chavez Study (S. 327/H.R. 359): How many 
sites will be included in the Cesar Estrada Chavez study and which 
states are involved?
    Question 2b. What other units of the National Park System are 
spread across multiple sites in multiple states and what are the 
management challenges associated with such an arrangement?
    Question 3a. Taunton Wild and Scenic River Designation (S. 868): 
The Administration's testimony states: ``we would like to work with the 
committee to make this bill consistent with other wild and scenic river 
designation bills that have been enacted by Congress.'' What is 
inconsistent with S. 868 when compared with other Wild and Scenic River 
designations and how should the bill be amended to make it consistent?
    Question 3b. Has the National Park Service completed a suitability 
and feasibility study for this designation and, if so, what was the 
outcome of the study?
    Question 3c. How will the proposed wild and scenic river 
designation affect private property use along the river?
    Question 4a. National Liberty Memorial (S. 1051): What is the 
relationship between the National Liberty Memorial and the Black 
Revolutionary War Patriots Memorial?
    Question 4b. Is the National Park Service aware of any unpaid debts 
associated with the Black Revolutionary War Patriots Memorial? What is 
the total amount and how many businesses are involved?
    Question 4c. What other memorial foundations have gone bankrupt and 
left unpaid debts in the past 30 years?
    Question 4d. How frequently are memorial foundations, such as the 
foundation for the Black Revolutionary War Patriots Memorial, required 
to submit financial statements? Please provide a copy of the financial 
statements submitted by the foundation for the Black Revolutionary War 
Patriots Memorial.
    Question 4e. For each memorial that has been approved by Congress 
for the National Capital Region and has not yet begun construction, 
what is the status of the design, site approval, funds needed, funds 
raised, and financial reports (i.e., dates due and dates submitted)?
    Question 4f. Financial reports for the Black Revolutionary War 
Patriots Memorial were submitted over two years beyond the due date. 
How common is it for financial reports to be late, what action did the 
National Park Service take to persuade the foundation to submit the 
reports in a timely manner, and what changes has the National Park 
Service made to ensure timely submittal of reports by other 
foundations?
    Question 4g. In the past 20 years, how many memorials authorized by 
Congress for the National Capitol Region have failed to complete the 
necessary requirements to begin construction within the authorized 
period? Please provide a list of the memorials. What happened to the 
funds raised in each case? Did any of the memorial foundations go 
bankrupt and leave unpaid debts?
    Question 4h. The Administrations testimony for S. 1051 states that 
the site approved for the Black Revolutionary War Patriots Memorial 
should not be automatically approved for the National Liberty Memorial. 
How long did the site selection process take, what type of 
documentation was needed to support the process, and what agencies were 
involved?
    Question 5a. Taunton Massachusetts Study (S. 1184/H.R. 1021): The 
area of Taunton proposed for study contains one or more historic 
districts. Has the area been evaluated for National Historic Landmark 
designation?
    Question 5b. Could National Historic Landmark designation be a 
recommendation from the study? If so, what are the criteria for a 
National Historic Landmark and how does that compare with criteria for 
National Historic Site designation?
    Question 6a. Weir Farm National Historic Site Amendment (S. 1247): 
S. 1247 authorizes the National Park Service to exchange 9 acres of 
park land for 12,000 square feet of finished space on nearby property 
owned by the Georgetown Land Corporation. The park has identified a use 
for the finished space, but the use of the 9 acres by the land 
corporation is unclear. How does the Georgetown Land Corporation plan 
to use the 9 acres and is it compatible with the Weir Farm National 
Historic Site?
    Question 6b. How will S. 1247 improve the visitor experience at 
Weir Farm National Historic Site?
    Question 6c. What is the current acreage associated with the Weir 
Farm National Historic Site and how much additional property has the 
National Park Service identified for future acquisition?
    Question 7a. Arizona National Scenic Trail Designation (S. 1304): 
When was the suitability and feasibility study completed for the 
Arizona National Scenic Trail and what was the outcome of the study?
    Question 7b. How much of the trail crosses private land and does 
the National Park Service anticipate any land acquisition for the 
trail?
    Question 7c. What is the anticipated cost for signage, interpretive 
material along the trail, parking, and other improvements if S. 1304 is 
enacted?
    Question 8a. Acadia National Park Advisory Commission 
Reauthorization (S. 1329): When was the Acadia National Park Advisory 
Commission established and what major accomplishments has it had since 
that time?
    Question 8b. S. 1329 raises the funding authority for land 
acquisition at Acadia National Park. How much land has the National 
Park Service identified for future acquisition at Acadia and what is 
the estimated value at this time?
    Question 9a. Bob Hope Library Designation at Ellis Island (H.R. 
759): What is the National Park Service policy on naming sites and 
structures after individuals?
    Question 9b. Has the National Park Service studied the suitability 
and feasibility of naming the library at Ellis Island after Bob Hope?
    Question 9c. Could you name at least 5 individuals of international 
prominence in addition to Bob Hope that immigrated through Ellis 
Island?
    Question 10a. Columbia Space Shuttle Memorial Study (H.R. 807): 
What units of the National Park Service are currently associated with 
the space program, where are they located, and when was each 
established?
    Question 10b. How many sites are involved in the study authorized 
by H.R. 807?

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                      United States Senate,
                                                September 20, 2007.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S Senate, 304 
        Dirksen Office Building, Washington, DC.
Hon. Pete V. Domenici,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        304 Dirksen Office Building, Washington, DC.
Re: H.R. 759

    Dear Chairman Bingaman and Ranking Member Domenici: We write to you 
to express support for H.R.759, a bill to redesignate the Ellis Island 
Library on the third floor of the Ellis Island Immigration Museum as 
the ``Bob Hope Memorial Library.'' Bob Hope and his family passed 
through the doors of Ellis Island in 1907. As you know, earlier this 
month the Subcommittee on Natural Parks held a hearing to consider this 
legislation to honor Mr. Hope's life and work by naming the third floor 
library at Ellis Island in memory of this well known and sorely missed 
American treasure.
    Bob Hope was born Leslie Townes Hope to William Henry and Avis Hope 
on May 29, 1903. In 1907 the Hope family left England and settled in 
Cleveland, Ohio. In 1920, `Bob' the name by which the world would later 
know him, became a US citizen by virtue of his father's naturalization. 
He began a career in entertainment, and through hundreds of radio, 
movie, television and personal appearances, Bob Hope became a star and 
a welcomed guest in every living room of America.
    For nearly six decades, throughout times of both war and peace, Bob 
Hope entertained American service men and women throughout the world. 
He spent much of World War II traveling and entertaining Allied troops, 
and he continued to perform for troops in Korea, Vietnam, and the 
Middle East in later years. Hope demonstrated his unwavering commitment 
to the morale of America's servicemen and women with these entertain-
the-troops tours and, in 1997, Congress named him as an honorary 
veteran for the decades of work he did with veterans serving overseas.
    Although Bob Hope never won an Oscar for any of his film 
performances, he received five honorary Academy Awards for his 
contributions to the motion picture industry. Cited by the Guinness 
Book of Records as most honored entertainer in the world, Bob Hope has 
more than two thousand awards and citations for humanitarian and 
professional efforts, including 54 honorary doctorates and a 
Congressional Gold Medal.
    After a long period of restoration, Ellis Island now features a 
museum in honor of the 16 million immigrants who passed through its 
halls. The Ellis Island Restoration Commission recommended naming the 
library after Bob Hope as a fitting tribute to one of America's most 
famous immigrants. Like the millions who passed through Ellis Island, 
the Hope family arrived in America with little in terms of material 
possessions. Bob Hope described himself upon arrival as ``a 4-year-old 
boy in knickers who had no idea of the opportunities that lay ahead.'' 
He went on to become a household name in the United States, and his 
life epitomizes the American dream. Despite all the awards Bob Hope 
received, he had a special place in his heart for Ellis Island, and in 
1990 when the Ellis Island Restoration Commission suggested naming the 
third floor library of the museum in his honor, he stated that it would 
be ``one of the single most important highpoints in my career.'' Sadly, 
Bob Hope passed away in 2003 at the age of 100 and did not have an 
opportunity to see this project finished. The Bob Hope Memorial Library 
will serve as a daily reminder to Ellis Island's visitors of Bob Hope's 
great contributions to the American people, American culture, and the 
American dream.
    Thank you for holding this hearing to discuss this important 
matter. We respectfully ask that the Energy and Natural Resources 
Committee release this bill so that the Senate can adopt it by 
unanimous consent as soon as possible.
    Thank you for your consideration of this request. We appreciate 
your assistance.
            Sincerely,

                    Charles E. Schumer, State of New York.

                    Barbara Boxer, State of California.

                    George V. Voinovich, State of Ohio.

                    Robert Menendez, State of New Jersey.

                    Frank R. Lautenberg, State of New Jersey.

                    Dianne Feinstein, State of California.

                    Hillary Rodham Clinton, State of New York.
                                 ______
                                 
                                    Office of the Governor,
                                   Phoenix, AZ, September 11, 2007.
Hon. Daniel K. Akaka,
Chairman, U.S. Senate, Subcommittee on National Parks, Committee on 
        Energy & Natural Resources, Washington, DC.
    Dear Senator Akaka: I am writing today to encourage your support 
for S. 1304 Arizona National Scenic Trail Act which is pending before 
your subcommittee.
    Under this bill, the National Trails System Act would be amended to 
designate the Arizona Trail as a national scenic trail. This 
designation will help streamline the Arizona Trails management, boost 
tourism, recreation and preserve a magnificent natural, cultural and 
historical experience of the American West.
    For the past eighteen years over 5,000 volunteers and more than 16 
federal, state and local agencies including many business partners have 
come together to build the 750 miles of the 800 mile trail. This 
scenic, non-motorized tail stretches through some of Arizona's most 
renowned mountains, canyons, deserts, forest and two National Parks. As 
it transcends from the Grand Canyon National Park to the Sonoran 
Desert, the trail winds through some of the most spectacular landscapes 
in the Western United States.
    The Arizona Trail is truly a national scenic treasure and I 
encourage you to support it as such and in particular ask you to 
support S. 1304.
            Yours very truly,
                                          Janet Napolitano,
                                                          Governor.
                                 ______
                                 
                                        Harvard University,
                                                      UCLA,
                                                     June 27, 2006.
Hon. Ted Stevens,
President, Pro Tem, U.S. Senate, 522 Hart Senate Office Building, 
        Washington, DC.
Re: S. 1051

    Dear Mr. President: Legislation is currently pending in the 
Committee on Energy and Natural Resources to authorize the construction 
of the National Liberty Memorial at a site in Constitution Gardens 
between the Washington Monument and the Lincoln Memorial. We urge the 
committee chairman, Senator Pete V. Domenici, and National Parks 
Subcommittee chairman, Senator Craig Thomas, to report S. 2495 promptly 
so the bill can be enacted before Congress adjourns this year.
    Introduced by Senator Chris Dodd, S. 2495 encapsulates dreams and 
intentions spanning more than 200 years to honor in some fitting way 
the contributions of slaves and free persons to the struggle for 
liberty during the Revolutionary war era. White officers, state 
legislatures, and George Washington himself began praising the 
contributions of black soldiers as early as the battle of Lexington and 
Concord. Now, a bipartisan group of cosponsors, including Senators 
Grassley, Byrd, Allen, Obama, Dole and Chafee, is picking up where they 
left off.
    The nation's Mall will never be a ``completed work of art'' until 
this memorial takes its place across from a memorial to the 56 Signers 
of the Declaration of Independence. There, it will redefine how most 
Americans perceive the nation's birth, ``all men are created equal,'' 
and our future as one nation based upon enduring principles, instead of 
color and race. As scholars engaged in teaching, research and writing 
about U.S. history and literature of 18th century America, we urge the 
U.S. Congress to pass S. 2495 promptly and for members to promote the 
construction of the National Liberty Memorial in your states and among 
schoolchildren.
    In the two decades since the U.S. Congress passed Public Law 98-245 
honoring the role of African Americans of the Revolutionary war era and 
Public Law 100-265 declaring their deeds to be ``of preeminent 
historical and lasting significance to the nation,'' scholarly work has 
confirmed the wisdom of those actions. For example, there is the 
extraordinary memoir of Jeffrey Brace, ``The Blind African Slave,'' 
published in 1810 (as told to Benjamin F. Prentiss, Esq.), and 
rediscovered, edited, supplemented, and reprinted by historian Kari J. 
Winter in January 2005. Born in Africa and transported to the U.S. as a 
slave, Mr. Brace served in the 6th Connecticut Regiment and fought in 
many of the major battles of the Revolutionary war over a period of 
five years. Nothing less than this Revolutionary war soldier's memory 
is at stake in S. 2495. The National Liberty Memorial will pay tribute 
to the efforts of Mr. Brace and others like him, who fought for their 
new country in the name of equality and justice.
    From 1985 through 2001, more than 2,000 Revolutionary war soldiers 
of African descent, like Jeffrey Brace, were identified by the National 
Society Daughters of the American Revolution as part of a 1984 
settlement agreement with Lena Santos Ferguson. The memorial will 
inspire research to uncover the thousands yet undiscovered. Mrs. 
Ferguson, a black resident of Washington, D.C. and a descendant of a 
Revolutionary war soldier, had been denied membership in the hereditary 
organization that honors those patriots because of her race, from 1980 
until 1984. Later, she and her memorial co-founder, Maurice A. Barboza, 
realized America could become a more inviting home for the descendants 
of slaves if the tarnish of slavery and second class citizenship were 
removed from their ancestors with a permanent statement on the nation's 
most visible landscape.
    We have attached a partial bibliography of books* published on the 
subject during the past 20 years. This confirms the wisdom of Congress 
in declaring the history eligible for memorialization on the nation's 
Mall. We ask that this information be made a part of the record of the 
Energy Committee.
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    We would also like an opportunity to present testimony at a hearing 
on S. 2495.
            Sincerely,
                                    Henry Louis Gates, Jr.,
                         W.E.B Du Bois Professor of the Humanities.
                                              Gary B. Nash,
                                              Professor of History.
                                 ______
                                 
                       National Coalition to Save Our Mall,
                                 Rockville, MD, September 10, 2007.
Hon. Daniel K. Akaka,
Chairman, Subcommittee on National Parks, Energy and Natural Resources 
        Committee, 304 Dirksen Senate Building, Washington, DC.
Re: S. 1051

    Dear Chairman Akaka and Committee Members: We have just learned 
that on September 11 there will be a hearing in the Subcommittee on 
National Parks on a proposed bill, S. 1051, to authorize the National 
Mall Liberty Fund D.C. to establish a memorial in Washington at 
Constitution Gardens to honor free persons and slaves who fought during 
the American Revolution. We note that the language of the bill makes no 
reference to the fact that Constitution Gardens is part of the National 
Mall, as well as the ``Reserve'' as described in the Commemorative 
Works Clarification Act of 2003, and so is subject to the 
Congressionally mandated moratorium on any new commemorative works.
    The National Coalition to Save Our Mall is a grass-roots, nonprofit 
group dedicated to protecting and enhancing the integrity of the 
National Mall's historic plan, symbolism, and public open space. We 
support the moratorium policy and ask Congress not to make any new 
exceptions to it, for this or any other project, unless and until there 
is a new comprehensive National Mall plan with the accompanying unified 
management structure.
    We welcome this kind of proposed project as it fits well within the 
Coalition's goal of having the National Mall tell a fuller, richer 
narrative about the country's history, and black patriots in particular 
are a group that deserves recognition as part of this story.
    But as worthy as the intent of monuments such as this (and the 
Coalition supported it before its authorization, which preceded the 
moratorium, expired), it does not obviate the growing problems of 
piecemeal, fragmented development on the Mall.
    The Coalition wants to be clear that our position is not about any 
specific memorial but is about the larger question of how the National 
Mall is to accommodate the multitude of monuments, memorials, museums, 
and other facilities without adequate planning. The last comprehensive 
plan, the 1901-1902 McMillan Plan, is more than a century old and 
ongoing planning by the National Park Service, Smithsonian, and other 
Mall managing agencies does not add up to a unified vision for this 
great symbol of our nation's identity which has grown to become a stage 
for our democracy.
    This proposed memorial certainly will not be the last to seek a 
place among the icons of American history and founding ideals on the 
National Mall. Nor should Congress be continually asked to choose 
between protecting the Mall's integrity and enhancing the Mall's 
capacity to teach and inspire. That is why we believe the time has come 
for Congress to create a new independent McMillan-type Commission that 
can shape a forward-looking vision for the Mall--and the nation--in its 
third century.
            Sincerely,
                                 Judy Scott Feldman, Ph.D.,
                                               Chair and President.
                                 ______
                                 
                                     Cocoa, FL, September 11, 2007.
Re: S.1051

    As a member of the Sons of the American Revolution, I have been 
encouraged to provide a comment on the pending legislation, S. 1051.
    Honoring those individuals of every station in life who provided 
support for that momentous period of our county's birth is of vital 
interest to myself and my family members and should be for all 
Americans and doing so by means of a monument is entirely appropriate.
    The consideration by Congress to build another monument on the mall 
would be significant to me and my family. The personal and national 
impact of this structure on the mall would be emotionally and 
aesthetically devastating. The continued rape of the mall by select 
groups that wrongly feel that they are deserving of space on the mall 
to the detriment of the significance of the Lincoln and Washington 
Monuments and their entwined nature--Lincoln contemplating Washington 
via the Reflecting Pool--must stop. The escalation of groups demanding 
space on the mall is alarming and will, if not stopped now, ultimately 
reduce the beautiful space and its spiritual significance to  a massive 
marble and concrete forest of statues.
    Honoring the individuals as proposed in S 1051 can be done in other 
locations in DC not on the mall and would be eminently more suitable.
                                            Steve Williams.
                                 ______
                                 
         Statement of Marion Lane, Bucks County, PA, on S. 1051

    It is with great pride that I introduce to you this afternoon my 
patriot, my ancestor my fourth great-grandfather Sgt. Isaac Brown. Sgt. 
Isaac Brown was born a free black man in Charles City County, Virginia. 
He was a fourth generation resident with his forbearers having been 
indentured servants. Isaac enlisted in the Continental Line on January 
1, 1777. He assisted in establishing American Independence while acting 
in the capacity of Sergeant in the 7th, 11th, and 15th VA Regiments.
    Sgt. Brown served under George Washington at Valley Forge. He also 
served in the battles of Guilford Courthouse, Siege of Fort Ninety-Six 
and Eutaw Springs. He received the balance of his pay for service on 
April 5, 1783.
    At least six members of the Brown family assisted in the 
Revolution. Abraham, one of these participants, became a property owner 
in Charles City six years before the Revolution with the purchase of 
150 acres of land for the sum of 96 pounds. Freeman, another 
participant, owned 40 acres. Isaac owned 270 acres of land in Charles 
City. At the time of his death, he owned 75 acres. His land abutted 
Greenway the property of the Tyler family.
    On May 19, 1829, Sgt. Brown appeared in Superior Court of the State 
of Virginia to make a formal declaration under the Acts of Congress of 
the United States of March 18, 1818 and May 1, 1820 regarding pensions. 
At the time, he was 69 years of age and had made several informal 
inquires into the provisions of the Acts. His age was greatly felt and 
his farm was no longer able to support him in comfort. The Court 
adjourned and found deficiencies in his declaration.
    On July 16, 1829, he once again appeared in Court to make a 
declaration to correct the errors and deficiencies of the previous 
declaration to no avail. On July 24, 1829, VA Senator John Tyler, who 
later became the 10th President of the United States, wrote a letter on 
Sgt. Brown's behalf indicating that all the deficiencies pointed out in 
a letter of June 2, 1829 had been corrected. He also requested that the 
decision be made known to him as soon as convenient. When the pension 
was finally issued, July 27, 1829, there was a notation on it that 
said,'' send a copy to John Tyler.''
    The intervention of Senator Tyler resulted in the issuance of the 
pension; however, the compensation awarded was that of a private, $8 
dollars per month or $96 per year. Also, it only gave him credit for 
having served for 18 months. In other words, he never received 
recognition for having been a noncommissioned officer nor credit for 
his service from January 1, 1777-1783. The Muster Rolls reflect he 
enlisted for the duration of the war.
    Sgt. Isaac Brown left a legacy of service to this country:

  <bullet> His great grandson, Robert Walker Brown (my great 
        grandfather) enlisted in the 1st U.S. Colored Infantry at Fort 
        Pocahontas May 19, 1864 several days before the battle there. 
        Robert Brown was married twice and had 21 children. His widow 
        received a pension check of $36 each month from the U.S. 
        government for his Civil War service until her death in 1952.
  <bullet> Robert Walker Brown's grandson, John Edward James (my 
        father), served in World War II. He was on the front lines for 
        37 months and experienced five campaigns.

    It is time for a memorial symbolizing the service and critical role 
of people of color in the founding of our nation. It is time for the 
history books, from which our children learn, reflect these significant 
contributions. It is time for everyone to acknowledge the importance of 
the Patriots of African descent.
    It is time! It is time! It is time! Thank you.
                                 ______
                                 
                                               Access Fund,
                                      Boulder, CO, August 15, 2007.
Hon. Jon Kyl,
U.S. Senate, 730 Hart Senate Office Building, Washington, DC.
Re: S. 1304

    Dear Senator Kyl: I write to inform you of the Access Fund's 
support for the enactment of S. 1304 that would amend the National 
Trails System Act to designate the Arizona Trail as a National Scenic 
Trail. The Access Fund supports legislative efforts such as S. 1304 
that acknowledges the value of recreation on our public lands and 
preserves access to special places such as those found along the 
Arizona Trail.

                            THE ACCESS FUND

    The Access Fund is the only national advocacy organization whose 
mission keeps climbing areas open and conserves the climbing 
environment. A 501(c)3 non-profit supporting and representing over 1.6 
million climbers nationwide in all forms of climbing--rock climbing, 
ice climbing, mountaineering, and bouldcring--the Access Fund is the 
largest US climbing organization with over 15,000 members and 
affiliates. Arizona is one our largest member states.
    The Access Fund promotes the responsible use and sound management 
of climbing resources by working in cooperation with climbers, other 
recreational users, public land managers and private land owners. We 
encourage an ethic of personal responsibility, self-regulation, strong 
conservation values and minimum impact practices among climbers.

                           THE ARIZONA TRAIL

    The Arizona Trail is planned to be a continuous, 800-mile, non-
motorized trail across Arizona from Mexico to Utah. It links deserts, 
mountains, canyons, communities and people. Currently 90% of the trail 
is complete. As Senator Kyl has pointed out, ``the trail invites 
recreationists to explore the state's most renowned mountains, canyons, 
deserts and forests, including the Grand Canyon and the Sonoran Desert. 
This trail is unique in that it maximizes the incorporation of already 
existing public trails into one continuous trail to showcase some of 
the most interesting and spectacular scenery in the West.''
    Although bills to establish National Trails typically require 
studies to determine whether the trail is physically possible and 
financially feasible; however, S. 1304 has yet to accomplish this 
analysis with regard to the Arizona Trail. Nonetheless, the fact that 
this trail is nearly complete and will not require any additional 
property acquisition makes the Access Fund support of S. 1304 sensible. 
Accordingly, the Access Fund urges Congress to pass this bill and thus 
designate the Arizona Trail as a National Scenic Trail. Such 
designation will streamline the Trail's management, boost tourism and 
recreation along the Trail corridor, and preserve a magnificent 
natural, cultural and historical experience of the American West.
    We appreciate your assistance in preserving important recreational 
opportunities in Arizona for both your constituents and outdoor 
recreationists nation-wide.
            Sincerely,
                                               Deanne Buck,
                                        Interim Executive Director.
                                 ______
                                 
                                         Friends of Acadia,
                                                September 10, 2007.
Hon. Daniel Akaka,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, 304 Dirksen Senate Office 
        Building, Washington, DC.
Hon. Richard Burr,
Ranking Member, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, 304 Dirksen Senate Office 
        Building, Washington, DC.
Re: S. 1329

    Dear Chairman Akaka and Ranking Member Burr: I am writing to 
express Friends of Acadia's support for S. 1329, the Acadia National 
Park Improvement Act of 2007, which is scheduled to be heard by the 
Senate Subcommittee on National Parks on Tuesday, September 11, 2007. 
Friends of Acadia is an independent non-profit conservation 
organization whose mission is to preserve and protect the outstanding 
natural beauty, ecological vitality, and cultural distinctiveness of 
Acadia National Park and the surrounding communities. Since 1995, 
Friends has contributed more than $7 million in grants to Acadia 
National Park and the surrounding communities for projects ranging from 
trail and carriage road maintenance to internships and land 
conservation.
    Friends supports S. 1329 because it contains important provisions 
that will encourage land protection, public transportation, and citizen 
input to park management decisions at Acadia. The bill contains four 
basic provisions:

          Section 2: An extension of land conveyance authority--this 
        section amends Acadia's 1986 boundary legislation to allow 
        local towns and Acadia National Park to exchange lands beyond 
        the original 10 year window that was written into the 1986 law. 
        Friends of Acadia supports this provision because it gives 
        Acadia National Park flexibility as it continues to work with 
        local towns on important land exchanges.
          Section 3: An extension of the Acadia National Park Advisory 
        Commission--this section enables the Acadia National Park 
        Advisory Commission, an appointed group of citizens 
        representing towns surrounding Acadia and at-large, to continue 
        until 2026. Friends supports this provision because the 
        Advisory Commission has been an excellent avenue for dialogue 
        between local citizens and Acadia National Park managers.
          Section 4: An increase in the land acquisition ceiling for 
        Acadia--this section amends Acadia's 1986 boundary legislation 
        to increase to $28 million the cumulative amount authorized to 
        be appropriated for land acquisition at Acadia. Friends 
        supports this provision because Acadia has approximately 150 
        privately-owned parcels that remain within park boundaries. 
        When Congress passed the park's boundary legislation in 1986, 
        it intended that all of these parcels be protected, yet all 
        land acquisition funding authorized in the 1986 legislation has 
        been expended. In order for Acadia to continue efforts to 
        acquire lands or conservation easements within park boundaries, 
        additional funding must be authorized and appropriated.
          Section 5: Intermodal Transportation Center--this section 
        authorizes the National Park Service to assist in planning, 
        construction, and operation of the Acadia Gateway Center, a 
        transportation and welcome center planned along the major 
        highway approaching Acadia National Park. The Maine Department 
        of Transportation, Friends of Acadia, Downeast Transportation 
        (the operator of Acadia's successful propane-powered Island 
        Explorer bus system), and regional chambers of commerce are 
        partners in the project. Friends supports the National Park 
        Service's participation in this center because it will be a key 
        opportunity for Acadia's day visitors to leave their cars, 
        gather information about the park, purchase their park entry 
        passes, and ride the bus to trailheads and park destinations.

    The Acadia National Park Improvement Act of 2007 is extremely 
important to the future of lands, citizen involvement, and 
transportation programs at Acadia National Park. We thank the 
subcommittee for considering this important bill and encourage swift 
passage.
    Thank you for the opportunity to comment.
            Sincerely,
                                          Marla S. O'Byrne,
                                                         President.
                                 ______
                                 
                                       U.S. Senate,
                                            State of Maine,
                                                September 21, 2007.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Office Building, Washington, DC.
Re: S. 1329

    Dear Chairman Bingaman, I am writing to urge you to include S. 
1329, the Acadia National Park Improvement Act of 2007, on your next 
markup agenda. This bill authorizes necessary, and timely, actions to 
ensure the long-term health of one of America's most beloved national 
parks.
    In the 109th Congress, the Acadia National Park Improvement Act 
passed the Senate by unanimous consent, but the House of 
Representatives did not act on the bill. The bill would increase the 
land acquisition ceiling at Acadia by $10 million; facilitate an off-
site intermodal transportation center for the Island Explorer bus 
system; and extend the Acadia National Park Advisory Commission. This 
commission was created by Congress in 1986 and expired in 2006. 
Federal, state and local interests agree it was a mistake to let it 
expire and want to see it renewed.
    I'm very grateful to your distinguished subcommittee chairman and 
ranking member, Senator Daniel Akaka and Senator Richard Burr, for 
holding a hearing on September 11 on this bill. Daniel Wenk, Deputy 
Director of the National Park Service, testified in support of this 
important legislation at the hearing.
    Acadia National Park is a true gem of the Maine coastline, and in 
nine years the park will be 100 years old. While unsurpassed in beauty, 
the Park's ecosystem is also very fragile. This legislation will help 
make the Park stronger and healthier than ever on the occasion of its 
centennial anniversary.
    I thank you in advance for your consideration.
            Sincerely,
                                          Susan M. Collins,
                                             United States Senator.
                                 ______
                                 
  Statement of the National Parks Conservation Association, on S. 327

    NPCA endorses passage of S. 327, a bill to authorize the Secretary 
of the Interior to conduct a special resource study of the sites 
associated with the life of Cesar Estrada Chavez and the farm labor 
movement. NPCA thanks the Committee for holding this timely hearing, 
and thanks Senators McCain, Salazar, and Boxer for sponsoring this 
important bipartisan legislation. Passage of S. 327 would be the first 
crucial step towards honoring the legacy of this extraordinary 
American, whose work as an activist, spiritual leader, 
environmentalist, and crusader for non-violent social change, helped 
shape the consciousness of the nation and played a crucial role in both 
the migrant labor and civil rights movements.
    Although few Americans realize it, the National Park Service is 
actually one of the largest stewards of Asian, Latino, Indian, and 
African-American history and culture. Yet not one of the nearly 400 
units in the National Park System honors the legacy of an individual 
contemporary Latino. Mr. Chavez deserves recognition at this highest 
level and with passage of companion legislation (H.R. 359) in the House 
in July 2007, the opportunity to commemorate this powerful legacy has 
never been closer to hand.
    As America evolves, so too must the historic and cultural memory of 
the nation. The time has come to honor Chavez's legacy through the 
National Park System. This is a good and wise thing to do both to 
ensure that this man and this movement are given their long-deserved 
place at the American table, and to help guarantee that our National 
Park System remains relevant to all Americans for generations to come.
                                 ______
                                 
                          Taunton River Watershed Campaign,
                                    Taunton, MA, September 5, 2007.
Hon. Jeff Bingaman,
Chair, Energy and Natural Resource Committee, 703 Hart Building, 
        Washington, DC.
Hon. Pete V. Domenici,
Ranking Member, Energy and Natural Resource Committee, 328 Hart 
        Building, Washington, DC.
Re: S.868

    Dear Chairman Bingaman and Ranking Member Domenici: We are writing 
on behalf of the Taunton River Watershed Campaign to express our 
overwhelming support for passage of S. 868. An Act to Amend the Wild 
and Scenic Rivers Act to designate segments of the Taunton River in the 
Commonwealth of Massachusetts as a component of the National Wild and 
Scenic Rivers System The National Park Service has found that all forty 
miles of the Taunton River's mainstem are eligible for Wild and Scenic 
designation based on the river's free-flowing condition and the 
presence of ``outstandingly remarkable'' natural and cultural resource 
values. These values include fisheries, history and archaeology, 
ecology and biodiversity, and scenery and recreation. The Park Service 
determined that the eligible reach extends from the headwaters of the 
Taunton at the confluence of the Town and Matfield River to Mount Hope 
Bay at the U.S. 195 Bridge in Fall River. We urge you to include the 
entire mainstem in this designation by adopting the ``Preferred 
Alternative'' recommended by the Park Service.
    The Park Service's findings were based on an extensive study of the 
river that was completed in July of 2005 by the Taunton Wild and Scenic 
River Study Committee. This committee included representatives of the 
ten cities and towns along the mainstem, the Massachusetts Riverways 
Program, the regional planning agency, several environmental groups and 
the Park Service itself. The legislative bodies of all ten communities 
voted to support the designation and the Taunton River Stewardship Plan 
that was also developed by the Committee.
    Since the completion of the Taunton Wild and Scenic Study, the 
Taunton River Watershed Campaign was formed. The Campaign is a 
partnership of ten leading environmental and planning organizations who 
share a strong, ongoing commitment to protecting critical water and 
land resources throughout the Taunton River watershed, and to helping 
achieve the goals identified by the Study Committee.
    The Taunton River is the longest, un-dammed coastal river in New 
England. It is home to over 154 species of birds, 45 species of fish 
and 360 plants species. Included in this rich biodiversity are three 
globally rare species of plants and two globally rare fish, bridle 
shiner and Atlantic sturgeon. The river supports one of the largest 
anadromous fish runs in the Northeast. Its estuary provides significant 
habitat for juvenile fish and shellfish. Tidal influence extends nearly 
twenty miles inland, and this factor creates globally rare freshwater 
tidal marshes, habitat for a wealth of nesting birds. Overall, the 
corridor supports thirty-one distinct wildlife habitats including rare 
wetland communities and numerous state-listed species of freshwater 
mussels, reptiles, amphibians and others.
    The Taunton River is the largest contributor of fresh water to 
Narragansett Bay. Its rich natural resources of the river supported a 
sizeable prehistoric population, and important archeological sites 
spanning more than ten thousand years are found in various locations 
throughout the corridor. The river and its shoreline also provide 
opportunities for a wide variety of recreational activities; canoeing 
the river and its tributaries is especially popular as a way to enjoy 
the natural beauty and wilderness character.
    The Wild and Scenic Rivers Act of 1969 established a system to 
allow selected rivers that possess ``outstandingly remarkable'' values 
to be preserved in free-flowing condition and protected for the benefit 
and enjoyment of present and future generations. The values of the 
Taunton River and its immediate environs have been well documented. The 
river is fully deserving of this designation. We urge you to act 
swiftly and favorably on the Park Service's recommendation to add the 
Taunton River to the National Wild and Scenic Rivers System.
    Thank you for considering these comments.
            Truly yours,
                                         Priscilla Chapman,
                                        Taunton Watershed Advocate.
                                              Susan Speers,
                                              Campaign Coordinator.
                                 ______
                                 
 Carella, Byrne, Bain, Gilfillan, Cecchi, Stwart & 
                                      Olstein, P.C.
                                        Counsellors at Law,
                                      Roseland, NJ, March 21, 2007.
Ms. Mary Bomer,
Director, National Park Service, 1849 C Street, NW, Washington, DC.
    Dear Ms. Bomer: While Governor of the State, I had the privilege of 
knowing Bob Hope during his many visits to New Jersey, including his 
flights to and from McGuire Air Force to overseas bases to entertain 
our troops. I recall his flight in 1983 to Beirut with his USO Troupe 
and his concerts in the State. I also had the pleasure of playing golf 
with him.
    Bob would mention the door that was opened for him at Ellis Island 
when he and his family were granted entry to America as newly arrived 
immigrants in 1908. He loved his adopted land.
    He respected the symbols of our nation--especially Ellis Island. It 
was his touchstone. It was his stepping stone to his life in America 
and citizenship. He would mention this in his concerts.
    I believe naming the third floor Ellis Island Library--``The Bob 
Hope Memorial Library'' is a fitting tribute. He always remembered his 
humble beginnings and the opportunities that began for him at Ellis 
Island as a young boy of four years of age.
    I am honored to support H.R. 759, await its passage and the naming 
of The Bob Hope Memorial Library.
            Very truly yours,
                                          Brendan T. Byrne.
                                 ______
                                 
                        Department of the Interior,
                                     National Park Service,
                                                       May 7, 2007.
Hon. Brendan T. Byrne,
Carella, Byrne, Bain, Gilfillan, Cocchi, Stewart & Olstein, P.C., 
        Counsellors at Law, 5 Becker Farm Road, Roseland, NJ.
    Dear Governor Byrne: Thank you for your letter of March 21, 2007, 
regarding the Department of the Interior's position on H.R. 759, a bill 
to redesignate the Ellis Island library on the third floor of the Ellis 
Island Immigration Museum as the Bob Hope Memorial Library.
    I understand your strong interest in commemorating Mr. Bob Hope, a 
true American hero and legendary entertainer who brought joy to 
millions of our soldiers serving both domestically and abroad. As 
Governor of New Jersey, it must have been a thrill to have a personal 
relationship with such a peat American, and I am honored to hear that 
Mr. Hope spoke so positively about his personal connection to Ellis 
Island, one of the gems of the National Park System.
    So many great people passed through Ellis Island on their way to a 
new life in America and it holds a special place in the heart of 
millions. I can appreciate the great feelings Mr. Hope and so many 
others have for their adopted land and the opportunities that this 
country provides to people who arrive on its shores. I also understand 
your strong desire to commemorate Mr. Hope by naming the library at 
Ellis Island in his honor.
    During the 109th Congress, the Department of the Interior testified 
on a similar bill (H.R. 323) before the House Resources Committee in 
May 2005, stating the the bill to redesignate the Ellis Island library 
as the Bob Hope Memorial Library would conflict with our management 
policies that require a strong association between the park and the 
person being commemorated, and require that five years elapse since the 
death of the person being commemorated.
    As you mentioned, H.R. 759 was introduced on January 31, 2007, by 
Representative Eliot Engel and has already passed the House and is 
awaiting Senate action. The Department has not had an opportunity to 
testify on the bill during this Congress, and hence, we have no 
position on the bill.
    I appreciate your taking the time to share with me your support for 
this legislation as a way of commemorating the personal connection Mr. 
Hope felt toward his adopted land and to Ellis Island.
            Sincerely,
                                            Daniel N. Wenk,
                                                   Deputy Director.

</pre></body></html>
